<html>
<title> - OVERSIGHT FIELD HEARING ON ``THE U.S. MILITARY BUILDUP ON GUAM AND CHALLENGES FACING THE COMMUNITY.''</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





  THE   U.S.   MILITARY   BUILDUP ON GUAM AND CHALLENGES FACING THE 
                               COMMUNITY

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

               Monday, August 13, 2007, in Mangilao, Guam

                               __________

                           Serial No. 110-40

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2008

37-527 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Kevin McCarthy, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON INSULAR AFFAIRS

            DONNA M. CHRISTENSEN, Virgin Islands, Chairwoman
        LUIS G. FORTUNO, Puerto Rico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            Jeff Flake, Arizona
Raul M. Grijalva, Arizona            Don Young, Alaska, ex officio
Madeleine Z. Bordallo, Guam
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                



                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, August 13, 2007..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     4
        Prepared statement of....................................     9
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bice, David F., Major General (Retired) USMC, Executive 
      Director, Joint Guam Program Office........................    17
        Prepared statement of....................................    19
    Camacho, Hon. Felix P., Governor of Guam.....................    37
        Prepared statement of....................................    39
    Cohen, Hon. David B., Deputy Assistant Secretary for Insular 
      Affairs, U.S. Department of the Interior...................    13
        Prepared statement of....................................    15
    Cristobal, Hon. Hope A., Former Senator, Guam Legislature....    68
        Prepared statement of....................................    71
    Leberer, Trina, Marine Conservation Coordinator, The Nature 
      Conservancy, Micronesia Program............................    80
        Prepared statement of....................................    82
    Lujan, Kenneth Q., Guam Branch Manager, U.S. Small Business 
      Administration.............................................    22
        Prepared statement of....................................    24
    Robertson, John M., P.E., Chairman, Government, Military, and 
      Labor Affairs Committee, Guam Contractors Association......    89
        Prepared statement of....................................    91
    Ruder, Stephen C., Chairman of the Board, Guam Chamber of 
      Commerce...................................................    75
        Prepared statement of....................................    77
    Sanchez, Simon A., II, Chairman, Consolidated Commission on 
      Utilities..................................................    49
        Prepared statement of....................................    50
    San Nicolas, Benny P., Chairman, Southern Soil & Water 
      Conservation District......................................    72
        Prepared statement of....................................    73
    Savares, Hon. Melissa, Mayor of Dededo, Guam, President, 
      Mayor's Council of Guam....................................    46
        Prepared statement of....................................    48
    Won Pat, Hon. Judith T., Minority Leader, 29th Legislature of 
      Guam.......................................................    41
        Prepared statement of....................................    43

Additional materials supplied:
    List of individuals submitting statements for the record.....    12



 
                   OVERSIGHT FIELD HEARING ON ``THE 
  U.S. MILITARY BUILDUP ON GUAM AND CHALLENGES FACING THE COMMUNITY.''

                              ----------                              


                        Monday, August 13, 2007

                     U.S. House of Representatives

                    Subcommittee on Insular Affairs

                     Committee on Natural Resources

                             Mangilao, Guam

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:10 a.m., at 
the College of Liberal Arts and Social Sciences Lecture Hall, 
University of Guam, Mangilao, Guam, Hon. Donna Christensen 
[Chairwoman of the Subcommittee] presiding.
    Present: Delegates Christensen and Bordallo.

          STATEMENT OF THE HON. DONNA M. CHRISTENSEN, 
         A DELEGATE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. The Oversight Field Hearing by the 
Subcommittee on Insular Affairs will come to order. The 
Subcommittee is meeting today to hear testimony on the ``U.S. 
Military Buildup on Guam and Challenges Facing the Community.''
    Good morning and Hafa Adai. Let me begin by welcoming the 
First Lady and by thanking the University of Guam and its 
President, Harold Allen, for hosting us today. There's no 
better place to conduct a hearing such as this than in a public 
university, a place that promotes not only education and the 
free exchange of ideas, but also works to create the kind of 
strong community that we are talking about today.
    The staff and faculty have been wonderful to work with and 
we really appreciate all of the assistance that they've 
provided to us in helping to put this hearing together. It is 
truly an honor for me to be on this beautiful island of Guam 
where America's day begins and where our nation's westernmost 
border also begins.
    As our country better prepares to protect our people and 
our homeland, we are all challenged by change. Nowhere though 
is a challenge greater than on Guam, as we look to the 
potential military buildup plan for this island paradise, this 
piece of America closest to Asia. It is therefore fortuitous 
that there is a Subcommittee on Insular Affairs which was re-
established by the House Natural Resources Full Committee 
Chairman, Nick Rahall, at the beginning of this 110th Congress.
    I believe Chairman Rahall recognized that our U.S. 
territories and also those island nations freely associated 
with the United States have great challenges in front of us 
today. Developing and diversifying economies, preserving 
culture and language, protecting the environment, resolving 
political status, these issues are not new, nor are they 
exclusive to any one territory. They are issues that have no 
immediate solution, issues that require time, energy, political 
will power, debate, deliberation, and compromise to reach 
resolution.
    We are here this morning because an additional set of 
issues has presented itself in the past few years. It is one 
that is exclusive to Guam, as there is no other territory or 
state in our union which has undergone what Guam could 
potentially undergo if a final decision is made to buildup the 
military presence here in Guam as has been projected.
    The Subcommittee is here with you on Guam because we are 
prepared to be your partners on this path. As the Chair of this 
subcommittee and as a representative of your sister territory 
in the Caribbean, I want to be sure that we are engaged, and 
that military planners and your leaders are aware that we are 
sensitive to the concerns which will be raised throughout this 
process. We are prepared to see the challenges become 
opportunities, that concerns are replaced with confidence, and 
that obstacles are overcome with advocacy.
    Along with me today is, of course, your own delegate, The 
Honorable Madeleine Bordallo. She and I have a very strong 
relationship and it is because of her determination that we 
begin this step with you today. In Congress, she has been 
steadfast in representing the interest of the people of Guam. 
It is because of her that I was happy to take on your fight and 
revisiting the issue of providing equity to Guam for war claims 
resulting from the island's World War II occupation. It was a 
fight with an overwhelming result as the House of 
Representatives passed it by more than a two-thirds majority in 
favor of the Guam World War II Loyalty Recognition Act. I 
continue and I will continue to work with Ms. Bordallo to have 
this Senate act on her legislation because the claims should be 
revisited and equity restored.
    During the past few days of my visit here, I've begun to 
get a good sense of what the big military picture is and how 
the plans for Guam, and now in their early stages, are 
beginning to take shape. We have also heard from many different 
sectors of the Guam community. Many are hopeful and positive 
even in the midst of uncertainty. The questions run the gamut; 
infrastructure, schools, business, culture, society, 
healthcare, roads, housing, labor. These are all very fair and 
very appropriate concerns that any community would have. We 
have the opportunity to discuss these today and Congresswoman 
Bordallo, of course, is going to provide another opportunity on 
Thursday at her town meeting, and I hope that many who would 
have wanted to testify today, but who we could not accommodate, 
and those who are testifying by their protest outside, will 
take the opportunity to make their voices heard on Thursday 
evening.
    So, the challenge for now is twofold; determining the new 
role of Guam in defending our nation, and defining the Federal 
Government's responsibility to the people of Guam as this role 
unfolds. The first can only be done by military planners and is 
driven by threats to our nation. Latter though, cannot be done 
without the input of the people of Guam.
    Today, we will be receiving testimony which will build upon 
the first impressions we've received, the meetings and the 
discussions we've already had. We will also begin to build the 
Congressional record on the military buildup and the possible 
impact on the Guamanian people.
    It is important to remember that we are only at the 
beginning of this process, which only the most optimistic 
project will really end in 2014. So, time is on all of our 
side.
    It is also important to remember that all of the right 
elements are here. All that is needed is a commitment to work 
collaboratively to make the buildup as a success that I know it 
can be.
    I want to welcome our witnesses. I want to welcome all and 
thank all who have provided us with information already, and 
all who are here with us in this auditorium today.
    [The prepared statement of Mrs. Christensen follows:]

       Statement of The Honorable Donna Christensen, Chairwoman, 
                    Subcommittee on Insular Affairs

    Good morning and Hafaa Adai.
    Let me begin by thanking the University of Guam and its President 
Harold Allen for hosting us today. There is no better place to conduct 
a hearing than at a Public University--a place that promotes not only 
education and a free exchange of ideas but also creates a strong 
community. The staff and faculty have been wonderful to work with and 
we truly appreciate all the assistance they have provided in helping to 
put this hearing together.
    It is truly an honor to be here on the beautiful island of Guam, 
where America's day begins, and where our Nation's westernmost border 
also begins.
    As our country better prepares to protect our people and our 
homeland we are all challenged by change. Nowhere though is the 
challenge greater than on Guam as we look to the potential military 
buildup planned for this island paradise--this piece of America closest 
to Asia.
    It is therefore fortuitous that there is a Subcommittee on Insular 
Affairs which was re-established by the House Natural Resources Full 
Committee Chairman Nick Rahall, at the beginning of the 110th Congress. 
I believe Chairman Rahall recognized that our U.S. territories, and 
also those island nations freely associated with the United States, 
have great challenges in front of them today.
    Developing and diversifying economies, preserving culture and 
language, protecting the environment, resolving political status--these 
issues are not new, nor are they exclusive to any one territory. They 
are issues that have no immediate solution and they require time, 
energy, political will power, debate, deliberation, and compromise to 
reach resolution.
    We are here this morning because an additional set of issues has 
presented itself in the past few years. It is one that is exclusive to 
Guam, as there is no other territory or State in our Union, which has 
undergone what Guam could potentially undergo if a final decision is 
made to buildup the military presence here on Guam.
    This Subcommittee is here, with you, on Guam because we are 
prepared to be your partners on this path. As the chair of this 
Subcommittee, and as a representative of your sister Territory in the 
Caribbean, I want to be sure that we are engaged and that military 
planners and your own leaders are aware that we are sensitive to the 
concerns which will be raised throughout this process. We are prepared 
to see that challenges become opportunities, concerns are replaced with 
confidence, and obstacles overcome with advocacy.
    Along with me today is your Delegate, Madeleine Bordallo. She and I 
have a strong relationship and it is because of her determination that 
we begin this step with you. In Congress she has been steadfast in 
representing the interests of the people of Guam. It is because of her 
that I was happy to take on your fight revisiting the issue of 
providing equity to Guam for war claims resulting from the island's 
World War II occupation. It was a fight with an overwhelming result as 
the House of Representatives passed by more than a two-thirds majority 
in favor of the Guam World War II Loyalty Recognition Act. I continue 
to work with Ms. Bordallo to have the Senate act on her legislation 
because claims should be revisited and equity restored.
    During the past few days of my visit here, I have begun to get a 
good sense of what the big military picture is and how the plans for 
Guam are beginning to take shape. We have also heard from different 
sectors of the Guam community. Many are hopeful and positive though 
there is midst of uncertainty. The questions run the gamut--
infrastructure, schools, business, culture, society, healthcare, roads, 
housing, labor--these are all very fair and appropriate concerns that 
any community would have.
    So, the challenge, for now, is twofold. Determining the new role of 
Guam in defending our Nation; and defining the Federal Government's 
responsibility to the people of Guam as this determination unfolds. The 
first can only be done by military planners and driven by threats on 
our Nation; the latter cannot be done without the input of the people 
of Guam.
    Today we will be receiving testimony which will build upon those 
first impressions, and which will also begin to build the congressional 
record on the military buildup and the possible impact on the Guamanian 
people.
    It is important to remember that we are only at the beginning of a 
process which only the most optimistic project will end in 2014. So 
time is on all of our side.
    All of the right elements are here. All that is needed is a 
commitment to work collaboratively to make the buildup the success I 
know this can be.
                                 ______
                                 
    Mrs. Christensen. And now, the Chair recognizes 
Congresswoman Madeleine Bordallo for any statement that she 
might have.

         STATEMENT OF THE HON. MADELEINE Z. BORDALLO, 
                A DELEGATE IN CONGRESS FROM GUAM

    Ms. Bordallo. Good morning and Hafa Adai. First Lady 
Camacho, members of the Legislature, the Mayors, Dr. Allen, and 
the faculty of the University of Guam, thank you for allowing 
us to use the facility, our distinguished witnesses, ladies and 
gentlemen.
    Madam Chairwoman, I thank you for agreeing to hold this 
very important hearing today on Guam about the impending 
military buildup for our island. As you know, this hearing is 
very important to us, to my constituents, as it is the first 
Congressional hearing to be held in Guam in 24 years. It has 
been my firm belief that the military buildup on Guam will 
offer our community a unique opportunity to roll our economy 
and to improve our public works and infrastructure.
    The 2005 Integrated Global Presence and Basing Strategy 
from the Overseas Basing Commission, which was chartered by 
Congress, laid the groundwork for the rebasing of roughly 8,000 
Marines from the 3rd Marine Expeditionary Force to Guam from 
Okinawa, Japan. The Overseas Basing Commission report 
reaffirmed a strategic importance of Guam in the region. By 
placing United States Armed Forces on Guam, it affords the 
Department of Defense the flexibility and the freedom of action 
to respond to regional threats in crises, while providing our 
island and our people additional security in the face of rising 
global threats.
    This very point of the strategic value of Guam has been 
underscored in Washington before Congress by many Defense 
analysts and leaders, including our immediate previous 
Secretary of Defense, The Honorable Donald Rumsfeld, who 
traveled to Guam in 2003 to review for himself the 
opportunities for and the value of placing additional assets 
and personnel on our military bases.
    The strategic value of Guam was also emphasized by Governor 
Camacho, the Guam Chamber of Commerce, and myself before the 
BRAC Commission in 2005. And the recognition of this strategic 
value of Guam is a key reason why we now see renewed interest 
and investment from DOD in our military bases.
    I continue to believe and maintain that the BRAC closures 
in 1990s were a mistake, including the closure of SRF, PWC, the 
redeployment of ships and aircraft based here, and the 
downsizing of NCTAMS.
    The Secretary of State, Dr. Condoleezza Rice, has declared 
2007 to be the Year of the Pacific. The United States is 
increasingly focusing on efforts in our region to increase 
stability, good governance, and economic development through 
closer political economic and cultural ties to our neighbors. 
Our island is central to these efforts. All of this has laid a 
foundation for renewed lateral defense alliance with our friend 
and ally, Japan, which has moved Guam into a unique and high-
level focus inside the Pentagon.
    Secretary Rumsfeld reminded me on several occasions that 
the U.S. Military goes where we are wanted. Such sentiment is 
particularly relevant to the buildup for Guam. I have 
consistently maintained throughout my public career that the 
partnership we enjoy here on Guam with the U.S. Military is 
beneficial to us overall, and represents a key area which 
through mutual respect and cooperation we have and continued to 
grow our economy. My belief in this regard has only grown 
stronger over the years and been re-enforced with the 
opportunities presented before us with this buildup.
    Although the size of the military buildup is substantial in 
terms of investment needed for infrastructure, the total number 
of military personnel that will be moving to our island is 
roughly the same as the total number of military personnel that 
were stationed on Guam during the 1980s and early 1990s. In 
fact, the 3rd Marine Expeditionary Force realignment is a 
homecoming for the same division of Marines that liberated our 
island from enemy occupation 63 years ago. The Marines are 
returning to a community that respect and appreciate their 
selfless dedication in heroism.
    Many of our own sons and daughters have served and continue 
to serve proudly and honorably in the United States Armed 
Forces today. We welcome this move, just as we would expect 
other communities to welcome our sons and daughters on the 
bases in their communities.
    The United States Marine Corps and the Navy have had a long 
and storied history on Guam. It is this history that bounds our 
island community and our partners in the military together. The 
military buildup signals the beginning of a new chapter in the 
partnership between the residents of Guam and the United States 
Armed Services.
    Beyond the historic symbolism of the move, the military 
buildup offers our community and the Federal Government a 
unique opportunity to coordinate local and Federal resources to 
improve the overall infrastructure on our island, which is key 
to our economic growth and achieving an overall better quality 
of life for our families and military service personnel on 
Guam. Moreover, the defense alliance and agreement with the 
government of Japan will bring about increased military 
cooperation and training exercises on Guam.
    Guam welcomes these exercises that further strengthen the 
strategic partnership. Operation Valiant Shield is evident of 
the growing interest in hosting multilateral training exercises 
from Guam. These exercises translate into security for our 
island in the region, and into jobs and earnings for our 
businesses that will increase government revenues and enable 
infrastructure improvements.
    Moreover, even before the buildup begins in earnest, we are 
seeing the early fruits of economic prosperity. Media reports 
have shown that property values have risen by 300 percent over 
the past year. Rising property values means equity for the 
residents of Guam, and that translates into wealth. A well-
planned, integrated and coordinated master plan for the buildup 
will ensure that all of our residents can benefit from future 
economic opportunities that will improve their quality of life 
without sacrificing our heritage and culture.
    The buildup also offers other areas for improving our 
quality of life. The increased military presence stands to 
bring about better veterans services. Two weeks ago, the 
Secretary of Veterans Affairs announced the approval of a $5.4 
million clinic to provide veterans on Guam with access to a 
modern healthcare facility. This announcement is indicative of 
new services on the way for our veterans.
    Also, we can expect that there will be increased medical 
expertise at the Naval Hospital with growth in our island's 
population. Residents of Guam will benefit from the increase of 
medical expertise on the island. I encourage the Department of 
Defense and the Government of Guam to review areas for 
increased cooperation between the Naval Hospital and GMH in 
light of the buildup. These opportunities will only come if 
local, Federal, and military leaders cooperate and integrate 
their planning.
    The military buildup on Guam has been described as 
difficult, unique, impossible, and doomed for failure. Well, I 
would beg to differ with such characterizations. Instead, I 
believe the military buildup presents our community with 
opportunities that we would be foolish to ignore. Yet, we would 
also be foolish to underestimate the challenges it presents.
    There is no question in my mind that we face many 
challenges, but I think all of us would prefer to be facing 
these challenges that are associated with growth rather than 
facing challenges associated with decline. We must be honest 
with ourselves and each other in this process. I prefer to be 
optimistic, but realistic. We must keep things in perspective 
if we are to succeed.
    The announcements and initial planning to date have 
generated senses of elation, anger, anxiety, but some view the 
buildup from a broad and balanced perspective. Others are 
concerned with certain angles and elements given their roles 
and standing in the community, past experiences or education, 
and professional background.
    This hearing, this morning, and the dialogue that will be 
continued after today, is meant to capture a wide range of 
views and concerns. Three panels have been organized today with 
witnesses representing a broad cross-section of our community.
    This hearing marks the beginning of our dialogue and will 
lay the foundation for a Congressional record on the buildup 
with focus on the civilian community and the concerns of our 
people.
    As Senator Pangelinan has stated, this buildup is an 
unprecedented move that we cannot afford to have addressed in a 
precedented way. It is an opportunity for the Federal 
Government and the Government of Guam to develop together 
innovative solutions to the challenges it presents.
    Since the establishment of a Joint Chiefs of Staff, the 
Department of Defense has been moving toward the creation of a 
truly joint or total force concept for all military forces. The 
Department of Defense has, with the Guam buildup, the unique 
opportunity to trail blaze a new era in the management of 
complex projects and to further its jointness approach beyond 
simply its own services.
    At the end of the day, the buildup of forces on Guam should 
be held as an example of how interagency cooperation and 
integration with civilian authorities can lead to successful 
outcomes. Cooperation and integration are critical to ensuring 
that the challenges surrounding the buildup can be overcome 
with innovative and forward-thinking solutions. A jointness 
approach should be adopted by the Department of Defense and the 
Government of Guam.
    Allow me to touch upon a few of the challenges that I know 
will be discussed by our witnesses today. One challenge that 
has been identified is the availability of sufficient human 
capital for projects. The Fiscal Year 2008 budget should 
contain up to $345 million in military construction alone. To 
put that figure in perspective, the Department of Defense 
estimates that the on-island capacity for all construction is 
about $400 million. By Fiscal Year 2010, we are told that 
initial plans call for an increase in military construction to 
approach $2.5 billion for this buildup to work, a sevenfold 
increase over Fiscal Year 2008 funding.
    We will have to continue working together to ensure that 
our workforce currently on Guam is provided with adequate 
training opportunities in order to take advantage of skilled 
labored jobs that become available as a result of the buildup. 
That is why Chairwoman Christensen and I visited GCC last week. 
We need to exhaust this option before we earnestly discuss 
access to human capital beyond our borders.
    Another challenge that has been raised is the capacity of 
our port. The port has to prepare for the increase in shipping 
traffic, possibly as much as a 70 percent increase within the 
next four years. I have consulted with Governor Camacho and 
Federal officials about the port, and I am confident that the 
port will be able to adapt and make the necessary improvements 
that we need if cooperation begins today. Our community has to 
find consensus on the issue of port expansion, and policy 
makers have to really consider what the future of the port will 
be.
    Finally, while the buildup will provide a better quality of 
life and economic opportunity for residents of Guam, we cannot 
sacrifice the beauty and the ecological integrity of our 
island. Earlier this year, the Department of Defense commenced 
scoping meetings for the Environmental Impact Statement or the 
EIS. As General Bice will testify, the next step is to have the 
military do a more comprehensive analysis of the environmental 
impacts the buildup will bring for our island. The EIS may take 
2 to 3 years to complete, and I assure you that wait will be 
worth it. A thorough analysis of all opportunities for 
improving infrastructure must be looked at and addressed in the 
final EIS document.
    In keeping with our promise to be innovative and forward-
thinking, I hope that an EIS and a master plan will take into 
account opportunities for development of green infrastructure. 
In all cases where it is feasible we should be trying to build 
environmentally friendly and sensitive projects. I support the 
process and the approach that the Department of Defense has 
adopted in this early stage of planning.
    A single, comprehensive EIS for the buildup best ensures 
that our community has the opportunity to comment on all 
aspects of the planning, and that it compels the Department of 
Defense to render a balanced assessment of the impacts for our 
community, our environment. I urge the Department of Defense to 
continue strong public dialogue in this process, and to agree 
to reasonably mitigation in the event of adverse impacts.
    A project of this magnitude does not come without 
considerable challenges. However, I believe that our challenges 
will lead to progress. I'm optimistic that we can overcome 
these challenges, but I recognize that our goals must remain 
realistic as we move forward. The people of Guam have faced 
countless challenges over the course of our history, and have 
overcome these challenges time and time again.
    Our hearing today marks the beginning of an oversight role 
in Congress on the military buildup. It was important to hold 
our first such oversight hearing right here in Guam so that all 
of our citizens can listen to the concerns, the ideas, and the 
solutions proposed by various local and Federal leaders 
involved with the military buildup.
    Federal officials should be honest and direct in responding 
to Congress, and to the Government of Guam on this project. I 
have confidence in the Federal leaders that we will hear from 
today, and I have confidence in the talents and the potential 
of our community.
    Our role in Congress will continue to be to hold officials 
accountable in this process, and to ensure that all levels of 
government and civilian private sector leaders are working 
together for the benefit of all our residents. I am here today 
as a representative of all the people of Guam, and I am willing 
and ready to do my part to assist our leaders in working with 
the Federal Government.
    I want to commend Deputy Assistant Secretary David Cohen in 
cooperation with General David Bice, and the Joint Guam Program 
Office for beginning an interagency dialogue with Federal 
partners in the Government of Guam.
    It is time to get serious about the planning. There will be 
no blank check written to the Department of Defense or the 
Government of Guam. There is no magic wand that either the 
Federal Government or the Government of Guam can wave to solve 
these challenges. Success will be brought by planning and 
prioritization.
    We must fully take advantage of and utilize existing 
Federal programs and the mechanisms to meet identified needs. 
This is where partnership becomes the critical link to making 
this buildup work for all of us, for all the people of Guam, 
the military, the Federal Government.
    Again, I thank Chairwoman Christensen for holding this 
hearing, and I look forward to all the witnesses testimony. 
Thank you.
    Mrs. Christensen. Thank you, Madam Chairwoman Bordallo.
    [The prepared statement of Ms. Bordallo follows:]

           Statement of The Honorable Madeleine Z. Bordallo, 
                    a Delegate in Congress from Guam

    Madam Chairwoman, thank you for agreeing to hold this very 
important hearing today on Guam about the impending military build-up 
for our island. As you know, this hearing is very important to us--to 
my constituents--as it is the first Congressional hearing to be held on 
Guam in 24 years. It has been my firm belief that the military build-up 
on Guam will offer our community a unique opportunity to grow our 
economy and to improve our public works and infrastructure.
    The 2005 Integrated Global Presence and Basing Strategy (IGPBS) 
from the Overseas Basing Commission, which was chartered by Congress, 
laid the groundwork for the rebasing of roughly 8,000 Marines from the 
3rd Marine Expeditionary Force to Guam from Okinawa, Japan. The 
Overseas Basing Commission report reaffirmed the strategic importance 
of Guam in the region. By placing United States Armed Forces on Guam it 
affords the Department of Defense the flexibility and freedom of action 
to respond to regional threats and crises, while providing our island 
and our people additional security in the face of rising global 
threats.
    This very point of the strategic value of Guam has been underscored 
in Washington before Congress by many defense analysts and leaders, 
including our immediate previous Secretary of Defense, Donald Rumsfeld, 
who traveled to Guam in 2003, to review for himself the opportunities 
for and value of placing additional assets and personnel on our 
military bases. The strategic value of Guam was also emphasized by 
Governor Camacho, the Guam Chamber of Commerce, and myself, before the 
Base Closure and Realignment (BRAC) Commission in 2005. And the 
recognition of the strategic value of Guam is a key reason why we now 
see renewed interest and investment from DoD in our military bases. I 
continue to believe and maintain that the BRAC closures in the 1990s 
were a mistake, including the closure of the Ship Repair Facility 
(SRF), the Public Works Center (PWC), the redeployment of ships and 
aircraft that were based here, and the downsizing of the Naval Computer 
and Telecommunications Area Master Station Pacific (NCTAMS).
    The Secretary of State, Dr. Condoleezza Rice, has declared 2007 to 
be the ``Year of the Pacific.'' The United States is increasingly 
focusing on efforts in our region to increase stability, good 
governance and economic development through closer political, economic 
and cultural ties to our neighbors. Our island is central to these 
efforts.
    All of this has laid a foundation for a renewed bilateral defense 
alliance with our friend and ally, Japan, which has moved Guam into a 
unique and high-level focus inside the Pentagon.
    Secretary Rumsfeld reminded me on several occasions that the U.S. 
military ``goes where we are wanted.'' Such sentiment is particularly 
relevant to the build-up for Guam. I have consistently maintained 
throughout my public career that the partnership we enjoy here on Guam 
with the U.S. military is beneficial to us overall and represents a key 
area, which through mutual respect and cooperation, we have and can 
continue to grow our economy. My belief in this regard has only grown 
stronger over the years and been reinforced with the opportunities 
presented before us with this build-up.
    Although the size of the military build-up is substantial in terms 
of investment needed for infrastructure, the total number of military 
personnel that will be moving to our island is roughly the same as the 
total numbers of military personnel that were stationed on Guam during 
the 1980s and early 1990s. In fact, the realignment of the 3rd Marine 
Expeditionary Force is a homecoming for the same division of Marines 
that liberated our island from enemy occupation 63 years ago. The 
Marines are returning to a community that respect and appreciate their 
selfless dedication and heroism. Many of our own sons and daughters 
have served and continue to serve proudly and honorably in the United 
States Armed Forces today. We welcome this move just as we would expect 
other communities to welcome our sons and daughters on the bases in 
their communities.
    The United States Marine Corps and the Navy have had a long and 
storied history on Guam. It is this history that bonds our island 
community and our partners in the military together. The military 
build-up signals the beginning of a new chapter in the partnership 
between the residents of Guam and the United States Armed Forces.
    Beyond the historic symbolism of the move, the military build-up 
offers both our community and the federal government a unique 
opportunity to coordinate local and federal resources to improve the 
overall infrastructure on our island--which is key to our economic 
growth and achieving an overall better quality of life for our families 
and military service personnel on Guam. Moreover, the defense alliance 
and agreement with the Government of Japan will bring about increased 
military cooperation and training exercises on Guam. Guam welcomes 
these exercises that further strengthen this strategic partnership. 
Operation Valiant Shield is evidence of the growing interest in hosting 
multilateral training exercises from Guam. These exercises translate 
into security for our island and the region, and into jobs and earnings 
for our businesses, that will increase government revenues and enable 
infrastructure improvements.
    Moreover, even before the build-up begins in earnest we are seeing 
the early fruits of economic prosperity. Media reports have shown that 
property values have risen by 300% over the past year. Rising property 
values mean equity for the residents of Guam--and that translates into 
wealth. A well planned, integrated and coordinated master plan for the 
build-up will ensure that all of our residents can benefit from future 
economic opportunities that will improve their quality of life without 
sacrificing our heritage and culture.
    The build-up also offers other areas for improving our quality of 
life. The increased military presence stands to bring about better 
veterans' services. Two weeks ago, the Secretary of Veterans' Affairs 
announced the approval of a $5.4 million Community Based Outpatient 
Clinic (CBOC) to provide veterans on Guam with access to a modern 
health care facility. This announcement is indicative of new services 
on the way for our veterans. Also, we can expect that there will be 
increased medical expertise at the Naval Hospital with growth in our 
island's population. Residents of Guam will benefit from the increase 
of medical expertise on-island. I encourage the Department of Defense 
and the Government to Guam to review areas for increased cooperation 
between Naval Hospital and Guam Memorial Hospital (GMH) in light of the 
build-up.
    These opportunities will only come to fruition if local, federal 
and military leaders cooperate and integrate their planning. The 
military build-up on Guam has been described as difficult, unique, 
impossible, and doomed for failure. I would beg to differ with such 
characterizations. Instead, I believe the military build-up presents 
our community with opportunities we would be foolish to ignore. Yet, we 
would also be foolish to underestimate the challenges it presents. 
There is no question that we face many challenges, but I think all of 
us would prefer to be facing these challenges that are associated with 
growth, rather than facing challenges associated with decline. We must 
be honest with ourselves and each other in this process. I prefer to be 
optimistic, but realistic. We must keep things in perspective if we are 
to succeed.
    The announcements and initial planning to date have generated 
senses of elation, anger, anxiety, and trepidation. Some view the 
build-up from a broad and balanced perspective; others are concerned 
with certain angles and elements given their roles and standing in the 
community, past experiences, or education and professional background.
    This hearing, and the dialogue that will be continued after today, 
is meant to capture a wide range of views and concerns. Three panels 
have been organized today with witnesses representing a broad cross-
section of our community. This hearing marks the beginning of our 
dialogue, and will lay the foundation for a Congressional record on the 
build-up with focus on the civilian community and the concerns of our 
people.
    As Senator Pangelinan has stated, this build-up is an unprecedented 
move that we cannot afford to have addressed in a precedented way. It 
is an opportunity for the federal government and the Government of Guam 
to develop together innovative solutions to the challenges it presents.
    Since the establishment of a Joint Chiefs of Staff (JCS), the 
Department of Defense has been moving towards the creation of a truly 
``joint'' or ``Total Force'' concept for all military forces. The 
Department of Defense has--with the Guam build-up--the unique 
opportunity to trail blaze a new era in the management of complex 
projects and to further its ``jointness'' approach beyond simply its 
own services. At the end of the day, the build-up of forces on Guam 
should be held as the example of how interagency cooperation and 
integration with civilian authorities can lead to successful outcomes. 
Cooperation and integration are critical to ensuring that the 
challenges surrounding the build-up can be overcome with innovative and 
forward-thinking solutions. A ``jointness'' approach should be adopted 
by the Department of Defense with the Government of Guam.
    Allow me to touch upon a few of the challenges that I know will be 
discussed by our witnesses today.
    One challenge that has been identified is availability of 
sufficient human capital for projects. The Fiscal Year 2008 budget 
could contain up to $345 million in military construction alone. To put 
that figure in perspective, the Department of Defense estimates that 
the on-island capacity for all construction is about $400 million. By 
Fiscal Year 2010, we are told initial plans call for an increase in 
military construction to approach $2.5 billion for this build-up to 
work--a seven fold increase over Fiscal Year 2008 funding.
    We will have to continue working together to ensure that our 
workforce currently on Guam is provided with adequate training 
opportunities in order to take advantage of skilled labor jobs that 
become available as a result of the build-up. That is why Chairwoman 
Christensen and I visited Guam Community College (GCC) last week. We 
need to exhaust this option before we earnestly discuss access to human 
capital beyond our borders.
    Another challenge that has been raised is the capacity of our port. 
The port has to prepare for the increase in shipping traffic, possibly 
as much as a 70% increase within four years. I have consulted with 
Governor Camacho and federal officials about the port, and I am 
confident that the port will be able to adapt and make the necessary 
improvements that we need if cooperation begins today. Our community 
has to find consensus on the issue of port expansion and policy makers 
have to really consider what the future of the port will be.
    Finally, while the build-up will provide a better quality of life 
and economic opportunity for residents of Guam we cannot sacrifice the 
beauty and ecological integrity of our island. Earlier this year the 
Department of Defense commenced scoping meetings for the Environmental 
Impact Statement or the EIS. As General Bice will testify, the next 
step is to have the military do a more comprehensive analysis of the 
environmental impacts that the build-up will bring for our island. The 
EIS may take two to three years to complete and I assure you that the 
wait will be worth it. A thorough analysis of all opportunities for 
improving infrastructure must be looked at and addressed in the final 
EIS document. In keeping with our promise to be innovative and forward-
thinking, I hope that an EIS and master plan will take into account 
opportunities for development of ``green'' infrastructure. In all cases 
where it is feasible, we should be trying to build environmentally 
friendly and sensitive projects. I support the process and approach 
that the Department of Defense has adopted in this early stage of 
planning. A single, comprehensive EIS for the build-up best ensures 
that our community has the opportunity to comment on all aspects of the 
planning, and that it compels the Department of Defense to render a 
balanced assessment of the impacts for our community and our 
environment. I urge the Department of Defense to continue strong public 
dialogue in this process, and to agree to reasonable compensatory 
mitigation in the event of adverse impacts.
    A project of this magnitude does not come without its share of 
considerable challenges. However, I believe that our challenges will 
lead to progress. I am optimistic that we can overcome these 
challenges, but I recognize that our goals must remain realistic as we 
move forward. The people of Guam have faced countless challenges over 
the course of history and have overcome these challenges time and time 
again.
    Our hearing today marks the beginning of our oversight role in 
Congress on the military build-up. It was important to hold our first 
such oversight hearing right here on Guam so that all of our citizens 
can listen to the concerns, ideas and solutions proposed by various 
local and federal leaders involved with the military build-up. Federal 
officials should be honest and direct in responding to Congress and to 
the Government of Guam on this project. I have confidence in the 
federal leaders that we will hear from today, and I have confidence in 
the talents and potential of our own community. Our role in Congress 
will continue to be to hold officials accountable in this process and 
to ensure that all levels of government and civilian private-sector 
leaders are working together for the betterment of all residents. I am 
here as the representative of all the people of Guam, and I am willing 
and ready to do my part to assist our leaders in working with the 
federal government. I want to commend Deputy Assistant Secretary David 
Cohen, in cooperation with General David Bice and the Joint Guam 
Program Office, for beginning an interagency dialogue with federal 
partners and the Government of Guam.
    It is time to get serious about the planning. There will be no 
blank check written to the Department of Defense or the Government of 
Guam. There is no magic wand that either the federal government or the 
Government of Guam can wave to solve these challenges. Success will be 
brought by planning and prioritization. We must fully take advantage of 
and utilize existing federal programs and mechanisms to meet identified 
needs. This is where partnership becomes the critical link to making 
this build-up work for all of us.
    Again, I thank Chairwoman Christensen for holding this hearing and 
I look forward to all of the witnesses' testimony.
                                 ______
                                 
    Mrs. Christensen. If there are no objections, I'd now like 
to submit, for the official record, the written testimony of 
the following individuals: John and Cherry Aguon, Carlotta Leon 
Guerrero, The Honorable Judith Paulette Guthertz of the 29th 
Guam Legislature, Wayne Nastri, Regional Administrator for 
Region 9 of the U.S. Environmental Protection Agency, Michael 
D. Setzer II, Abraham Wong, Division Administrator, Hawaii 
Division of the Federal Highway Administration. And hearing no 
objections, so ordered.
   [NOTE: Statements submitted for the record by the following 
individuals have been retained in the Committee's official files:]
    <bullet>  John and Cherry Aguon
    <bullet>  Antonio Artero, Realtor/ Submariner-U.S. Navy (Ret.)
    <bullet>  Deborah C. Belanger
    <bullet>  Senator Frank F. Blas Jr., Legislature of Guam
    <bullet>  Yvonne M.G. Blas
    <bullet>  Bob Bureau
    <bullet>  Senator Edward J.B. Calvo, Vice Speaker, 29th Legislature 
of Guam
    <bullet>  Robert N. Celestial Sgt, President, ``Pacific Association 
For Radiation Survivors'' (PARS)
    <bullet>  Manuel Cruz, Acting Executive Director of the Guam 
Development Disabilities Council (GDDC)
    <bullet>  Arnold Davis, Major, USAF (Ret)
    <bullet>  Felixberto R. Dungca Jr.
    <bullet>  Florence Dungca
    <bullet>  George C. Eustaquio
    <bullet>  Monaeka Flores
    <bullet>  Fuetsan Famaloa'an
    <bullet>  Carlotta Leon Guerrero
    <bullet>  Judith Paulette Guthertz, 29th Legislature of Guam
    <bullet>  Cole Herndon
    <bullet>  Dr. Thomas J. Iverson, Professor of Economics, University 
of Guam
    <bullet>  Senator Frank T. Ishizaki, 29th Guam Legislature
    <bullet>  Jesse Anderson Lujan, 29th Guam Legislature, Chairman of 
Committee on Aviation, Federal Affairs, Labor, Housing, Banking and 
Insurance
    <bullet>  Saina Ma'ase
    <bullet>  Greg S. Massey, Administrator, Alien Labor Processing and 
Certification Division, Guam Department of Labor
    <bullet>  Peter C. Mayer, Ph.D.
    <bullet>  Prudencio F. Meno
    <bullet>  Wayne Nastri, Regional Administrator, U.S. Environmental 
Protection Agency
    <bullet>  Mary A. Y. Okada, President, Guam Community College (on 
behalf of)
    <bullet>  John A.B. Pangelinan
    <bullet>  Debbie Quinata
    <bullet>  Matt Rector, President, AFT Local 1581, AFL-CIO
    <bullet>  Senator Rory J. Respicio, 29th Legislature of Guam
    <bullet>  Michael D. Setzer
    <bullet>  Peter R. Sgro, Chairman, Guam Hospital Development Forum
    <bullet>  Dr. David L.G. Shimizu, 29th Guam Legislature
    <bullet>  Berrie Straatman
    <bullet>  Kenneth T. Tagawa, General Manager, Port Authority of 
Guam
    <bullet>  John Ray Taitano, President, Veterans Advisory Council
    <bullet>  Albert S. Topasna, Investigator
    <bullet>  Mary Torre, President, Guam Hotel and Restaurant 
Association
    <bullet>  Charles H. Troutman
    <bullet>  David B. Tydingco, Chairman, Guam Visitors Bureau Board 
of Directors
    <bullet>  Antonio R. Unpingco, 29th Guam Legislature
    <bullet>  Richard H.J. Wyttenbach-Santos
    <bullet>  Alfred Ysrael
                                 ______
                                 
    Mrs. Christensen. I would now like to recognize the first 
panel of witnesses, The Honorable David B. Cohen, Deputy 
Assistant Secretary for Insular Affairs at the U.S. Department 
of the Interior; Mr. David F. Bice, Executive Director of the 
Joint Guam Program Office; and Mr. Kenneth Lujan, Administrator 
for Guam and the CNMI for the U.S. Small Business 
Administration.
    The Chair now recognizes Deputy Assistant Secretary Cohen 
to testify for five minutes. The timing lights for all of the 
witnesses is on the table and will indicate when your time has 
concluded. And please remember that your full statements will 
be admitted into the record.

  STATEMENT OF DAVID B. COHEN, DEPUTY ASSISTANT SECRETARY FOR 
        INSULAR AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Cohen. Hafa Adai, Madam Chairwoman and Madam 
Congressman. It is a pleasure to appear before you today.
    As you know, the Department of Defense is planning to 
transfer approximately 8,000 Marines and 9,000 family members 
from Okinawa to Guam at the cost of more than $10 billion. 
Impacts for Guam will be significant.
    Secretary Dirk Kempthorne and the Department of the 
Interior have a great interest in these developments. The 
Secretary is responsible for generally administering the 
Federal Government's relationship with the territories. The 
Secretary also chairs the Interagency Group on Insular Areas, 
or the IGIA, which coordinates Federal policy with respect to 
the U.S. territories. The Secretary of the Interior has offered 
the services of the IGIA to the Department of Defense to 
coordinate Federal agency participation in this project.
    The IGIA has established a working group on Guam military 
expansion to address issues related to the military buildup. 
The working group supports the efforts of General Bice and 
DOD's Joint Guam Program Office, and follows its lead, and 
includes in addition to DOD and Interior, the Departments of 
State, Agriculture, Health and Human Services, Labor, Justice, 
Transportation, Housing and Urban Development, Education, 
Veterans Affairs, as well as the Small Business Administration, 
the Office of Management and Budget, the U.S. Postal Service 
and others. We are working closely with the Government of Guam, 
both the Governor's administration and the Legislature, whom 
the Secretary met with when he was here, Guam's Delegate to the 
U.S. House of Representatives, Congresswoman Bordallo, members 
of the community, and will be working closely with the leaders 
of other island communities as well.
    On August 2nd, the IGIA hosted a meeting of numerous 
Federal agencies regarding the Guam military buildup. Besides 
the general meeting, five specialty workshops were convened to 
discuss policy and resource requirements relating to (1) labor 
and workforce issues, (2) Guam civilian infrastructure needs, 
(3) health and human services requirements, (4) the 
environment, and (5) socioeconomic issues.
    At this point, we are making a comprehensive effort to 
identify issues that will need to be addressed in order for the 
buildup to proceed smoothly, and are tasking agencies with the 
responsibility to address issues that fall within their 
respective domains.
    It is anticipated that this project will require 12,000 to 
15,000 construction workers. This large requirement for 
construction workers can be satisfied from pools of U.S. 
citizens located in Guam, the CNMI, other territories in the 50 
states, Freely Associated State citizens, and foreign 
nationals, mainly from nearby countries.
    Currently, the number of journeyman construction workers 
that are labor eligible on Guam is limited. Journeyman workers 
from Asia can be relocated for work on Guam, but they must 
acquire an H-2B visa. Nationally, only 66,000 H-2B visas are 
issued annually. The Guam requirement for construction workers 
alone is approximately 20 percent of this nationwide cap. 
Attracting labor eligible journeyman workers from the 50 states 
may be quite a challenge, given that the construction industry 
has been so fully engaged in Hawaii and in parts of the Western 
U.S. mainland.
    There are pools of underemployed workers on Guam, in the 
CNMI, and in the Freely Associated States, who can be trained, 
placed in apprenticeship programs, fill in behind journeyman 
workers for a time, and later become journeymen themselves. But 
we need sufficient planning and lead time to make this scenario 
a reality.
    We are coordinating our efforts with the U.S. Department of 
Labor to establish training and apprenticeship programs in 
Hawaii, Guam, the CNMI, and the Freely Associated States. The 
job opportunities created by such programs will not only 
benefit the military on Guam, but will benefit our island 
communities in the Pacific.
    After the primary facilities are constructed, the new 
infrastructure on Guam should provide the people of Guam with 
good job opportunities over the long term. The Federal 
Government will need to partner with the Government of Guam and 
with the private sector to ensure that Guam's workforce will be 
ready to take advantage of opportunities in information 
technology, management, and other fields, as well as a whole 
range of opportunities that will result from an expanding 
economy.
    One of the challenges that we will face will be to ensure 
that Guam civilian infrastructure can keep pace with the 
demands of the buildup and the results of the buildup. It will 
take creative collaboration among the Federal Government, the 
Government of Guam, the community in Guam and the private 
sector to address this challenge.
    Throughout Secretary Kempthorne's recent trip to the U.S.-
affiliated Pacific, accompanied by Assistant Secretary of the 
Navy B.J. Penn, the Secretary stressed the need to ensure that 
Guam's military buildup is good for Guam and good for the 
neighborhood. If the project is planned and implemented 
properly, Secretary Kempthorne's vision will indeed come to 
pass. And in fact, it is not only Secretary Kempthorne's 
vision, but it is a vision that's constantly resided by the 
Department of Defense, Assistant Secretary Penn, and General 
Bice as well.
    The construction of military facilities, and accompanying 
improvements to civilian infrastructure, will create job 
opportunities for the people of Guam, with opportunities left 
over for the people of the CNMI, other territories and the 
Freely Associated States. The resulting infrastructure will 
result in the opportunity for good long-term jobs. The increase 
in Guam's population, by an estimated 35,000 to 40,000 people, 
or over 20 percent, will create opportunities. All of these new 
people will, after all, need places to live, places to shop, 
places to dine, products and services to buy, roads to travel 
on, utilities to serve them. All of these needs will give rise 
to business opportunities and job opportunities. These people 
will also need places to visit for a change of pace, and many 
nearby island communities will be waiting to fill that need. 
Saipan, Tinian, Rota, Palau, Yap, Chuuk, Pohnpei, Kosrae, the 
Marshall Islands, and even American Samoa, all offer stunning 
natural beauty and a slower pace than they'll find in Guam. 
There will be tourism development opportunities in these 
places.
    In order for us to realize this positive scenario, we will 
have to do our homework. We will have to identify critical path 
items and potential bottlenecks, and find ways to ensure that 
we address our challenges in a timely fashion. We don't have 
all of the answers yet, but we have begun in earnest the task 
of identifying issues and developing solutions in partnership 
with the community in Guam. This effort will take a great deal 
of collaboration among the Federal Government, the Government 
of Guam, the people of Guam, the private sector and peoples of 
the surrounding islands. As the leader of the Interagency Group 
on Insular Areas, the Department of the Interior is prepared to 
do its part to make this massive endeavor a success. Si Yu'us 
Ma'ase.
    Mrs. Christensen. Thank you, Deputy Assistant Secretary.
    [The prepared statement of Mr. Cohen follows:]

        Statement of David B. Cohen, Deputy Assistant Secretary 
          for Insular Affairs, U.S. Department of the Interior

    Madam Chairwoman and members of the panel, it is a pleasure to 
appear before you today to discuss the U.S. military buildup on Guam 
and the challenges facing the military and civilian communities.
    As you know, the Department of Defense is planning to transfer 
approximately 8,000 Marines and 9,000 family members from Okinawa to 
Guam at a cost of more than $10 billion. This cost will be shared 
between the U.S. Government and the Government of Japan. As General 
David Bice notes in his statement, impacts for the U.S. territory of 
Guam will be significant.
    Secretary Dirk Kempthorne and the Department of the Interior have a 
great interest in these developments. The Secretary has two 
responsibilities that connect the Department to the realignment of 
Pacific forces. First, the Secretary is responsible for generally 
administering the Federal Government's relationship with the United 
States territories, and administers the financial assistance that the 
U.S. provides to the Freely Associated States (FAS) under the Compacts 
of Free Association. Second, the Secretary chairs the Interagency Group 
on Insular Areas, which is tasked with coordinating Federal policy with 
respect to the U.S. territories.
Interagency Group on Insular Areas
    The Interagency Group on Insular Areas (IGIA) was re-established by 
President Bush on May 8, 2003 when he signed Executive Order No. 13299. 
The President designated the Secretary of the Interior as the presiding 
officer of the IGIA, and the Secretary of the Interior has offered the 
services of the IGIA to the Department of Defense to aid in 
coordinating Federal agency participation in this important base 
realignment project. In this regard, the IGIA has established a Working 
Group on Guam Military Expansion to address issues related to the 
military buildup. The Working Group includes the Departments of State, 
Agriculture, Health and Human Services, Labor, Justice, Transportation, 
Housing and Urban Development, Education, Veterans Affairs, as well as 
the Navy, the Small Business Administration, the Office of Management 
and Budget, and others. We are working closely with the Government of 
Guam and Guam's Delegate to the U.S. House of Representatives, and will 
be working closely with the leaders of other island communities as 
well.
    On behalf of the IGIA, I have met several times with General Bice, 
most recently on August 2, when the IGIA hosted a meeting of numerous 
Federal agencies regarding the Guam military buildup. Besides the 
general meeting, five specialty workshops were convened to discuss 
policy and resource requirements relating to (1) labor and workforce 
issues, (2) Guam civilian infrastructure needs, (3) health and human 
services requirements, (4) the environment, and (5) socio-economic 
issues.
    This is the beginning of a massive effort. The overall task is 
challenging, not only for the Department of Defense, but for 
contributing Federal agencies and, most certainly, for Guam. At this 
point, we are making a comprehensive effort to identify issues that we 
will need to address in order for the buildup to proceed smoothly, and 
are tasking agencies with the responsibility to address issues that 
fall within their respective domains.
Labor Needs
    Facilities must be constructed for the 8,000 Marines and 9,000 
family members. It is anticipated that such construction will require 
12,000 to 15,000 construction workers, with 75 percent of such workers 
coming from outside of Guam. This large requirement for construction 
workers can be satisfied from pools of United States citizens located 
in Guam, the Commonwealth of the Northern Mariana Islands (``CNMI''), 
other territories, and the 50 states; labor-eligible FAS citizens; and 
foreign nationals, mainly from nearby countries.
    Currently, the number of journeyman construction workers that are 
labor-eligible on Guam (U.S. and FAS citizens) is limited--both in 
absolute numbers for the region and because of distance from the U.S. 
mainland. Journeyman workers from Asia can be located for work on Guam, 
but they must acquire an H-2B visa, which allows the importation of 
temporary workers for temporary jobs. Nationally only 66,000 H-2B visas 
are issued annually. The Guam requirement for construction workers 
alone is approximately 20 percent of this nationwide cap. As we plan 
for construction, we must consider pay and transportation incentives 
for attracting labor-eligible journeyman workers from territories, the 
50 states and the FAS. This may be quite a challenge, given that the 
construction industry has been so fully engaged in Hawaii and in parts 
of the Western U.S. mainland.
    Additionally, there are pools of underemployed workers on Guam, in 
the CNMI, and in the FAS, who can be trained, placed in apprenticeship 
programs, fill-in behind journeyman workers for a time, and later 
become journeymen themselves. But we need sufficient planning and lead 
time to make this scenario a reality.
    We are coordinating our efforts with the U.S. Department of Labor 
to establish training and apprenticeship programs in Hawaii, Guam, the 
CNMI, and the FAS. The job opportunities created by such programs will 
not only benefit the military on Guam, but will benefit our island 
communities in the Pacific region. In the short-term, the training 
envisioned will provide immediate economic stimulus for the U.S. 
Pacific region; in the long-term it will provide valuable skills and 
higher incomes, which today are in short supply in most of our U.S.-
affiliated islands.
    After the primary facilities are constructed, the new 
infrastructure on Guam should provide the people of Guam with good job 
opportunities over the long term. The Federal Government will need to 
partner with the Government of Guam and with the private sector to 
ensure that Guam's workforce will be ready to take advantage of 
opportunities in information technology, management, and other fields, 
as well as a whole range of opportunities that will result from an 
expanding economy.
Financing of Improved Civilian Facilities
    One of the challenges that we will face will be to ensure that 
Guam's civilian infrastructure can keep pace with the demands of the 
buildup and the results of the buildup. The buildup itself will strain 
the capacity limitations of Guam's port facilities. The population 
increase resulting from the buildup will challenge the capabilities of 
Guam's civilian infrastructure, which is inadequate as it is to address 
the needs of Guam's current population. It will take creative 
collaboration among the Federal Government, the Government of Guam and 
the private sector to address these challenges.
Making Sure the Buildup is ``Good for Guam; Good for the Neighborhood''
    Throughout Secretary Kempthorne's recent trip through the U.S.-
affiliated Pacific, he stressed the need to ensure that Guam's military 
buildup is ``good for Guam and good for the neighborhood.'' Indeed, if 
the project is planned and implemented properly, Secretary Kempthorne's 
vision will indeed come to pass. The construction of military 
facilities, and accompanying improvements to civilian infrastructure, 
will create job opportunities for the people of Guam, with 
opportunities left over for the people of the CNMI, other territories, 
the Freely Associated States and other Pacific nations. The resulting 
infrastructure will result in the opportunity for good, long-term jobs. 
The increase in Guam's population, by an estimated 35,000 to 40,000 
people or over 20 percent including military and family members, 
construction workers, and other public and private sector service 
providers, will create opportunities. All of these new people will, 
after all, need places to live, places to shop, places to dine, 
products and services to buy, roads to travel on, utilities to serve 
them. All of these needs will give rise to business opportunities and 
job opportunities. These people will also need places to visit for a 
change of pace, and many nearby island communities will be waiting to 
fill that need. Saipan, Tinian, Rota, Palau, Yap, Chuuk, Pohnpei, 
Kosrae, the Marshall Islands and even farther away American Samoa all 
offer stunning natural beauty and a slower pace than they will find on 
Guam. There will be tourism development opportunities in all of these 
places.
    In order for us to realize this positive scenario, we will have to 
do our homework. We will have to identify critical path items and 
potential bottlenecks, and find ways to ensure that we address our 
challenges in a timely fashion. We don't have all of the answers yet, 
but we have begun in earnest the task of identifying issues and 
developing solutions. This effort will take a great deal of 
collaboration among the Federal Government, the Government of Guam, the 
people of Guam, the private sector and peoples of the surrounding 
islands. As the leader of the Interagency Group on Insular Areas, the 
Department of the Interior is prepared to do its part to make this 
massive endeavor a success.
    Thank you.
                                 ______
                                 
    Mrs. Christensen. And the Chair now recognizes General Bice 
for his testimony.

           STATEMENT OF GENERAL DAVID F. BICE, USMC, 
             EXECUTIVE DIRECTOR, JOINT GUAM OFFICE

    General Bice. Thank you, Madam Chair and Congresswoman 
Bordallo. This a great opportunity to lay out the Department of 
Defense plans for the U.S. Military buildup on Guam and address 
the challenges facing the community.
    On the 1st of May 2006, the United States and Japan agreed 
to the realignment of forces on Japan and in the Pacific. One 
of the several initiatives concerns the move of approximately 
8,000 3rd Marine Expeditionary Force personnel and 
approximately 9,000 family members from Okinawa to Guam. The 
desired completion date for the relocation is 2014. The total 
estimated development cost for the relocation of the Marine 
units to Guam is about $10.27 billion. The Government of Japan 
will provide up to a total of $6.09 billion, with the remaining 
$4.18 billion provided by the U.S. Government, as well as any 
additional cost.
    A Guam Joint Military Master Plan is currently being 
developed. Land-use alternatives are expected to be developed 
by November 2007, with a planning-level master plan to be 
completed by July 2008.
    An Environmental Impact Statement is also in development. 
The notice of intent was published in March 2007, and public 
scoping meetings held on Guam, Tinian, and Saipan in April 
2007. The Final Environmental Impact Statement is scheduled for 
completion in October 2009, with the Record of Decision 
expected to be signed by the Assistant Secretary of the Navy 
for Installations Environment by January 2010.
    Guam and the surrounding islands' economies will be 
impacted through the multi-billion dollar construction projects 
and improvements to the islands' utility services that support 
the military forces. The addition of approximately 20,000 U.S. 
service members and their families will add considerably to the 
islands' economies and tax base through increased demand for 
retail goods and services, airline transportation, housing, 
entertainment, and consumer spending. The buildup will attract 
a wide range of individuals from the private sector who engage 
in professional services, such as medical, education, legal, 
engineering, human services and others, which will impact the 
overall quality of life to the island residents.
    As Secretary Cohen stated, it is estimated that between 
12,000 and 15,000 workers will be needed on Guam to construct 
the necessary operational, training, housing, and other support 
facilities. We are working closely with other Federal 
department agencies and the Government of Guam to create 
training opportunities for the residents of Guam, CNMI, and 
Freely Associated States to acquire new skills to be ready for 
these increased job opportunities. Additionally, we will work 
with these department agencies to coordinate medical care, 
support facilities, homeland security impacts, and human 
services for the arriving U.S. and foreign workers.
    We are concerned about the strain on Guam's safety and 
security services, the impact on small businesses and local job 
opportunities, and the effect on local quality of life, roads, 
and access to recreational areas. In many cases, such as 
police, fire, and roads, the increased capabilities must be in 
place even before the construction phase begins.
    Infrastructure improvements remain a particular area of 
concern. The commercial port will require significant 
improvements and upgrades to adequately handle the inflow of 
construction materials and supplies during and after the 
military buildup. The capacities for water, power, solid waste, 
and wastewater are all major concern due to the predicted 
increase in demand. We will work with other Federal agencies 
and the Government of Guam to find mutually beneficial ways to 
improve the existing infrastructure on Guam, where practicable.
    DOD is committed to being a good steward of the 
environment. In partnership with Federal and Guam agencies, we 
will carefully build in protection for Guam's precious 
resources--coral reefs, cultural and historic sites, endangered 
species, and other natural resources. We will take special 
precautions and actions on invasive species, noise, and air 
quality. Where needed, we would develop appropriate mitigation 
plans. We are mindful of Guam's water, wastewater, and solid 
waste challenges and will do our part in helping Guam in 
meeting EPA standards.
    We recognize Guam's culture and heritage. We will work 
diligently with Guam's people to ensure that protection. The 
patriotic spirit of Guam is well-known throughout our services. 
We honor their service and the sacrifice of those who gave 
their life in defense of our nation. Their sacrifices will 
never be forgotten.
    The buildup on Guam is one of the most significant events 
in the region since the end of the Vietnam War. This will bring 
unprecedented beneficial opportunities to the region. 
Department of Defense is committed to building a responsible 
program that supports our national interest, ensures peace and 
stability in the region, and benefits the people of Guam.
    Thank you for this important opportunity to discuss the 
military buildup on Guam. I also would like to thank you for 
your continued support for our forces and their missions. Thank 
you.
    Mrs. Christensen. Thank you, General Bice.
    [The prepared statement of Mr. Bice follows:]

            Statement of David F. Bice, Executive Director, 
                       Joint Guam Program Office

    Madam Chairperson and members of the Subcommittee, thank you for 
the opportunity to testify on U.S. Military Buildup on Guam and 
challenges facing the community. As the Executive Director for the 
Joint Guam Program Office, I am responsible for the planning and 
integration of the Department of Defense infrastructure capabilities, 
master plan development, program and budget synchronization, 
construction oversight, government and business coordination, and 
strategic communications for the realignment of military forces to 
Guam.
BACKGROUND
    The proposed military buildup on Guam is a key component of the 
United States Pacific Command's initiative known as the Integrated 
Global Presence and Basing Strategy (IGPBS). IGPBS transforms U.S. 
global posture by increasing the flexibility to contend with 
uncertainty; strengthen allied roles; build new partnerships; create 
the capacity to act both within and across the Pacific region; develop 
rapidly deployable capabilities, and focus on effective military 
capabilities. Principle elements of the IGPBS initiative include the 
relocation of U.S. Marine Corps ground and air assets to Guam from 
various locations; creation of a U.S. forward based operating port for 
modern littoral warfare ships, combat logistics force ships, 
submarines, surface combatants, and high-speed transport vessels; 
continued efforts to develop a U.S. Air Force Global Intelligence, 
Surveillance, and Reconnaissance and Strike hub; and to develop and 
maintain a robust Western Pacific logistics hub sufficient to support 
United States Pacific Command's requirements.
    Guam's strategic location as the U.S. most western territory in the 
Pacific will enhance military force flexibility, freedom of action, 
prompt global reaction, regional engagement, and crisis response. 
Forces to be located on Guam will be readily employable and positioned 
forward with strategic and operational maneuver space. Operationally, 
Guam's location in the Pacific enhances power projection and 
flexibility for expeditionary missions.
    On May 1, 2006, the U.S.-Japan Security Consultative Committee 
(SCC), consisting of the Secretaries of Defense and State and their 
Government of Japan counterparts, released a ``U.S.-Japan Roadmap for 
Realignment Implementation'' document. The SCC document outlines the 
schedules and timelines for implementation of the realignment 
initiatives in the October 29, 2005 SCC document, ``U.S.-Japan 
Alliance: Transformation and Realignment for the Future''. One of the 
several initiatives concerns the move of approximately 8,000 III Marine 
Expeditionary Force (MEF) personnel and their approximately 9,000 
dependents from Okinawa to Guam. The desired completion date for the 
relocation is by 2014, a date requiring substantial U.S. and Government 
of Japan financial support and commitment. The estimated total 
development cost of the relocation of Marine units to Guam is $10.27 
billion. The Government of Japan will provide up to a total of $6.09 
billion, including $2.8 billion in cash for facilities and 
infrastructure and $3.29 billion in equity investments and loans to 
special purpose entities that will provide housing and utilities to 
support the Marines. The remaining $4.18 billion, and any additional 
cost growth, will be provided by the U.S. government.
PLANNING
    A Guam Joint Military Master Plan is currently being developed. 
Land use alternatives are expected to be developed by November 2007, 
with the planning-level master plan to be completed by July 2008. Our 
preference is to remain on land owned by the federal government, but at 
this stage we have not determined whether our requirements will fit on 
existing DoD lands. Our master planning and environmental planning 
process will determine the appropriate course of action regarding land 
use.
    An Environmental Impact Statement (EIS) is also in development. The 
Notice of Intent was published in March 2007, and public scoping 
meetings held on Guam, Tinian, and Saipan in April 2007. As a result of 
the scoping meetings we received 990 comments from private citizens, 
elected officials, and numerous organizations and agencies. Some 
examples of concern expressed by the Public centered on social-
economics, utilities, land use planning, public health and social 
services, and traffic. Consideration of the comments will be ongoing 
throughout the development of the Environmental Impact Statement. At 
the request of the Chief of Naval Operations, the EIS will also examine 
alternatives to support a transient CVN for a period of 21 days several 
times per year. The Final Environmental Impact Statement is scheduled 
for completion in October 2009, with the Record of Decision expected to 
be signed by the Assistant Secretary of the Navy, Installations and 
Environment by January 2010.
    Once the Environmental Impact Statement is complete and the Record 
of Decision is signed, actual construction may begin. In order to 
complete the relocation by 2014, it is estimated that the island's 
construction capacity must exceed $3.0 billion per year, more than 
three times the highest level of construction activity ever conducted 
on Guam. We are developing an acquisition strategy and working with the 
construction industry to find ways to achieve the necessary supply of 
materials, skilled labor, and management oversight on Guam to support 
the necessary level of construction activity.
    The Department of Defense's Office of Economic Adjustment, which 
normally assists BRAC-affected communities, is playing a critical role 
in helping the Government of Guam to plan and prepare for the military 
build-up. The Office of Economic Adjustment will, in coordination with 
other Federal Departments and Agencies, provide technical and financial 
assistance to Guam. Their engagement with the Government of Guam will 
continue over the long run and will focus on developing a sound, 
comprehensive and effective assistance strategy and action plan to 
assist the Government of Guam and its agencies in adjusting to support 
the construction phase and the eventual arrival of military members and 
their families.
BENEFITS TO THE AFFECTED COMMUNITIES
    Guam and the surrounding island's economies will be impacted though 
the multi-billion dollar construction projects and improvements to the 
islands' utility services that support the military forces. The 
addition of approximately 20,000 U.S. service members and their 
families will add considerably to the islands' economies and tax base 
through increased demand for retail goods and services, airline 
transportation, housing, entertainment, and consumer spending. The 
build-up will attract a wide range of individuals from the private 
sector who are engaged in professional services, such as medical, 
education, legal, engineering, human services, and others, which will 
improve the overall quality of life to the island residents. The 
arrival of men and women who routinely volunteer and support churches, 
schools, youth sports, philanthropic organizations, and community 
events will add to the social fabric of the communities. The increase 
in population is expected to spur entrepreneurship; people will invest 
in island projects and take increased risks that demand greater capital 
because of the assurance that a population-base exists that will create 
the demand for new goods or services.
    Allied and regional military forces will frequently visit Guam and 
the surrounding islands for training and military exchanges. The region 
will benefit by the near-by presence of highly trained and capable 
forces ready to respond to crises, natural disasters, and events 
requiring humanitarian assistance. The increased military presence will 
serve to maintain commercial access to the Pacific Region.
CHALLENGES FACING THE COMMUNITY
    We expect the DoD population on Guam will expand from approximately 
14,190 to nearly 38,000. This will result in an overall 10 year total 
population growth rate of nearly 28%--twice the historic high in the 
1990s. This does not include construction induced temporary population 
increase.
    It is estimated that 12,000 to 15,000 workers will be needed on 
Guam to construct the necessary operational, training, housing and 
other support facilities. Many, perhaps as many as 75% or more of these 
workers will come from off island and may require H-2B visas (``off 
island'' workers may be FAS workers or other U.S.-authorized workers 
who do not need H-2B visas). There is a nationwide H-2B Visa cap at 
66,000 per year, while the nationwide demand for H-2B Visa workers 
exceeds that cap. We are working closely with other Federal Departments 
and Agencies and the Government of Guam to create training 
opportunities for residents of Guam to and the surrounding U.S. 
territories to acquire new skills to be ready for these increased job 
opportunities. Additionally, we will work with these departments and 
agencies in coordinate medical care, support facilities, homeland 
security impacts, and human services for arriving U.S. and foreign 
workers. We will also consider the effects on tourism, local business 
and fishing industries, and the long term impact on labor opportunities 
for local citizens and military family members.
    Socio-economic areas of concern include the strain on safety and 
security services (police, fire, and emergency medical support), the 
impact on small business and local job opportunities, and the effect on 
local quality of life, roads, and access to recreational areas. Schools 
are also a priority; the Department of Defense Education Administration 
Schools and the Guam Public School System must attract and retain 
quality teachers for both school systems. In many cases, such as 
police, fire, and roads, the increased capabilities must be in-place 
even before the construction phase begins. As you will hear, we are 
working closely with other Federal Departments and Agencies and the 
Government of Guam to resolve these issues.
    In terms of health and human services, we are concerned about 
specialty medical care availability on island, medical care for foreign 
workers, infectious disease risk and public health, the need for 
additional counseling services, and affordable quality housing. We will 
be working with Federal and Guam authorities to address these concerns.
    Infrastructure improvements remain a particular area of concern. 
The commercial port will require significant improvements and upgrades 
to adequately handle the inflow of construction materials and supplies 
during and after the military build-up. The capacities for water, 
power, solid waste, wastewater, hazardous waste, roads, and the 
commercial airport are all of major concern due to the predicted 
increase in demand. All of these areas will be addressed in the 
Environmental Impact Statement. We expect the study to identify a 
substantial need and opportunity to improve the existing infrastructure 
on Guam. The Government of Guam has identified millions of needed 
improvements for the island's infrastructure. Although the DoD / 
Government of Japan funds are intended to provide only facilities to 
support the arrival of the Marines and their dependents, we will work 
with other federal agencies and the Government of Guam to find mutually 
beneficial ways to improve the existing infrastructure on Guam, where 
practicable.
    On August 2, 2007, Department of the Interior, Deputy Assistant 
Secretary for Insular Affairs, David Cohen and I co-chaired an Inter 
Agency conference to examine how the Federal Government can better 
coordinate support and assistance in helping Guam to prepare for this 
rebasing program. All attendees, representing nearly every Federal 
Department and Agency, recognized that we need to engage all elements 
of the Federal Government to support the people of Guam as we ask them 
to assume a more strategic role in the security of our Nation. As I 
stated earlier, some of this additional support and assistance to Guam 
must be in place prior to the construction phase. As we proceed with 
the relocation effort, Secretary Cohen and I will continue to hold 
regular Inter Agency meetings to help synchronize Federal support to 
Guam and the CNMI.
    DoD is committed to being a good steward of the environment. We 
have concurrence from following agencies to serve as cooperating 
agencies to assist us to adequately evaluate the potential 
environmental effects of the proposed action: U.S. Department of 
Agriculture, Federal Highways Administration, Federal Aviation 
Administration, U.S. Army Corps of Engineers, U.S. Air Force, and the 
U.S. Environmental Protection Agency. Additionally, in partnership with 
Federal and Guam agencies, we will carefully build-in protection for 
Guam's precious marine resources, coral reef, cultural and historic 
sites, endangered species, and other natural resources. We will take 
special precautions and actions on invasive species, noise, and air 
quality standards. Where needed, we will develop appropriate mitigation 
plans. We are mindful of Guam's water, wastewater, and solid waste 
challenges and will do our part in helping the Government of Guam in 
meeting EPA standards. On June 4-5, we conducted a partnering session 
with all Federal and Guam regulators, where all attendees acknowledged 
the need to work closely to develop a comprehensive and successful 
Environmental Impact Statement and action program.
CONCLUSION
    The Department of Defense recognizes Guam's culture and heritage. 
The patriotic spirit of Guam is well known throughout our military 
services. Men and women from Guam serve our nation around the world. We 
honor their service and the sacrifice of those who gave their lives in 
defense of our great nation. We give special tribute to those who have 
given their lives in the current Global War on Terror. Their sacrifices 
will never be forgotten.
    The Guam relocation requires a coordinated effort involving the 
Government of Guam, Department of Defense, Federal Agencies, and 
private businesses. The build-up on Guam is one of the most significant 
events in the region since the end of the Vietnam War. Relocating over 
17,000 military personnel and family members to Guam will have 
significant impact to the island and region. This will bring 
unprecedented beneficial opportunities for the region. We need 
innovative solutions to make this a success. The Department of Defense 
is committed to building a responsible program that provides for peace 
and stability in the region, enables operational maneuver for our 
forces and benefits the people of Guam and the surrounding islands.
    Thank you for this important opportunity to discuss the military 
build-up on Guam. I would also like to thank you for your continued 
support and dedication. We have a challenging and exciting program to 
accomplish and I look forward to working with all involved in the 
future.
    Thank You
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Mr. Lujan to 
testify for five minutes.

STATEMENT OF KENNETH Q. LUJAN, ADMINISTRATOR FOR GUAM AND CNMI, 
               U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Lujan. Hafa Adai and good morning, Chairwoman 
Christensen and Congresswoman Bordallo. Thank you for inviting 
me to discuss SBA's commitment to assisting small businesses on 
Guam. I am Kenneth Lujan, Guam Branch Manager for the U.S. 
Small Business Administration, SBA. I oversee the areas of 
responsibility that are in Guam, CNMI, the FSM, Republic of 
Palau, and Republic of the Marshall Islands.
    The mission of the SBA is to aide, counsel, and protect the 
interests of small business concerns, as well as to advocate on 
their behalf. SBA's outreach of assistance to small businesses 
extends to all 50 States, as well as all U.S. territories, in 
the form of technical, financial, contracting, and disaster 
recovery assistance. For many years, SBA has aided the island 
communities with its direct loan programs after natural 
disasters and its guaranty loan program for start-up and 
existing small businesses. SBA continues to remain committed to 
existing small businesses in achieving the entrepreneur spirit 
on the island of Guam.
    I want to provide the Subcommittee with a small business 
background of the island of Guam. In the year 2002, Guam's 
establishments numbered 2,926, employed 43,104 people, and 
generated $4.6 billion in revenues. Small employer 
establishments with 50 or more employees represented 97.2 
percent of businesses on the island. Establishments with 50 or 
more employees accounted of 51 percent of employed persons and 
almost 50 percent of revenues. Most of these jobs were in 
retail trade, accommodations and food services, administrative, 
support, waste management, and remedial services. In addition, 
the total number of bank branches in Guam also declined from 34 
in 2004 to 31 in 2005. SBA recognizes the challenges of the 
small business concern and continues to work with the island 
small business community, as well as our government to adjust 
such concerns.
    Additional statistics for Guam reveal that there currently 
38 8(a) firms, 48 Service-Disabled Veteran Owned firms, 104 
Women-Owned firms and 203 Minority-Owned firms on Guam that are 
registered to do business with the Federal Government. SBA is 
actively engaging with a number of government, private, and 
non-profit organizations to expand our public-private 
partnerships. By doing this, we plan to achieve improved local 
outreach efforts following a disaster, improving plan 
capabilities and bolstering processing capabilities.
    A challenge affecting the small business community in Guam 
and its neighboring islands is having the necessary data to 
make sound business decisions. SBA encourages each business 
obtaining an SBA-guaranteed loan to develop a business plan to 
serve as their roadmap to success. Feasibility studies, 
estimation of cost, budget forecasting, and management of 
operations play an intricate role in operating a successful 
business on this island. SBA provides resources necessary to 
develop such a roadmap to success. To provide adequate 
training, counseling, and business development plans, SBA 
sponsors several Small Business Development Centers on Guam, as 
well as throughout the islands. And they're there to assist the 
small businesses.
    Guam continues to experience discussions of military 
buildup, which have stimulated the business environment, as 
witnessed by the increase in business activity throughout the 
island. The massive influx of military personnel and their 
families will bring new business, as well as potential new 
business owners to the island. SBA will continue to provide 
assistance to existing small business owners and potential new 
small businesses, as well as assists them in securing 
government contracts on the island of Guam, many of which are 
associated with the Guam Integrated Military Development Plan. 
These contracts will be crucial to ensure that the island can 
accommodate the potential reassignment of thousands of military 
personnel.
    Based on Defense Federal Acquisition Regulation (DFAR) 
236.570(c)(1), solicitations for military construction 
contracts that are funded with military construction 
appropriations and are estimated to exceed $1 million will 
allow a preference to United States firms. To qualify for the 
preference, contract performances must be in a United States 
territory or possession in the Pacific, or in a country 
bordering the Arabian Gulf. To be defined as the U.S. firm, (1) 
the corporate headquarters must be in the United States; (2) 
the firm must have filed corporate and employment tax returns 
to the United States for a minimum of 2 years, and must have 
filed State and Federal tax returns for 2 years, and must have 
paid taxes due as a result of these filings, and (3) the firm 
must employ the United States citizens in key management 
positions. This provision allows for contracts to be made to 
U.S. firms if they are made using appropriate funds.
    Since the passage of the Small Business Act in 1953, it has 
been the policy of Congress to ensure that small businesses 
receive a fair portion of Federal contracts. The Small Business 
Acts sets the goal of 23 percent of all Federal contract 
dollars for small businesses. SBA's Office of Government 
Contracting and Business Development works to create an 
environment for maximum participation by the service-disabled 
veteran-owned, disadvantaged, and woman-owned small businesses 
in Federal contracting and large prime contract awards.
    Guam has experienced an increase in the number of firms 
that have been certified under HUBZone program or the 
Historically Underutilized Business Zone. The HUBZone program 
stimulates economic development and creates business in urban 
and rural communities by providing Federal contracting 
preference to small businesses. These preferences go to small 
businesses that obtain HUBZone certification in part by 
employing staff who live in the HUBZone.
    Under the Transportation Equity Act, the entire island of 
Guam was designated as a HUBZone location, and as a result, the 
HUBZone-certified companies are beginning to receive Federal 
contracts. Currently, there are 122 HUBZone-certified companies 
located on Guam.
    To further assist businesses, SBA is continuously working 
with our entrepreneur development partners, including the 
SPDCs, to develop a strategy in which they can play an integral 
part in assisting small companies that are interested in doing 
business with the Federal Government. Outreach efforts are 
being directed toward potential businesses to assist them in 
registering their companies on the Central Contractor Registry, 
or CCR, website.
    Extensive training modules are planned for the next fiscal 
year to assist those businesses who are beyond the startup 
stage, and additional training for those who are just getting 
started.
    With discussions of the Guam Integrated Military 
Development Plan, SBA will continue to prepare the community 
with the necessary training, as well as inform small businesses 
on how to do business with the Federal Government. SBA plans to 
work with the Department of Defense and U.S. GSA, General 
Service Administration, to ensure that small businesses in Guam 
receive a fair opportunity compete for contracts.
    With that, I'd like to thank you, Si Yu'us Ma'ase, for the 
opportunity to speak to you today about this very important 
topic for the island of Guam. And this concludes my testimony. 
I look forward to answering questions you may have.
    Mrs. Christensen. Thank you, Mr. Lujan.
    [The prepared statement of Mr. Lujan follows:]

          Statement of Kenneth Q. Lujan, Guam Branch Manager, 
                   U.S. Small Business Administration

    Hafa Adai, Chairwoman Christensen, Ranking Member Fortuno and 
distinguished members of this subcommittee. Thank you for inviting me 
to discuss SBA's commitment to assisting small businesses in Guam. I am 
Kenneth Lujan, Guam Branch Manager for the U.S. Small Business 
Administration (SBA).
    The mission of the U.S. Small Business Administration is to aide, 
counsel, and protect the interests of small business concerns, as well 
as to advocate on their behalf SBA's outreach of assistance to small 
businesses extends to all 50 States, as well as all U.S. territories, 
in the form of technical, financial, contracting and disaster recovery 
assistance. For many years, SBA has aided the island communities with 
its direct loan programs after natural disasters and its guaranty loan 
program for start-up and existing small businesses. SBA continues to 
remain committed to assisting small businesses achieving the 
entrepreneurial spirit on the island of Guam.
    I want to provide this subcommittee with a small business 
background of the island of Guam. In 2002, Guamanian establishments 
numbered 2,926; employed 43,104 people; and generated S4.6 billion in 
revenues. Small employer establishments with 50 or more employees 
represented 97.2 percent of business on the island. Bankruptcies in 
Guam totaled 10 in 2005, compared to a total of 6 in 2004. 
Establishments with 50 or more employees accounted for 51.0 percent of 
employed persons and almost 50 percent of revenues. Most of these jobs 
were in retail trade, accommodation and food services, administrative, 
support, waste management and remediation services. In addition, the 
total number of bank branches operating in Guam declined from 34 in 
2004 to 31 in 2005. SBA recognizes the challenges of the small business 
concern and continues to work with the island small business community, 
as well as our government to address such concerns.
    Additional statistics for Guam reveal that there are currently 38 
8(a) firms, 48 Service-Disabled Veteran Owned firms, 104 Women-Owned 
firms and 203 Minority-Owned firms on Guam that are registered to do 
business with the federal government. SBA is actively engaging with a 
number of government, private, and nonprofit organizations to expand 
our public-private partnerships. By doing this, we plan to achieve 
improved local outreach efforts following a disaster, improving 
planning capability and bolstering processing capability.
    A challenge affecting the small business community on Guam and its 
neighboring islands is having the necessary data to make sound business 
decisions. SBA encourages each business obtaining an SBA-guaranteed 
loan to develop a business plan to serve as their roadmap to success. 
Feasibility studies, estimation of costs, budget forecasting and 
management of operations play an intricate role in operating a 
successful business on the island of Guam. SB A provides resources 
necessary to develop such a roadmap to success. To provide adequate 
training, counseling and business development plans, SBA cosponsors a 
chapter of Service Corps of Retired Executives (SCORE) and seven Small 
Business Development Center locations on Guam to assist local small 
business owners.
    Guam continues to experience discussions of military buildup, which 
have stimulated the business environment as witnessed by the increase 
in business activity throughout the island. The massive influx of 
military personnel and their families will bring new business as well 
as potential new business owners to the island. SBA will continue to 
provide assistance to existing small business owners and potential new 
small businesses, as well as assist them in securing government 
contracts on the island of Guam, many of which are associated with The 
Guam Integrated Military Development Plan. These contracts will be 
crucial to ensure that the island can accommodate the potential 
reassignment of thousands of military personnel.
    Based on Defense Federal Acquisition Regulation (DFAR) 
236*.570(c)(l), solicitations for military construction contracts that 
are funded with military construction appropriations and are estimated 
to exceed $1 million will allow a preference to United States firms. To 
qualify for the preference, contract performance must be in a United 
States territory or possession in the Pacific or in a country bordering 
the Arabian Gulf. To be defined as a U.S. firm: 1) the corporate 
headquarters must be in the United States; the firm must have filed 
corporate and employment tax returns in the United States for a minimum 
of 2 years (if required), must have filed State and Federal income tax 
returns (if required) for 2 years, and must have paid any taxes due as 
a result of these filings; and the firm must employ United States 
citizens in key management positions. (DFAR 252.236-7010). This 
provision allows for contracts to be made to U.S. Firms if they are 
made using appropriated funds.
    Since the passage of the Small Business Act in 1953, it has been 
the policy of Congress to ensure that small businesses receive a fair 
portion of Federal contracts. The Small Business Act sets a goal of 
twenty three percent of all Federal contract dollars for small 
businesses. SBA's Office of Government Contracting and Business 
Development (GCBD) works to create an environment for maximum 
participation by service disabled veteran-owned, disadvantaged, and 
woman-owned small businesses in federal government contract awards and 
large prime subcontract awards. GCBD advocates on behalf of small 
business in the federal procurement world.
    Guam is experiencing an increase in the number of firms that have 
been certified under the HUBZone (Historically Underutilized Business 
Zone) certification program. The HUBZone Program stimulates economic 
development and creates jobs in urban and rural communities by 
providing Federal contracting preferences to small businesses. These 
preferences go to small businesses that obtain HUBZone certification in 
part by employing staff who live in a HUBZone. Under the Transportation 
Equity Act, the entire island of Guam was designated as a HUBZone 
location, and as a result, the HUBZone-certified companies are 
beginning to receive federal contracts. Currently, there are 122 
HUBZone certified companies located on Guam.
    To further assist small businesses, SBA is continuously working 
with our entrepreneurial development partners, including SBDCs to 
develop a strategy in which they might play an integral part in 
assisting companies that are interested in doing business with the 
federal government. Outreach efforts are being directed toward 
potential businesses to assist them in registering their company on the 
Central Contractor Registry (CCR) website. Extensive training modules 
are planned for the next fiscal year to assist those businesses who are 
beyond the ``start-up'' stage with additional training for those who 
are just getting started.
    With discussions of The Guam Integrated Military Development Plan, 
SBA will continue to prepare the community with the necessary training 
as well as inform small businesses on how to do business with the 
federal government. SBA plans to work with the Department of Defense 
and U.S. General Services Administration to ensure that small 
businesses in Guam receive a fair opportunity to compete for contracts.
    Thank you and Si Yu'us Ma'ase for the opportunity to speak to you 
today about this very important topic for the island of Guam. This 
concludes my testimony; 1 look forward to answering any questions you 
may have.
                                 ______
                                 
    Mrs. Christensen. I recognize myself for five minutes of 
questions, and I'll begin with the Deputy Assistant Secretary 
Cohen. This is a question that really has always--I've always 
felt I needed to have answered. The IGIA does play a very 
important role in coordinating the activities leading up to the 
military buildup, coordinating with different Federal agencies, 
and you say that its role is in coordinating Federal policy 
with respect to the territories. Can you--is there a framework 
for that Federal policy? What is the Federal policy with 
respect to territories?
    Mr. Cohen. Thank you, Madam Chairman. Well, what the IGIA 
attempts to do is make sure that when the Federal Government 
does adopt policies that affect the territories, that those 
policies are adopted, number one, in coordinated fashion, and 
number two, in a way that's cognizant of the special needs and 
circumstances of the territories.
    So, as you well know, a lot of times, policies might be 
adopted that applies to the territories as well as to the 50 
States, but the policies are designed for the 50 States, and 
when you apply them to the territories, they have unintended 
consequences. For example, when a law on airport screeners made 
citizens of American Samoa ineligible to work at their own 
airport, that was an example of that type of thing. And then 
sometimes territories can be inadvertently left out of policies 
that they should be included in.
    So, the IGIA is designed to try to address those issues, 
number one, making sure that policy toward the territories is 
well-coordinated, and that's why we think it is very--it is an 
effective mechanism to bring all the agencies together and to 
make sure that the special circumstances of the territories are 
taken into account.
    Mrs. Christensen. OK, thank you. General Bice, you spoke 
about training and that the DOD would be involved in training 
for the jobs and the different needs that will develop out of 
this military buildup. How is DOD collaborating with the Guam 
Community College and the Construction Association members here 
on the island?
    General Bice. Thank you, Madam Chairman. We are working 
closely with the Guam Department of Labor in establishing what 
we see is our worker requirements and what skills we see that 
will be needed, and then also working closely with the 
Secretary Cohen, the U.S. Department of Labor, U.S. Department 
of Education, and how we can address training here on Guam.
    The Department of Defense sees the critical need to get 
that established, not only for the immediate construction phase 
that's impending, but also for the long term requirements after 
the construction is completed.
    We see a need for high-tech services, IT, Services and 
Support Industry, that's going to be here supporting the 
Federal Government, the military here on Guam. It is going to 
place great demand for high-skilled workers here, and we would 
like to see that filled predominantly by Guam citizen and 
citizens from the local islands. So, yes, we are working 
closely with Mrs. Connelley at the Guam Department of Labor in 
establishing those requirements.
    Mrs. Christensen. Thank you. Mr. Lujan, you gave a history 
of the small businesses on Guam and gave some statistics, but 
I'm still not clear on how you assess the health of this small 
business sector on Guam today? What is your assessment of the 
health of the sector of the economy in Guam?
    Mr. Lujan. The health of the economy, thank you----
    Mrs. Christensen. Small business.
    General Bice. Thank you for the question, Madam Chair. The 
health of the economy right now is, we are still looking at 
this and ensuring that we improve upon the health. With the 
influx of the military personnel plus the number of dollar 
amounts coming through, we are there to try to help and see if 
we can improve it. At this point in time, as Congresswoman 
Bordallo mentioned, that with the increase of, the 300 percent 
increase and real estate prices have gone up, it has afforded 
the economy some room for some improvements, and there's room 
for growth. What we like to see, as we go forward with this, is 
to see that we see more small businesses interact and get 
engaged with the economy, and get engaged with the contracting 
activity.
    Mrs. Christensen. OK. I'm going to stop now because I 
expect that we are going to have several rounds of question for 
this panel, and I'd now recognize Congresswoman Bordallo for 
her questions.
    Ms. Bordallo. Thank you very much, Madam Chair. Good 
morning, Mr. Cohen----
    Mr. Cohen. Good morning.
    Ms. Bordallo.--and welcome back to Guam.
    Mr. Cohen. Thank you.
    Ms. Bordallo. My first question is for you. The President's 
Interagency Group on the Insular Area is known, of course, to 
everyone here as the IGIA, and it was established by executive 
order in 2003. It seems to be well-suited and designed to 
facilitate cooperation with the Federal Government and between 
the Federal Government and the Government of Guam with respect 
to this buildup. In what ways has the IGIA engaged in this 
process to date, and in what function is it being tapped and 
used with respect to the ongoing buildup? Do you envision a 
budget formulation and recommendations to OMB through the IGIA? 
And can the Government of Guam expect Federal partners to come 
forward with the Department of the Interior in helping to fund 
identified priorities and requirements?
    Mr. Cohen. Thank you for the question, Madam Congresswoman. 
What the IGIA is doing is facilitating the effort to identify 
the needs for this buildup, the needs both from the Federal 
side and the needs as they relate to the community in Guam. And 
then, whether under the auspices of the IGIA or whether the 
auspices under the individual agencies, if there are resource 
requirements that are best addressed by the Federal Government, 
then we can work within the administration to try to secure 
those commitments.
    What we are doing, for example, is getting all the agencies 
together to work with the representatives from Guam to identify 
the critical path items that need to be addressed, and then we 
are going to get a sense of how much it is going to cost. And 
the Government of Guam has already done a great deal of work in 
this regard as well. So, we are in the process of comparing 
notes. Then we want to look at what existing resources there 
are to address these and identify any gaps that will prevent us 
from successfully implementing the project, both from the 
military's perspective and from the perspective with the people 
of Guam. And at that point, certainly, under the leadership of 
the Department of Defense, possible resource commitments from 
individual agencies can be explored and formulated. We are not 
at that point yet, but of course, we have to move very quickly 
to identify these needs and any resource requirements.
    Ms. Bordallo. So, in your mind, the process is working?
    Mr. Cohen. Yeah. We think it is working.
    Ms. Bordallo. General Bice, I have a question for you. 
Would you care to comment on the role of the IGIA from the 
Joint Guam Program Office perspective, and how does the 
Department of Navy intend to help the Government of Guam access 
and receive Federal support and Federal funds for identified 
projects that fall outside the gate?
    General Bice. Thank you very much, Congresswoman Bordallo. 
We are working closely with Secretary Cohen and the IGIA on 
establishing a sense of urgency with other Federal agencies in 
getting ready for this military buildup. We see that, as I 
mentioned in my testimony, that there are going to be 
requirements long before the first construction worker ever 
shows up, such as police, fire, roads. And we are working 
closely with respective Federal agencies to identify those 
requirements, identify the resources needed to provide them, 
and then certainly the Department of Defense will work in 
coordination with them to make sure Congress understands those 
requirements and hopefully gets the funding to support it.
    Ms. Bordallo. Thank you. I have another round of questions, 
Madam Chair, so if you're going to the second round, I would 
like to ask.
    Mrs. Christensen. You can go ahead and ask.
    Ms. Bordallo. All right. This question is for both Mr. 
Cohen and General Bice. Concerns have been expressed about the 
social impacts that would likely result from a population 
increase associated with the military buildup. Senator Won Pat, 
later today, will testify to these concerns, and states in her 
written testimony a specific desire for gender issues to be 
examined. In what ways will the Federal Government be sensitive 
to the social impacts, and how will social impact be measured, 
gauged, and mitigated by the Federal Government? Do you believe 
commissioning a study of social impacts is warranted? And, if 
so, at what time would such a study be most relevant within the 
projected time frame for planning, and how might it be pursued 
and funded? Mr. Cohen, you first.
    Mr. Cohen. Sure. I think it is important to address the 
gender issues in the broader context of the possible--or the 
likely social impacts of the relocation. From the Department of 
the Interior's perspective, we are prepared to help with 
funding. We have a technical assistance budget that can be 
helpful in this regard. But we also want to talk to our 
colleagues in the Federal family, you know, as one of the 
seminars that we had on August 2nd was on socioeconomic 
impacts. So, we have a number of agencies that are very 
actively looking at these very issues, Health and Human 
Services, Department of Education, and others. General Bice 
highlighted this in his testimony, and so the Department of 
Defense is sensitive to it. We will defer to the experts in the 
Federal Government as to timing, but we are certainly willing 
to work with our partners in the Federal Government, and the 
government and community of Guam, to do our part to contribute 
to this effort.
    Ms. Bordallo. Well, Mr. Secretary, you and I worked very 
well together since I've been in Congress, so I will look 
forward to working together with you on these particular 
issues.
    Mr. Cohen. Certainly.
    Ms. Bordallo. General Bice?
    General Bice. Yes, ma'am. And, for the Department of 
Defense, during our scoping sessions we held in April for the 
Environmental Impact Study, we received over 900 comments from 
the public. Most of them dealt with socioeconomic issues, and 
that's going to help us guide our Environmental Impact Study 
and Statement to address those specific issues. Of course, 
there's always room and opportunity for additional studies and 
clarity in that, and certainly speaking on behalf of the 
Department of Defense, we would welcome any support or any 
analysis in there that can be taken to make this a beneficial 
for both the military as well as the people of Guam.
    Ms. Bordallo. Thank you very much. And, Madam Chair, I 
still have a few more questions.
    Mrs. Christensen. We will have as many rounds as is needed 
to get our questions out.
    I'm glad to hear the U.S. Assistant Secretary Cohen say 
that the OIA will be prepared to provide technical assistance 
grants to do studies that might be needed, because I know that 
that's a relatively easy process to apply for those funds, and 
I hope that some would be set aside specifically to deal with 
the issues that Guam is going to need to research here.
    And, Secretary Bice, I'm also glad to hear your answer as 
well.
    I have a couple of other questions. I guess I would go to 
Secretary Cohen first, as well, on the second round. You've 
listed the members of the IGIA, and I don't know if it is an 
oversight, but I don't see Homeland Security listed as a member 
of the IGIA. And I think, and I'm sure you would agree, that it 
is a very important--would have a very important role to play, 
especially in the one that is specifically addressing the 
issues that come out of the military buildup.
    Do you plan to include the Department of Homeland Security? 
Have you had any informal or formal discussions with the 
Department? And, if so, could you identify what program offices 
that you have met and the kinds of discussions, insofar as you 
can reveal them today, that have gone on?
    Mr. Cohen. Oh, certainly. Thank you, Madame Chairwoman.
    And, it was an oversight, because they are involved. They 
are a member of the IGIA and they've been participating with us 
fully. A number of offices and agencies within Homeland 
Security have been participating with us.
    Off the top of my head, of course, we have U.S. Citizenship 
and Immigration Services that are going to be instrumental in 
any effort that we have to seek supplemental labor to the 
extent that the citizens of Guam and the surrounding 
territories and Freely Associated States cannot provide enough 
labor for this project. You know, we are going to have to 
explore Federal policies that Homeland Security is going to be 
centrally involved with.
    Mrs. Christensen. Do you have an idea of how much of the 
needed labor can be supplied by CNMI and the Freely Associated 
States, do you have any idea?
    Mr. Cohen. Well, we don't want to totally prejudge it, but 
the Department of Defense, in its testimony and also in my 
written statement, is anticipating that perhaps 75 percent of 
the labor may have to come from outside.
    Having said that, it is our intention to maximize the 
amount of labor that's provided by the citizens of Guam, to the 
extent that these are the opportunities the citizens want, and 
we know that the citizens of Guam also want to focus on the 
long-term higher level managerial opportunities.
    But, this is the island of the people of Guam, so they 
should have first dibs on whatever opportunities----
    Mrs. Christensen. Absolutely.
    Mr. Cohen --they want, and then, you know, Northern Mariana 
Islands and others.
    But--and the General can correct me if I'm wrong--but I 
believe we are trying to prepare for that type of eventuality 
where you might need that level of supplementation from the 
outside. Other agencies as well are participating with us.
    Mrs. Christensen. Did you want to add anything to that?
    I'm assuming that you agree that----
    General Bice. Yes ma'am.
    Mrs. Christensen --Guam, people of Guam first----
    General Bice. We certainly want to, because we do want to 
make this good for the neighborhood. So, we want to exploit as 
much training as we can for the citizens of Guam, CNMI, and 
Freely Associated States. But, in the end, we don't think that 
there's going to be a sufficient labor pool out there to meet 
all of our needs, and we have to prepare for that eventuality.
    What the exact number is, we certainly don't know it at 
this point, but we know that we are going to have to go for 
both, and we want to have priority for the Guam labor, CNMI, 
and for the Freely Associated States.
    Mrs. Christensen. Thank you.
    General Bice, in your statement, you said something to the 
effect that DOD will work to improve the infrastructure of Guam 
where practical.
    Do you consider power to be an essential element of the 
operations of the military bases on Guam, and would you say 
that that's critical? And, if so, isn't it in the military's 
interest to ensure that the civilian power infrastructure on 
Guam, which the bases are dependent on, is as robust as 
possible, or do you believe that it is the local government 
that should be solely responsible for making those upgrades 
that would be necessary?
    General Bice. Madam Chair, thanks for that answer (sic). It 
is a good question, and it is an issue that was addressed in 
the agreement between the United States and Japan. Japan agreed 
to provide up to $700 million in utility upgrade in support of 
the Marine relocation here, in the areas of water, wastewater, 
power, and solid waste management.
    In the area of power, we do see a need to increase, add to 
the capacity, if you will, of Guam's electrical grid, and we 
are currently doing studies in conjunction with the Guam Power 
Authority and the Consolidated Commission on Utilities, doing 
analysis as to how best to do that.
    The arrangement we had through special purpose entities 
with the Government of Japan allows us to extend that beyond 
the military base, where we would normally stop, and it could 
positively affect the Guam costumer base.
    Mrs. Christensen. But I know that in testimony that we will 
probably hear later from Mr. Sanchez of the Consolidated 
Commission on Utilities, that he'll say that the military would 
best be served by using the existing grid rather than creating 
a new and entirely new system. I'm hearing that, yes, you would 
help to build up the power infrastructure here, but you're 
still planning on a separate entirely new system. Don't you 
know?
    General Bice. That is not correct. And----
    Mrs. Christensen. OK. I'd like to have----
    General Bice --we are looking at all options. And, 
preferably, the Department of Defense does not want to be in 
the power business. We want to be buying power. We want to be a 
costumer of power. And working with the Consolidated Commission 
on Utilities, as well as the Government of Japan, who is making 
the investment into the infrastructure, we are looking on how 
best to do that.
    But preferably, we'd like to be part of, you know, have to 
be part of the Guam grid. So, it adds capacity to the grid in 
support of the military buildup.
    Mrs. Christensen. But from the U.S. side, the current Guam 
grid is, or is not, considered critical infrastructure to DOD?
    General Bice. Oh, it is certainly is considered critical, 
yes, ma'am.
    Mrs. Christensen. OK. Thank you.
    Thank you, General.
    I now recognize Ms. Bordallo for her questions.
    Ms. Bordallo. Thank you, Madame Chair.
    Mr. Lujan, I have a question for you. I've worked with you 
in the past couple of years to have Guam designated as a 
HUBZone, all of Guam. And as a result of these developments, I 
have encouraged eligible small businesses on Guam to apply for 
the HUBZone certification.
    In your testimony today, you noted that there are now 122 
such certified firms; is that correct?
    Mr. Lujan. Yes.
    Ms. Bordallo. Yes.
    Mr. Lujan. Yes, it is.
    Ms. Bordallo. OK.
    Mr. Lujan. 122 right now.
    This is a moving target actually, because as we see the 
firms get certified, they also have the responsibility of 
maintaining that certification. Unlike most of the perception 
out there, just because the island of Guam is considered to be 
a HUBZone, they still have to get certification from the SBA.
    Ms. Bordallo. That is correct, yes.
    Mr. Lujan. So, we encourage online applications to get 
certifications from the SBA.
    What we believe, we believe that the HUBZone certification 
really helps out small businesses. We've seen an increase in 
contracting activities within both activities, both the Navy 
and the Air Force.
    Ms. Bordallo. That is going to be the second part of my 
question. I want to know exactly the numbers. I would encourage 
the Navy to include HUBZone requirements and local preferences 
in its contracts related to the buildup as the process moves 
forward.
    And I believe that the set of sites provided for by the 
HUBZone programs could help Guam small business successfully 
compete for contracts during the buildup.
    First, Mr. Lujan, can you describe how the HUBZone 
designation has benefited business on Guam so far? And second, 
can you describe whether you believe HUBZone certified small 
businesses are more competitive in the Federal marketplace than 
those companies that are not so certified?
    Mr. Lujan. Well, several years ago when we first started, 
there was zero. There were no HUBZone companies that were 
eligible for military contracts here in Guam.
    As a result of your assistance and your legislation that 
help push through HUBZone activity, we've seen a vast 
improvement upon it. Again the contracting activities are happy 
with it, both from the subcontracting and contracting, prime 
contracting submissions. Also, they are also satisfies with the 
quality of work that's being submitted there.
    So, there are opportunities out there for small businesses, 
and we have seen a vast improvement upon it.
    Ms. Bordallo. Just off-hand can you give me the number of 
businesses now doing a certified HUBZone, businesses that are 
doing business with the military as of today?
    Mr. Lujan. As of today, there's approximately about, 
probably about 20 contracts that have been made by the above.
    Ms. Bordallo. Oh. Very good. All right.
    The next question I have is for General Bice. As I 
mentioned in my opening statement, I believe close coordination 
and integration of appropriate parties from all levels of 
government and private industries crucial to the successful 
buildup. I want to ensure that all parties have appropriate 
levels of access to and input into the studies that will shape 
the buildup.
    How is the Department of Defense integrating local 
government and business leaders into the EIS and the Guam 
Master Plan studies? And, second, is the Department of Defense 
using the Interagency Group that recently met in Washington, 
D.C., as the primary mechanism for coordination in integration, 
and what can Congress do, if anything, to support your 
coordination with other Federal agencies in the local 
government?
    General Bice. Thank you, ma'am, for the question.
    As far as coordinating with agencies, the EIS study will 
look at a wide range of information, from reference 
information, from existing Environmental Impact studies that 
the Air Force, the Navy, has already done here, as well as 
consulting with local leaders, local business communities, 
academia, and experts in the respective field.
    So, the EIS is a thoroughly researched and developed 
document, taking into account all the experts, primary locally 
here, who can address the impact for this military buildup.
    As far as the interagency, we do see a prime role for the 
interagency to play, because as I've stated before, this is not 
just a military action, it is a Federal Government action, and 
that we need to support of all the Federal agencies and 
departments in helping us to make this a success. And I was 
glad to see that the meeting that Secretary Cohen and I co-
chaired, that we had a response from just about every 
department agency in the Federal Government in Washington, as 
well as a large contingent from the Government of Guam and the 
Task Force Commander to. So we are pleased to see that, and we 
think that's critical.
    Ms. Bordallo. Thank you.
    General, this is a rather difficult question, but I'm going 
to ask it anyway. Can you give us some idea of the extent of 
assistance you are giving our local government outside the gate 
during this military buildup?
    I mean, certainly----
    General Bice. Yeah.
    Ms. Bordallo --you know, a lot of people are very 
concerned.
    General Bice. Yes. And I certainly understand that there 
are a lot of questions. We have a lot of questions, as we do 
our planning.
    The National Environmental Protection Act requires a 
deliberate process to go through as we do our planning. It 
requires that studies and analysis precede any sort of 
decision-based planning that we go through. So up to this 
point, we have been relying heavily on the analysis done by the 
experts in addressing the impact on a community to potential 
options. And we will be developing a, what we call a 
diagrammatic plans, within a month. These are bubbles, if you 
will, on a map that show the potential way down, and within 
that, may have different options. From that, we will come up 
with feasible alternatives that will be developed by November 
this year. And then from that again, we will come up with a 
planning level master plan by July of next year.
    So, this is a process. I understand the frustration, but 
believe me, I would like to see the outcome just like anyone 
elsewhere. But the law requires us to follow through a 
deliberate process to make sure that we take everything into 
account before we start deciding anything.
    Ms. Bordallo. Thank you, General.
    Thank you, Madam Chair.
    Mrs. Christensen. Thank you, General Bice.
    As you develop that plan, when the plan is in draft, before 
it comes final, do you then come back to the Government of Guam 
and the public before it becomes a final document?
    General Bice. Thanks for that question, Madam Chair.
    Our master plan has to dovetail in closely with the Guam--
the Government of Guam's master plan. They currently, as you 
undoubtedly hear, they currently are also in a master planning 
process, and that our master plan and their master plan has to 
build together, because we share the same rose, we share the 
same infrastructure. And so we cannot do our planning 
independent of theirs, neither can they do their planning 
independent of ours. So we will be closely coordinating and 
dovetailing our respective plans.
    Mrs. Christensen. OK.
    You know, we hear a lot about the $10 point-something 
billion dollars. Can you tell us about the $6.02 billion that 
the Japanese are proposing to put in and the $4-plus billion 
from the U.S.? Are they dedicated to specific projects, or is 
there some flexibility that could enable other local projects 
to use some of that funding?
    General Bice. Thank you, Madam Chair, for that question.
    The Japanese are committed to provide a little over $6 
billion in funding in support of this military buildup. $2.8 
billion worth of that is established in--what we will call a 
Japanese direct funding. That's cash that the DIACT and the 
Government of Japan will provide to the United States for the 
building of operational facilities, that is headquarters 
elements----
    Mrs. Christensen. So, it is a dedicated that the funding is 
dedicated to that----
    General Bice. Dedicated to the military, operation 
facilities, as well as barracks, and (unintelligible), mess 
halls, and that.
    Now 3.29 billion of that is established in, what we would 
call, is often called, Special Purpose Entities, and there's 
two parts of that. One part is housing, and that includes $2.55 
billion for homes, right approximately 3500 homes that we are 
talking about. And then the $740 million in Special Purpose 
Entities, it would cover the upgrades to utilities that would 
support the military move. And the utilities we are talking 
about was a power, water, wastewater, and solid waste 
management.
    Mrs. Christensen. Can you dispel the notion that there is a 
secret plan for where to house the Marines, and are you being 
totally open with the public on these issues? There seems to be 
some sense that there's a secret plan that no one else is--that 
is not being shared. And I realize there may be some security 
issues, but in terms of the housing of the Marines, is there 
some kind a secret plan?
    General Bice. No. No, ma'am, there's no secret plan.
    Of course, we are looking at Department of Defense lands 
first, and, you know----
    Mrs. Christensen. In terms of housing the Marines----
    General Bice. In terms of----
    Mrs. Christensen.--you will be discussing it with the 
government and the public.
    General Bice. Yes, ma'am.
    In terms of lay down, we are looking at DOD lands first, 
and that's where our study started. And then if it is 
determined that we need other lands, then we will look for 
that.
    We've been approached by landowners on Guam about using----
    Mrs. Christensen. And those would be lease or purchase. You 
would look to lease or----
    General Bice. To an acquisition program.
    And we have been----
    Mrs. Christensen. And that would be at fair market value?
    General Bice. Yes, ma'am.
    Mrs. Christensen. Thank you.
    I have a question that I wanted to ask Mr. Lujan as well. 
With regard to the Defense Federal Acquisition Regulation, I'm 
concerned and there's a lot of concern on Guam that the small 
businesses or the businesses that are located here get first 
preference for work to be done here. And based on your 
testimony and your description of what that regulation is 
affirmed and from anywhere can move to Guam today and meet a 
two-year requirement, be classified as a U.S. firm and compete 
on equal footing with a Guamanian company for the work?
    Mr. Lujan. Yes, ma'am, that's correct.
    Mrs. Christensen. And is there any--do SBA rules or 
regulations preclude giving preference to companies who've been 
here longer or which are local over someone that's just been 
here for two years to qualify?
    Mr. Lujan. Thank you for the question, Madam Chair.
    Unfortunately, because of the way DFAR regulations are 
outlined, there won't be any preference given to any local 
companies here, per se, which is the reason why we continuously 
look for opportunities for veteran-owned businesses, women-
owned businesses and minority-owned businesses. And we try to 
get them into the 8(a) Programs so that we could set aside some 
of these fundings and perhaps also get them into HUBZone----
    Mrs. Christensen. So, you're going to try to, in the time 
that we have, to make them more competitive for the projects 
that will be coming online?
    Mr. Lujan. Correct.
    The fastest way of a fast track avenue is to go to through 
programs that we have currently in place as policy. Any 
deviation of that policy would create probably delays in the 
process, which would also ultimately become a delay for small 
businesses as they're operating their business here locally.
    Mrs. Christensen. Congresswoman Bordallo, do you have 
another question that you--(pauses).
    OK. I'll ask my last and then I'll turn to you for your 
last, and we will have questions submitted in writing to the 
panel for your responses for the record.
    During the brief with Administrator Finch--Admiral French 
and--French, and your staff on the issue--this is to General 
Bice, the issue was raised regarding the distribution between 
military personnel stationed and deployed and how such 
distinction captures or misses taxes which could be collected.
    As part of the planning process, is the military or is DOD 
willing to be creative on issues such as taxation of military 
personnel and taxes so that in some ways could possibly offset 
some of the impact caused by the buildup, so that--are you 
willing to look at creative ways?
    I understand that in sports, for example, some states may 
capture taxes and the team that plays there just for that one 
game. Are you willing to look at ways that the Government of 
Guam could capture some more of those taxes to assist them in 
preparing for this buildup?
    General Bice. Thank you, Madam Chair.
    We've been asked that question or related questions to 
that. I'm certainly not the person to talk about creative ways 
for taxes at this point. But certainly we will make all of our 
information known to the Internal Revenue. We've met with 
Internal Revenue and the Guam Revenue and Tax. We will make all 
the information known to them as to what we plan to do.
    There will be permanently stationed service members, and 
their families are coming here. There will continually be 
deployed units coming in here, and they may be here for days 
and weeks and months. And I'm not certain I understand what all 
the ramifications from a tax perspective would be on that, but 
the military still plans on continuing the permanently 
stationing and deploying of forces in here, transiting of 
forces in here, and the like.
    Mrs. Christensen. Thank you. We will probably follow up on 
that question in writing.
    I now recognize Ms. Bordallo for her questions.
    Ms. Bordallo. Thank you, Madam Chair.
    This question goes to General Bice. The Government 
Accountability Office and the Department of Defense have both 
released reports that reveal contaminants exist in the drinking 
water supply and in the water and soil on Guam. As the 
Environmental Impact Study moves forward, to what extent will 
the EIS take cleanup of existing contaminants in the water and 
soil into account? And second, will any of the buildup cost go 
to addressing current environmental mitigation requirements?
    I am concerned because I have heard through testimony from 
the GAO at a recent House Armed Services Subcommittee on 
Readiness, which I'm member, hearing that the Department of 
Defense has identified nationwide over $32 billion in 
environmental restoration requirements at active installations, 
BRAC, which certainly would include Guam, and formally use 
defense sites. And with actual funding levels requested well 
below the overall identified mitigation requirements, how can 
we be assured on Guam that our environmental challenges will 
not be worsened, but rather mitigated as a result of the 
buildup?
    General Bice. Thank you, Congresswoman Bordallo, for that 
question.
    We have just started our water utility study on Guam, and 
that is a concern in terms of looking at the water, the 
aquifer, the leakage of salt water into the aquifer. You know, 
that is a concern and will be addressed in the Environmental 
Impact Study.
    What the outcome on that would--I can't predict it at this 
point. But it is a concern, and if there's mitigation required 
in terms--because we have to make sure that the water is clean 
and pure for the military buildup.
    Ms. Bordallo. To everyone.
    General Bice. So, that will be addressed, and if there are 
other actions required, why, that's going to have to be 
established.
    I think that's separate from the issues that you're 
addressing in terms of environmental cleanup. There are 
environmental cleanup issues here on Guam, as well as 
nationwide. And that's being addressed separately as part of 
the, as I understand, the superfund program there.
    As we go through our environmental analysis, if we find, in 
terms of a lay down site that requires environmental mitigation 
because of the contaminants in that, that's certainly going to 
be addressed as part of our action.
    Ms. Bordallo. Well, I'll be monitoring that, General Bice.
    Also, and one last question. Later today, Mr. Benny San 
Nicolas, representing the two Soil and Water Conservation 
Districts here on Guam, he will testify to the strong interest 
of opening up access to the military marketplace for locally 
grown farm products.
    In what ways is the Department of Defense oriented toward 
procurement of fruits and vegetables from our local farmers? 
What can be done in this area, and how can we work together to 
ensure such interests are explored and goals realized?
    General Bice. Well, ma'am, having been a former Base 
Commander, I know that in our procurement process, we are 
always looking to buy locally, especially when it comes to 
produce and vegetables and the like there, because it is 
better, it is more healthy, more wholesome, and it is good for 
the economy.
    Certainly I can't speak for what commanders would be doing 
in the future, but my suspicion is that they will continue that 
practice. And, again, it is good for the members of the 
services and the local economy as well.
    Ms. Bordallo. Thank you, General, and I'll be monitoring 
that as well.
    Thank you, Madam Chair, and I yield back.
    Mrs. Christensen. Thank you.
    I want to thank the witnesses for their valuable testimony 
and the members for their questions and for your answers.
    Members of the Subcommittee may have some additional 
questions, as I said earlier, for the witnesses and we will ask 
you to respond to these in writing.
    Mrs. Christensen. At this time, this first panel is 
dismissed with our thanks, and I'd like to recognize the second 
panel of witnesses and thank them for their patience.
    The second panel of witnesses are, The Honorable Felix P. 
Camacho, Governor of Guam; The Honorable Mark Forbes, Speaker 
of the 29th Legislature of Guam; The Honorable Judith T. Won 
Pat, Minority Leader of the 29th Legislature of Guam; The 
Honorable Melissa Savares, Mayor of Dededo and President of the 
Mayors' Council of Guam; and Mr. Simon Sanchez, Chairman of the 
Consolidated Commission on Utilities.
    Mrs. Christensen. Thank you Governor, and I now recognize 
you, Governor Camacho, to testify for five minutes. Please know 
that your written testimony will be in the record, and feel 
free to speak from your testimony or----
    Governor Camacho. OK.
    Mrs. Christensen --from just off the top of your head if 
you wish.
    Governor Camacho. All right, thank you.

         STATEMENT OF THE HONORABLE FELIX P. CAMACHO, 
                        GOVERNOR OF GUAM

    Governor Camacho. Well, good morning Madam Chairwoman and 
members of the Committee. Thank you for inviting me to testify 
on the military buildup and the opportunities, issues, and 
challenges facing our community.
    Madam Chair, I also thank you for holding this hearing on 
Guam. I understood from last night that this is the first 
Committee Hearing on Guam since 1978. And so it is so 
significant to better understand the needs and concerns of what 
I consider to be the single most important issue for us since 
our liberation in 1944.
    As you are well aware, we are poised to receive a 
significant increase of U.S. military assets over the next 
decade. The patriotic people of Guam stand in full support of 
this positive growth in our part of the Western Pacific. But 
this growth should not happen just inside the military fence 
line.
    Guam's population is expected to increase from 168,564, 
which was a population in 2005, to an estimated 180,000-plus by 
2010, without factoring any increase to the military 
population. Due to the normal increase, I have directed capital 
improvements throughout our island, civilian infrastructure, 
specifically in locations expected to develop more rapidly in 
light of the expansion as identified by military planners.
    Power generation, clean water, wastewater, infrastructure, 
sanitary landfill, modern roads, our seaport, otherwise known 
as the Port Authority of Guam, improved social services, and 
labor, such as required skilled workers, are all priorities of 
this GovGuam initiative.
    The Government of Guam has estimated the cost for 
infrastructure upgrades for our local infrastructure at roughly 
$1.1 billion, but as an isolated U.S. Territory, dependent on 
military and tourism, we are facing a monumental challenge in 
funding the required infrastructure upgrades on an accelerated 
time frame. The individual agencies within the Government of 
Guam are seeking all available funding to support these 
projects.
    The Government of Guam is also taking cost-cutting measures 
and other approaches to maximize limited funding of 
opportunities, including public-private partnerships. And for 
that reason, public sector involvement and infrastructure 
projects, such as power, water, wastewater, solid waste, port 
facilities, is anticipated.
    I am encouraged that the IGIA Working Group on Military 
Expansion convened recently at my request, and I thank the 
members of this Committee for your participation in Washington, 
D.C. The working dialogue that we had guides the Government and 
the island's military command in understanding what is needed 
to respond to this tremendous growth and the impact to our 
community.
    Critical milestones negotiated between the Governments of 
Japan and the United States, and embedded in the bilateral 
agreements, have created an externally driven sense of urgency 
for Guam, for the U.S. Department of the Interior, and other 
executive branches, branch agencies. The sense of urgency may 
be contributing to, what we may consider at times, a lack of 
consideration to the rights of the people of Guam affected by 
this Department of Defense initiative.
    As Governor, I acknowledge that there are many issues and 
challenges, key decisions and others, that face Guam, some 
challenges of which are not the responsibility of the 
Department of Defense. However, funding for direct and indirect 
costs associated with the move of the 3rd Marine Expeditionary 
Force to Guam must be addressed and resolved as soon as 
possible.
    It is in everyone's interest that the military expansion be 
implemented so that the outcomes achieved are sustainable, both 
physically, socially, and for the foreseeable future. An 
integrated, holistic approach that considers the Government of 
Guam's utility and social services, as well as the military 
value of our island, is crucial. This holistic approach, one 
that integrates the needs of both the military and the island, 
should not be significantly more expensive than an inside the 
fence approach, but the returns, for all stakeholders, will be 
much greater.
    The military expansion for Guam is simply this: A restored 
confidence in our island and the acknowledgement of this 
strategic geopolitical role that Guam plays in and the global 
realignment of the Unites States Military Forces.
    In closing, Madam Chairwoman and members of the Committee, 
military expansion for Guam means progress. Military expansion 
means a strong economy that is poised for sustained growth 
alongside our core industries of tourism and transportation. 
The move of the U.S. Marines to Guam and the buildup at our 
current bases means a more developed local workforce, greater 
opportunities for our people, and a future of unprecedented 
prosperity.
    Guam is transforming into the Asia-Pacific Rim's center for 
Asian-American trade and the tip of the American military spear 
in this part of the world. However, in order for all of this 
growth to be mutually beneficial, the Territory of Guam, our 
people, must be viewed as relevant and important stakeholders, 
equal partners, as key decisions and challenges are addressed.
    The community of Guam will be impacted. I want to ensure, 
as Governor, that this military buildup will be positive, 
beneficial, and sustainable for decades to come. This is one 
community, both civilian and military combined, that is 
dynamic. It is ever changing, and we all seek to make the best 
of our opportunities where America's day begins.
    And with that, I thank you for your attention. Thank you.
    Mrs. Christensen. Thank you, Governor.
    [The prepared statement of Governor Camacho follows:]

       Statement of The Honorable Felix Camacho, Governor of Guam

    Madam Chairwoman and Members of the Committee, thank you for 
inviting me to participate in your hearing on the military buildup on 
Guam and the challenges facing our community. My name is Felix Camacho; 
I am the Governor of Guam. My testimony today is to present Guam's 
perspective of the challenges that will accompany the military's 
activities here.
    Madam Chair, I would like to express my appreciation to you and to 
the members of the Committee for holding this hearing here in Guam to 
better understand the needs and concerns of the single most important 
issue for the people of Guam since the Liberation of Guam from Japanese 
occupation in 1944.
    As you are aware, the Territory is poised to receive a significant 
increase of U.S. military assets over the next 10 years. From the $1 
billion in activity at Andersen Air Force Base in Northern Guam to the 
$1 billion in projects at U.S. Naval Station Guam in the South and the 
planned $10 billion move of the 3rd Marine Expeditionary Force from 
Okinawa to Guam, the patriotic Americans of Guam stand in full support 
of this positive growth in our part of the Western Pacific.
    But this growth will not just and should not happen inside the 
fences of the military bases.
    According to U.S. Census Bureau estimates, Guam's population is 
expected to increase from 168,564 in 2005 to 180,692 in 2010, without 
factoring any increase to the local military population by the U.S. 
Department of Defense. Due to the normal increase, I have pushed the 
Government of Guam to begin the process of directing capital 
improvements throughout our island, specifically in those locations 
expected to develop more rapidly in light of the expansion as 
identified by military planners. Clean water and waste water 
infrastructure, power generation, a sanitary landfill, modern roads and 
improved social services are all priorities of this effort.
    The Government of Guam has estimated the costs to support the 
military buildup at an estimated $1.1. billion. But as an isolated U.S. 
Territory, dependent on military and tourism, we are facing a 
monumental challenge in finding this funding on an accelerated time 
frame and under a sense of urgency.
    I commit to each of you that the individual agencies within the 
Government of Guam continue to seek all available funding sources to 
support projects that will improve the quality of life for all 
residents, both military and civilian alike. The Government of Guam 
also is taking cost-cutting measures and other approaches to maximize 
the limited funding opportunities afforded the island as a U.S. 
Territory--including but, not limited to, public-private partnerships.
    As I stand before you here, I am encouraged by the fact that the 
Interagency Group on Insular Areas Working Group on Military Expansion 
convened recently at my request. The U.S. Department of the Interior 
Office of Insular Affairs, in cooperation with the U.S. Department of 
the Navy Joint Guam Program Office and the U.S. Department of Defense, 
leads this group. I want to take this opportunity to thank each of the 
members of the House Subcommittee on Insular Affairs for your 
participation in the first meeting of this working group. We must seek 
more opportunities to see representatives from the executive and 
legislative branches of our great nation in one room to discuss the 
future of Guam. Both Lt. Governor Michael Cruz and I are encouraged by 
the greater interaction between the Government of Guam and relevant 
federal agencies to guide the Government of Guam and the island's U.S. 
military commands in understanding what is needed to respond to this 
tremendous growth and the certain impacts to the Guam community now and 
our future generations.
    But these efforts have not been without challenges. The Department 
of Defense entered into bi-lateral negotiations with the Government of 
Japan, which proposed to shift significant security assets to Guam, 
with little or no consideration of, or consultation with the Territory 
of Guam. It appears that the Nation's and the interests of DOD took 
precedence forgoing any consideration of the impact to the citizens of 
Guam and this underlying attitude has permeated the relationship 
between DOD and the Government of Guam to date.
    Critical milestones negotiated and agreed upon between the 
Government of Japan and the United States, and embedded in the bi-
lateral agreements, have created an externally driven sense of urgency 
for Guam, the U.S. Department of the Interior and the other executive 
branch agencies. This sense of urgency may be contributing to this lack 
of consideration of the rights of the people of Guam affected by this 
DOD initiative. This approach could set up a situation to see us fail. 
This is unacceptable.
    As Governor, I acknowledge there are many challenges that face 
Guam-challenges that are not the responsibility of DOD. However, I 
expect DOD to underwrite the costs directly and indirectly associated 
with DOD driven requirements for the move of the 3rd Marine 
Expeditionary Force to Guam. We cannot be expected to cover unfunded 
federal mandates or other substantial requirements of this military 
expansion. We have seen the effects of such mandates in other federal 
programs.
    It is in the best interests of the Nation, the Department of 
Defense and the people of Guam that the military expansion be 
implemented so the outcomes achieved are sustainable, both physically 
and socially, for the foreseeable future. An integrated, holistic 
approach that considers the people of Guam, our rights, our health and 
our well being as well as the military value of our island is crucial. 
This holistic approach, one that takes into account that DOD's 
unprecedented expansion is being undertaken in this patriotic American 
community and one that integrates both the island requirements and the 
military requirements should not be significantly more expensive than 
an ``inside the fence'' approach, but the returns, for all 
stakeholders, will be much greater.
    Ladies and Gentleman-The military expansion for Guam is simply 
this: a restored confidence in Guam and the strategic importance of 
Guam in protecting the security of the United States of America.
    We have seen great examples of this over the past four years. In 
that time, there have been numerous carrier and battle group visits as 
well as increased interaction with foreign armed forces, including 
China and Australia. This fiscal year alone, Congress has appropriated 
more than $193 million for military construction activities on Guam. 
That number is expected to rise to the billions of dollars a few short 
years from now.
    This will greatly add to the forward deployed assets that are 
already on Guam to cover an area twice the size of the continental 
United States.
    The activity will complement those assets soaring above the skies 
of our beautiful island, including forward deployed B-1 and B-2 
Bombers. We will welcome the Global Hawk Strike Force and a Rapid 
Engineer Deployable Heavy Operational Repair Squadron Engineer (RED 
HORSE) Squadron.
    Joint Military Exercises conducted on Guam by all branches of 
service and the Australian Royal Navy, Royal Malaysian Navy, Peoples 
Republic of China Army/Navy, Russian Federated Navy, and Republic of 
Korea Navy will continue this year and beyond. These assets and 
activities will do much to ensure the security of Micronesia and the 
Pacific Rim.
    As I stand here, I must reflect on the fact that all of these 
interactions could not have been possible without our efforts to bring 
Washington to Guam.
    Former Secretary of Defense Donald Rumsfeld, Chairman of the Joint 
Chiefs of Staff, General Peter Pace and numerous congressional 
delegations including you who are here today have come to Guam to see 
for themselves Guam's role and the challenges of a patriotic people who 
stand with America in the defense of democracy.
Summary
    Madam Chairwoman and members of the Committee, military expansion 
for Guam means progress. Military expansion means a strong economy that 
is poised for sustained growth alongside our core industries of tourism 
and transportation. The move of the U.S. Marines to Guam and the 
buildup at our current bases means a more developed local workforce and 
the benefits will include higher paying jobs filled by a skilled, 
educated local workforce that is skilled and educated.
    Guam is a safe American community and is transforming into the 
Asia-Pacific Rim's center for Asian-American trade and the tip of the 
American military spear in this part of the world. However, in order 
for all of this growth to be mutually beneficial, our island, our 
community and our people must be viewed as relevant and important 
stakeholders-equal partners-as we embark on transforming Guam into one 
community which will transform our island paradise forever.
    Thank you for your attention. I am pleased to answer any questions.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Senator Won Pat 
to testify for five minutes.

         STATEMENT OF THE HONORABLE JUDITH T. WON PAT, 
           MINORITY LEADER, 29TH LEGISLATURE OF GUAM

    Senator Won Pat. Hafa Adai.
    My name is Judith Won Pat, Senator and Minority Leader. I'm 
actually going to read Version 5 of my testimony. I must state 
my disappointment however, that the local community are not 
invited to testify this morning.
    Before I begin to speak on the impact of the relocation of 
Marines from Okinawa to Guam, I would be remiss if I failed to 
address two issues of paramount importance to the people of 
Guam that has yet to be resolved--that of political status and 
war reparations.
    I won't belabor the issue, but just to say that on 
political status, there is a need for Congress to support and 
fund the local effort for Chamorros to finally determine their 
own political destiny.
    On the issue of war reparations, we are elated that the 
World War II Loyalty Recognition Act has made it to the U.S. 
Senate. The Guam War Claims Review Commission, established by 
Congress, found that the U.S. has a moral obligation to pay 
proper compensation for war damages, that there is a lack of 
parity and war claims for Guam when compared to other war claim 
programs established by the U.S. Congress, and that Guam was 
erroneously excluded from coverage under Title II of the War 
Claims Act.
    I hope Congress would do the right thing and pass this very 
important legislation for the people of Guam and finally bring 
closure to this dark chapter in Guam's history.
    Many would say that they do not oppose the military 
buildup, but they have concerns. My hope is that this hearing 
will convey to Congress the frustration and anxiousness that 
their fellow Americans in Guam feel about the coming military 
buildup and to recognize the need to include Guam and their 
leaders in the full scope of any discussion regarding the 
buildup.
    Five minutes is not enough to adequately cover every impact 
from the military buildup, but I will discuss a few. Guam is 
barely able to provide the necessary infrastructure to meet the 
requirements of the current community. Our water and power 
systems are at near capacity. Our roads are in need of repair. 
There is an immediate need to close Ordot dump and to open a 
new sanitary landfill, and our only civilian hospitals has been 
struggling to meet the needs of the current population. In 
addition, imported labor will be needed to complete 
construction projects.
    Job seekers from the Freely Associated States by virtue of 
the Compact will no doubt want to come to Guam to seek 
employment, independent contractors from the mainland, and 
other entrepreneurs looking for a quick buck. In the final 
analysis, we may see a population growth of up to 50,000 
people. How would Guam deal with this explosive growth with an 
already overburdened infrastructure?
    Infrastructure and healthcare are basic quality of life 
issues, contrary to the U.S. Pacific Commands Pacific Fleet 
Fiscal Year 2008 budget, where there's a request under the 
quality of service category for $45 million for a new fitness 
center, and a $5 million dollar appropriation to Andersen Air 
Force Base to provide air-conditioning for animal kennels at 
$120,000 per kennel.
    I'm not asking for a new gym or for air-conditioned animal 
kennels. I'm asking about--I'm talking about investments on 
Guam for basic quality of life projects, bare necessities for 
any community.
    The introduction of so many new people to the island in a 
relatively short span of time will further accelerate the 
erosion of language-tradition in the Chamorro culture. 
Assistance by the Federal Government to Guam by providing 
funding and expertise in the areas of anthropology and culture 
preservation will be essential to ensure that the rich culture 
and language of the Chamorro people do not become extinct.
    The population increase will further dilute the Chamorros, 
who eventually become the minority in their own land. A 
scholarly, unbiased study needs to be undertaken.
    The separation of Guam Public Schools and the Department of 
Defense School has created a social separation among our 
children. Although the interest in establishing the best 
learning environment possible for children is understandable, 
the manner in which this has been pursued, whether right or 
wrong, has been divisive rather than unifying, factional rather 
than integrated. This is compounded by the migration of our 
teachers to the DODEA system for higher pay and cost of living 
allowances. This backwards policy flies in the face of the good 
works done by great Americans, such as Martin Luther King and 
President Kennedy, who fought for equality in education 
regardless of a child's color, religion or creed.
    It was President Truman's order in 1949 to desegregate the 
U.S. Military that necessitated the creation of Defense 
Department schools in the American south, whose schools were 
largely segregated, ironically. What the military in Guam is 
doing with DODEA seems like a huge step backwards for civil 
rights. The millions of dollars spent on Guam DODEA School 
should be instead used to bolster the local educational system 
and help us turn it around so it can benefit all children on 
Guam, civilian or military. A single integrated school system 
with a pool of resources, financial and personnel, supported by 
both the local and national government, is a possible and 
plausible alternative.
    Several Senators and I had the opportunity to visit Okinawa 
since they have faced many of these similar issues. Naturally, 
we look to them for answers regarding impact of the buildup, 
absent any information from our own Federal Government and 
military. The government of Japan has for some time understood 
the impact of the U.S. Military in Okinawa and has funded 
millions of dollars to Okinawa since the reversion to lessen 
the burden of the military presence. We seek the same action by 
our Federal Government.
    There have been many discussions about Guam being the Tip 
of the Spear and that Guam is of the highest strategic value 
and of great importance to the mission of the United States in 
regional security and national defense. As a U.S. Territory so 
far removed from the mainland, oftentimes our issues and 
concerns fall on deaf ears. This is why this Oversight Hearing 
on Guam means so much to the future of our island. It will be 
decisions made in Washington, D.C., and not on Guam, that will 
determine the direction of Guam for decades to come.
    In closing, in a joint press conference with Defense 
Secretary Rumsfeld and Defense Japanese Minister Yoshinori Ohno 
in 2005, Rumsfeld stated that the move was, and I quote, 
``designed to enhance the alliance's capability to meet new 
threats and diverse contingencies and, as a whole, will reduce 
burdens on local communities,'' end of quote. What about the 
burden on Guam?
    Last, on behalf of the people of Guam, I ask that the town 
hall meeting be moved to the community.
    Si Yu'us Ma'ase and thank you.
    Mrs. Christensen. Thank you, Senator.
    [The prepared statement of Senator Won Pat follows:]

             Statement of The Honorable Judith T. Won Pat, 
           Senator and Minority Leader, 29th Guam Legislature

    A warm Hafa Adai to The Honorable Chairwoman Donna Christensen and 
members of the Subcommittee on Insular Affairs, my name is Judith T. 
Won Pat senator and minority leader. I am speaking today on behalf of 
the minority senators of the 29th Guam Legislature, Senators Rory J. 
Respicio, Vicente ``Ben'' Pangelinan, Adolpho Palacios, Tina Muna-
Barnes, Dr. David Shimizu, and Dr. Judith P. Guthertz.
    Thank you for the invitation to testify in today's oversight field 
hearing on the ``U.S. Military Buildup on Guam and the Challenges 
Facing the Community.'' I commend Chairwoman Christensen for holding 
this hearing on Guam and I hope this will be the first of many 
congressional oversight field hearings that will be conducted on Guam 
which will allow the civilian community to voice their opinions about 
the military buildup.
    Before I begin to speak on the impact of the relocation of marine 
from Okinawa to Guam, I would be remiss if I fail to address two issues 
of paramount importance to the people of Guam that has yet to be 
resolved; that of political status, and war reparations. I won't 
belabor the issue but just to say that on political status, there is a 
need for Congress to support the local effort for Chamorros to finally 
determine their own political destiny.
    On the issue of war reparations, we are elated that the World War 
II Loyalty Recognition Act has made it to the U.S. Senate for their 
consideration. To reiterate the findings of the Guam War Claims Review 
Commission established by Congress, the Commission found that; the U.S. 
has a moral obligation to pay proper compensation for war damages, that 
there is a lack of parity in war claims for Guam when compared to other 
war claims programs established by the U.S. Congress, and that Guam was 
erroneously excluded from coverage under Title II of the War Claims 
Act. With continued persistence and hard work on this issue, we hope to 
finally close this dark chapter in Guam's history
    Our island, in the coming decade, will see a significant increase 
in our military and overall population with the arrival of Marines from 
Okinawa and their families. Not since the end of World War II has Guam 
experienced such a dramatic increase in military personnel. But unlike 
the post WWII buildup on Guam, we are in a much better and able 
condition to be active participants in the coming buildup. We envision 
a process in which the local government can be joint partners and where 
civilian community input will be taken not only into consideration, but 
be an integral part in the eventual decisions made.
    I do not oppose the military buildup or the movement of marines 
from Okinawa. My adamant objection is to the way that Guam has been 
treated so far in this very important, significant, and far reaching 
military buildup planning process. Why are the people that stands to be 
affected the most by this buildup are left out of the decision making 
process?
    To this day, we have been given little or no information as to the 
allocation of the billions of dollars that have been committed to the 
buildup on Guam. A discussion of socio-economic implications of the 
move and the possible immediate, latent, and residual impact on the 
quality of life on Guam has not even been discussed. Clearly Guam's 
social, cultural and environmental resources will be impacted by 
decisions made by the military, and it should be recognized that there 
exist an obligation by the military to provide as much information and 
resources to the island to allow Guam leaders an opportunity to prepare 
and plan in anticipation of the military buildup. My hope is that this 
hearing will convey to Congress the frustration and anxiousness that 
their fellow Americans on Guam feel about the coming military buildup 
and to recognize the need to include Guam and their leaders in the full 
scope of any discussion regarding the buildup.
    There are four main topics that I wanted to cover in my testimony. 
They are infrastructure, economic impact, social impact, and education.
INFRASTRUCTURE
    Guam, with a population of about 170,000 people, is barely able to 
provide the necessary infrastructure to meet the requirements of the 
community. Our water and power systems are at near capacity; our roads 
are in need of repair; there is an immediate need to close Ordot dump 
and to open a new sanitary landfill, and our only civilian hospital has 
been struggling to meet the needs of the current population. Imagine 
the impact of additional military personnel and support staff and their 
families totaling 30,000 people on our ailing infrastructure. A growth 
of 30,000 may just be the beginning. In addition, imported labor will 
be needed to complete construction projects, job seekers from the 
Freely Associated States by virtue of the Compact will no doubt want to 
come to Guam to seek employments, independent contractors from the 
mainland, and other entrepreneurs looking for a quick buck. In the 
final analysis we may see a population growth of up to 50,000 people. 
How will Guam deal with this explosive growth with an already 
overburdened infrastructure?
    In the coming years, the landfill at Andersen Air Force base will 
have reached its capacity and will have to be shut down. The landfill, 
run by the Navy, is also reaching capacity and has been rumored to be 
contaminated and toxic. So far we have not seen any plans by the 
military on what their intentions are after they close their landfills. 
With the influx of marines in the coming years, it will only hasten the 
closures of these landfills.
    The hospital is another concern. A real measure of how well we can 
provide for our sick and disabled population is the ratio of hospital 
beds per 1,000 population. Our only civilian hospital the Guam Memorial 
Hospital currently has a 208 bed capacity, meaning that the ration on 
Guam is 1.2. The U.S. National average is 2.8 beds per 1000 population. 
The potential population boom in the next decade by the military 
buildup would eventual drop that ration to less than 1 bed per 1,000 
persons.
    In the U.S. Pacific Command's Pacific Fleet FY08 budget, there is a 
request under the quality of service category for $45 million for a new 
fitness center. While we applaud such a request for military personnel, 
we have to recognize that this request only benefits those inside the 
fence. That same $45 million invested in our local hospital would not 
only help GMH come up to par with national standards but would also 
allow them to better serve the local and military community.
    Any improvement to the infrastructure by the government of Guam 
benefits the entire island community. Can we say with certainty that 
the improvement made by the military on Guam will benefit both the 
military and the island community? Without any information from the 
military, we cannot plan properly for the buildup.
ECONOMIC IMPACT
    While the potential economic grain as a result of the increase in 
defense personnel and spending are welcomed, we also need to examine 
the potential economic imbalance created by the huge increase in the 
population.
    Military personnel stationed on Guam currently receive overseas 
housing allowances ranging from $1,200 to $5,000 and more depending on 
their rank and marital status. This is much higher than the housing 
budgets of most residents locally. If even only a small fraction of the 
military personnel take advantage of these allowances, the cost of 
rental units on Guam will skyrocket, effectively increasing costs for 
Guam residents and pricing them out of the local rental market.
    Runaway inflation and an increase in the cost of living will become 
a problem for current residents of Guam. Already we have seen prices of 
utilities, healthcare, and fuel increase at an alarming rate with no 
relief in sight. With the increase of military personnel to the island, 
who for the most part are well compensated, this imbalance will only 
serve to increase the cost of living on island, create a situation of 
uncontrolled inflation, and further widen the gap between the rich and 
the poor. This will mean increasing the amounts of money the government 
will have to spend on welfare programs.
    Current shortage of teachers, doctors, nurses, laborers, will be 
compounded by a 20% overnight growth in population. No community in the 
United States has ever faced such an unprecedented growth. Such 
unprecedented occurrence should be met with unprecedented assistance 
from the Federal Government and the U.S. Military.
SOCIAL IMPACT
    The social impact of 30,000 new people on the island needs to be 
studied. There has been little research about the social impacts on the 
local populations and their responses to them. Gender issues for 
example need to be examined. How does the military buildup affect rates 
of prostitution, rape, and other violence against women, as well as the 
participation of women in the workforce and corresponding wage rates? A 
study, along the lines conducted by the Watson Institute for 
International Studies at Brown University, needs to be undertaken with 
a direct focus on the movement of military personnel, their families 
and other support staff and their immediate social impacts on the 
current population on Guam.
    In a joint press conference with Defense Secretary Rumsfeld and 
Japanese Defense Minister Yoshinori Ono in 2005, Rumsfeld stated that 
the move was ``designed to enhance the alliance's capability to meet 
new threats and diverse contingencies and, as a whole, will reduce 
burdens on local communities...'' What about the burden that is to be 
transferred to communities here on Guam, which Defense Secretary 
Rumsfeld has clearly pointed out?
EDUCATION
    The military needs to end the practice of education segregation on 
our island. Allowing DODEA to continue running a separate school system 
perpetuates the notion that somehow the local system is not good enough 
for the military community. It encourages animosity between military 
and civilian families and further confirms the existence of two 
communities, living on one island, under the American flag, separated 
by a fence. While I concede that our education system is less than 
perfect, this should never be used as a reason to segregate an American 
community. This backwards policy flies in the face of the good works 
done by great Americans such as Martin Luther King, and Presidents 
Kennedy and Johnson who fought for equality in education for all 
regardless of their race, religion or creed. The millions of dollars 
spent on the Guam DODEA schools should be instead used to bolster the 
local educational system and help us turn it around so it can benefit 
all the children on Guam, civilian and military.
    The existence of DODEA schools also exacerbates an existing problem 
with shortage of teachers on Guam. Often, the teachers that are 
employed at the DODEA schools come from the same pool of teachers that 
GPSS depends on to teach at our local schools. It has even come to the 
point that DODEA is hiring away teachers from GPSS. We can't blame the 
teachers for leaving GPSS, often the choice to teach at DODEA is one of 
economics. There is no way that the local government can compete with 
the resources of the U.S. military, and it should not be allowed to 
compete with the community.
    When the military population increases, more of our teachers at our 
public schools will migrate to fill the needs at the DODEA schools. 
Where will that leave our public schools? Congress should be made aware 
of this situation and make the necessary policy changes to assist all 
of its citizens and not just those inside the gate.
    There have been many discussions about Guam being the ``Tip of the 
Spear'' and that Guam is of the highest strategic value and of great 
importance to the mission of the United States in regional security and 
national defense. There is no doubt that there will be numerous debates 
and discussion both in Congress and in the Pentagon which will affect 
Guam and for which our people need a voice. As a U.S. Territory so far 
removed from the mainland, oftentimes our issues and concerns fall on 
deaf ears. This is why this oversight hearing on Guam means so much to 
the future of our island. It will be decisions made in Washington D.C., 
in part through input from this subcommittee that will determine the 
direction of Guam for decades to come. All we want is to be part of 
that decision making process and ensure that any negative or positive 
impact on Guam resulting from the buildup be shared and the burden 
carried by all that call Guam home.
    Si Yu'us Ma'ase and thank you!
                                 ______
                                 
    Mrs. Christensen. And now the Chair recognizes Mayor 
Savares for her testimony.

  STATEMENT OF THE HONORABLE MELISSA SAVARES, MAYOR, DEDEDO, 
            GUAM, PRESIDENT, MAYORS' COUNCIL OF GUAM

    Ms. Savares. Hafa Adai, Chairman Christensen and 
Congresswoman Bordallo. I am Mayor Melissa Savares, Mayor of 
Dededo, as well as the President of the Mayors' Council of 
Guam. As the Mayor of the most populated village on island, I 
welcome the arrival of the Marines to my community.
    We did have NCTS at one time as the Navy base with over 400 
personnel, and now they're reduced to less than 30 active duty 
personnel.
    There are several villages that will be affected by the 
movement of the Marines to our island. However, Dededo will see 
the most activity with NCTS, South Fin Housing and the 
Northwest Field areas being located within the municipality. 
With this, there are several concerns that I will address 
today.
    The increase of vehicle traffic throughout the entire 
island on our major roadways is definitely a concern by all 
residents. The daily morning and afternoon commute to and from 
work for most residents is on Marine Corps Drive from Naval 
Station to Andersen Air Force Base. Alternative routes must be 
designated to alleviate this traffic congestion on our island's 
roadways. The Department of Public Works is currently working 
to identify Federal highway funds to use to upgrade the 
infrastructures that we currently have.
    The utility services provided to current residents are 
being upgraded to better serve our growing communities. The 
concern that I have is that we still--the water services that 
are being provided to the Navy bases, as well as the Andersen 
Air Force Base, are still coming through Fena, and that's 
ComNavMar operating their water services.
    What about the outside community? The water services that 
we get in our homes, to our villages, to our residents, will 
that also be upgraded through the formation of the upgrade of 
the infrastructure?
    OK. We will see the increase of military personnel 
utilizing not just on base. Many of them will choose to also 
live off base. So, we need to upgrade the current facilities 
that we also have with GWA.
    The current power system is being worked on with the CCU, 
and Mr. Sanchez will address that.
    I would like for the military to also, like I've said, many 
of them would be living off base in our own communities, and 
they will be using our infrastructure as well. Exercises being 
done by the Marines often take place at the Northwest Field and 
the Andy South Housing Areas. Residents in the northern area of 
Guam, of course, will have concerns about the times of these 
exercises.
    Like Senator Won Pat, three mayors also went to Okinawa 
last year and observed the concerns that the local community 
had with the exercises of the helicopters and the jets coming 
in during the evening hours. The concern that I have is, are 
the residents going to be able to sleep at night or be worried, 
be waken up by the noise from the helicopters and the jets 
coming in? Can these exercises be limited to a certain time and 
not occur from 10:00 p.m. to 6:00 a.m. for the sake of the 
nearby residents?
    The families that have access to return Federal lands that 
have been developed by original land owners and has been opened 
back for regular traffic for several years, have businesses and 
allow families to actually access their properties. One concern 
is, the Route 3A access to Urunao and Ritidian, I know that 
there's going to be a current upgrade in the Northwest Field. 
Family members in the past had, before the return of their 
lands, had to get base clearance in order to access their 
properties at Urunao. Will this be restricted again and taken 
away from them?
    There is a resort, a business resort in the area. We don't 
want the customers to the resort--not just the tourists but the 
local community as well--to be restricted and have to obtain 
base passes to Route 3A to access their properties.
    It is evident that we will also see an increase of foot 
traffic around many military bases, most specifically, around 
the Naval Hospital area and the NCTS area. The concern is, will 
there be infrastructure as far as sidewalks are concerned? 
There will be a lot of foot traffic coming on and off base to 
walk to the stores and nearby malls. Will the military, the 
Federal Government help with the infrastructure as far as 
sidewalks are concerned?
    In addition, with the increase of residents living in our 
community, first-time homeowners wanting to purchase homes in 
the villages, with the population exceeding 20,000 residents, 
do not qualify for USDA Home Loan Programs. I've requested 
through Congresswoman Bordallo's office, back in March, that 
the insular areas be exempted from that 20,000 cap.
    With the expectance of 8,000 Marines and their families to 
our communities, more homes are being built and of course the 
prices of homes are rising, becoming less affordable for our 
local families to buy. With this exemption, our families and 
our communities will be able to purchase affordable homes under 
the USDA Affordable Home Loan Program.
    As President of the Mayors' Council of Guam, I, along with 
my colleagues, welcome the Marines to our island and know that 
our island and our families will benefit tremendously with the 
investment of the military that the military will make on Guam.
    I express with my heartfelt appreciation to the Committee 
on Natural Resources for allowing us to testify on behalf of 
our communities. Thank you.
    Mrs. Christensen. Thank you, Mayor.
    [The prepared statement of Mayor Savares follows:]

       Statement of The Honorable Melissa B. Savares, President, 
              Mayors' Council of Guam, and Mayor of Dededo

    Chairwoman Christensen and Members of the Subcommittee on Insular 
Affairs,
    I am Mayor Melissa B. Savares, Mayor of Dededo and President of the 
Mayors' Council of Guam. As Mayor of the most populated village on the 
island, I welcome the arrival of the Marines to our community.
    There are several villages that will be affected by the movement of 
Marine to our island. However, Dededo will see the most activity with 
the NCTS, South Finegayan Housing and Northwest Field areas located 
directly in the municipality. With this there are several concerns that 
I will address.
    The increase of vehicle traffic throughout the island on the major 
roadways is definitely a concern by all motorists. The daily morning 
and afternoon commute to and from work for most residents is on Marine 
Corps Drive from Naval Station to Andersen Air Force Base. Alternative 
routes must be designated to alleviate this traffic congestion on our 
islands roadways. The Department of Public Works is working with the 
federal government to use federal highway funding to open other routes 
to address this traffic problem.
    The utility services provided to current residents are being 
upgraded to better serve our growing communities. Will the increase of 
military personnel use the existing utility services provided by the 
Government of Guam or will they be dependent on the services now 
provided by ComNavMar? I would like for the military to use the same 
utility services that we, the residents of Guam use daily in our homes.
    Exercises done by the Marines often take place in the Northwest 
Field, Andersen Air Force Base and Andersen South Housing areas. 
Residents in this northern area of our island are concern about the 
time of these exercises and if they will be disruptive during all hours 
of the day. The concerns are of the helicopters and jets flying over 
the residential areas in the late evening hours. I was part of a 
delegation that traveled to Okinawa in July 2006 to meet with local 
leaders to hear the concerns that they had in their communities. One 
thing that I was concern about was the noise from the helicopters and 
airplanes flying over the residential areas in the late hours of the 
night. Exercises such as this should be restricted and not be allowed 
between the hours of 10:00 p.m. and 6:00 a.m.
    The families that have access to return federal lands that have 
been developed by original land owners has been opened to regular 
traffic for several years. Will this access be closed to original 
landowners and businesses within the area? The area of concern is the 
Northwest Field area also known as Route 3A. Before the return of 
federal lands, there was a guarded sentry for landowners to request for 
access to their properties. The restriction of access to Route 3A 
should be allowed from 6:00 a.m. to 8:00 p.m.
    It is evident that we will also see an increase of foot traffic 
around all military bases. Would there be sidewalks constructed around 
all bases to assure the safety of all personnel, their families and 
others accessing these facilities? The concern is around the Naval 
Hospital and NCTS areas. The close proximity of areas such as schools, 
stores and recreational facilities will allow for more people to walk 
to and from places.
    As the President of the Mayors' Council of Guam, I welcome the 
Marines to our island community. I know that our island and our 
families will benefit tremendously with the investment that the 
military will make to Guam. I want to express my heartfelt appreciation 
to the Committee on Natural Resources for allowing me to testify on 
behalf of the people of our community.
                                 ______
                                 
    Mrs. Christensen. Now the Chair recognizes Mr. Sanchez for 
five minutes.

             STATEMENT OF SIMON SANCHEZ, CHAIRMAN, 
              CONSOLIDATED COMMISSION ON UTILITIES

    Mr. Sanchez. Chairwoman Christensen and Congresswoman 
Bordallo, Governor Camacho, Honorable Senators, and Mayors, and 
our other distinguished guests, and my dear people of Guam, 
I've had the honor to serve our people as a senator and now as 
Chairman of the Consolidated Commission on Utilities. The CCU 
is the elected governing board that oversees the operations of 
the Guam Power Authority and the Guam Waterworks Authority.
    GPA is the sole supplier of power on Guam for all civilian 
and military needs. GWA provides all the water and wastewater 
services to the civilian community and wastewater services to 
the Air Force and NCTAMS, Guam.
    Guam's planned military buildup will impact the lives of 
everyone who lives on Guam, both resident and military. It will 
test all of our abilities to plan, collaborate, and deliver.
    We all share a historic opportunity to improve the quality 
of life of all the loyal American citizens of Guam while 
positioning Guam to play a larger role in the defense of our 
country. Making Guam better will make our country better and 
safer. The recent change in National Defense Policy will bring 
an estimated $15 billion in military expansion to Guam.
    Guam today does not have the resources necessary to 
accommodate this expansion, nor should it be expected to. 
Initial estimates suggests $1-$2 billion will be needed for 
Guam to successfully absorb this military buildup. Japan has 
committed $6 billion for the expansion. DOD will ask you and 
the Congress to commit another $4 billion. So far, no one has 
committed any funding to the people of Guam.
    We have been told that none of the Japan or DOD funds may 
be available to Guam outside the gate. Yet the military buildup 
cannot become a new burden to Guam's current population.
    I recall the decision from another seminal change in our 
country's public policy, regarding racial segregation, that 
reminded us that ``separate is not equal.''
    It is our duty as Americans to ensure that the military 
expansion does not separate local and military residents. Our 
goal must be that the quality of life on Guam will improve for 
all the citizens and residents, regardless of whether they work 
or live in our villages or on base.
    I've provided the committee with more detailed discussions 
that identify almost $800 million in power and water projects 
which are impacted by the military expansion. Our position is 
simple. For an island of only 210 square miles, there should be 
single integrated infrastructure systems providing reliable, 
efficient services to all residents of Guam, civilian and 
military.
    GPA should continue to be the sole provider of power on 
Guam. We should maintain existing Federal law that requires the 
military to become a full customer of GPA and get out of the 
power business. GWA should provide water and wastewater 
services to the new Marine base, and eventually operate all the 
Navy systems, just as GPA took over the Navy power systems. 
Here's why: It will require less U.S. tax dollars to fund the 
incremental cost to improve and operate single integrated 
utility systems instead of building and maintaining separate 
ones.
    The funding needed to build and maintain a separate DOD 
power system to serve only 20 percent of the total island 
demand would be better spent on upgrading the entire 
transmission and distribution system benefiting both civilian 
and military ratepayers. GPA has the demonstrated ability to 
manage the entire system, relying on its own resources as well 
as using effective private partnerships to provide management 
and financing. As Guam grows, more customers paying for a 
single system will help keep rates more stable and affordable 
for all customers. Even today, Guam's power rates are lower 
than all of Hawaii. Separate power systems will only increase 
cost.
    GWA has successfully turned around as operating and 
financial performance, recently meeting U.S. EPA's Safe 
Drinking Water Standards and raising over $100 million for 
improvements. GWA also utilizes a private partnership to 
operate its wastewater system.
    Like GWA, DOD is investing hundreds of millions to rebuild 
its aging water and wastewater system. But GWA provides its 
services at nearly half the cost incurred by the Navy, thus 
providing an opportunity to eventually lower the cost of water 
for both civilian and military residents.
    GPA and GWA already are committing current ratepayer 
financial resources to upgrade existing infrastructure. The 
idea should be to leverage local, Federal, and Japan monies in 
shared investments to upgrade and expand the utility systems to 
serve Guam's future growth.
    When Japan originally agreed to accept the Marine base on 
Okinawa, it invested hundreds of millions to make sure its 
civilian community would also benefit. We should expect no less 
from our own country. America must step up and ensure that Guam 
receives funding for the impacts caused by the military 
buildup. When DOD stands before the Congress and ask for its $4 
billion, Guam's impact needs must be addressed at the same 
time. There should be no funds separately appropriated for DOD 
without also funding Guam's impact needs. Separate is not 
equal. Instead, let us unify our tremendous resources and 
abilities and goodwill to do what is good for Guam because it 
also will be good for our country.
    You will find a no more patriotic, loyal and deserving 
group of citizens than right here on Guam. The Americans of 
Guam have always shared in the sacrifices of our country. Right 
now, a Guamanian, a Chamorro, a resident of the Western 
Pacific, is defending our national interest and risking their 
lives throughout the world. The Americans of Guam must now also 
share in the new prosperity that our new defense responsibility 
protects.
    Si Yu'us Ma'ase.
    [The prepared statement of Mr. Sanchez follows:]

July 31, 2007

The Honorable Donna M. Christensen
Chairwoman
Subcommittee on Insular Affairs
Committee on Natural Resources
The United States House of Representatives
Washington, D.C. 20515

Chairwoman Christensen and Committee Members
Honorable Members of Congress

    Hafa Adai and welcome to Guam.
    I am Simon Sanchez, and I have had the honor to serve as Chairman 
of the Consolidated Commission on Utilities (CCU) since 2003. The CCU 
is the elected governing board that oversees the operations of the Guam 
Power Authority (GPA) and the Guam Waterworks Authority (GWA). GPA is 
the sole supplier of power on Guam for all civilian and military needs. 
GWA provides all the water and wastewater services to the civilian 
community and wastewater services to the Andersen Air Force Base.
    We are very happy to be discussing the impact of our country's 
planned military buildup right here on Guam where the impact will be 
felt in our homes, our villages and in the daily lives of everyone who 
lives on Guam, both resident and military.
    The many challenges facing our community will test all of our 
abilities to plan, collaborate and deliver the results and the vision 
we all share for an even better Guam and a safer country.
    We all share a historic opportunity to position Guam to play a 
larger role in the defense of our national interests while also 
improving the quality of life of all the loyal American citizens of 
Guam.
    It is yet another opportunity for Guam to proudly assume its new 
obligations to defend our national interests, a duty our people have 
performed with legendary honor and sacrifice. Even at this moment, a 
Guamanian American is risking his or her life in a battle zone with our 
other fellow Americans so that we can build a better Guam and a safer 
country for generations to come.
    It is yet another opportunity for Guam to move forward as a greater 
showcase of free enterprise and economic progress, located at America's 
doorstep to Asia. Guam's hard working and industrious people have 
withstood war, natural disasters, and economic uncertainties. Guam's 
economy, since it was destroyed in World War II, has always been tied 
to the changing interests of our country's defense policy. A strong and 
prosperous Guam has always resulted from a strong national defense 
policy.
    Guam is a special place. And this is a special time. We have a 
chance to do this right for the common good.
    There are those who do not support this military expansion and 
there are many unanswered questions.
    Our ultimate success will depend on how well we realize the 
opportunities we know are possible by not letting the many challenges 
divide nor conquer us.
    Our country recently forged a change in national policy that asks 
the good people of Guam to play an even larger role in the defense of 
our nation. An estimated $15 billion in military expansion, the largest 
move of military assets since World War II according to military 
officials, is slated to turn Guam into the ``spear'' for our country's 
defense in Asia.
    The concern of the people of Guam is that we don't get the 
``shaft'' while also becoming the spear.
    The relocation of Marines from Okinawa to Guam as well as the 
expansion of the existing Navy and Air Force presence will change Guam 
dramatically. It will add twenty five percent more people to Guam in 
the next six years, about 40,000 folks.
    Normally, this amount of population growth would take twenty years. 
Now we must accelerate all the projects and efforts that will be 
required to absorb this growth in a compressed six year timeline. 
Remember, of the 40,000 new residents, half are projected to live 
``outside the gate'' in the civilian community. The military expansion 
will not only affect Guam's military community. It will affect all the 
people of Guam for the foreseeable future.
    Guam today does not have the resources necessary to accommodate 
this level of military expansion nor should it be expected to. Initial 
estimates are between $1 billion to $2 billion will be needed for Guam 
to successfully absorb this military buildup in such a short time 
frame.
    Japan has committed funding to the base relocation to Guam. The 
Congress already has committed funding to upgrading and expanding 
existing military facilities on Guam. It is our understanding that the 
Department of Defense (DOD) will ask Congress to commit anther $4 
billion to be spent on Guam as part of the new bilateral defense 
agreement.
    So far, it seems there is money to be spent for military plans ON 
Guam but there has yet to be any money intended to be spent FOR the 
civilian community of Guam to be able to address the impacts and the 
requirements of the buildup.
    We have been told that none of the Japan or DOD funds may be 
available to Guam, or if it's available, it may only be used to improve 
infrastructure and services on base but not ``outside the gate''.
    We are working with DOD and other federal agencies to plan for this 
move and determine the best way to insure that everyone benefits. DOD 
officials have talked of supporting our requests for federal assistance 
while seeking their own funding.
    Today the people of Guam are speaking for themselves, asking you, 
the representatives of our country to stand with Guam and for Guam in 
order to serve and protect the interests of all Americans.
    All these collaborative efforts to support the military buildup 
will not work if benefits only accrue ``inside the gate''. For our 
country to win, all of Guam must win--and that means BOTH the resident 
people of Guam and our longstanding military partners.
    We are asking you to determine ways to fund the resulting impacts 
from the buildup on Guam's public services and infrastructure. And we 
will need that help sooner rather than later.
    I recall the words from another seminal change in our country's 
public policy, regarding racial segregation, that ``Separate is not 
Equal''. It is our duty as people of good will to insure that we have 
one community of Guam, which allows the benefits of being an American 
to flow equally to all Guam's residents, civilian and military, while 
still securing our national interests.
Power, Water and Wastewater Impacts and Challenges
    I've provided the committee with the summary reports from our power 
and water utilities that identify almost $800 million in projects which 
are impacted by the military expansion. This information is also being 
shared in even greater detail amongst the many interest groups working 
on the planning of this expansion, including frequent visitors from 
Japan who are performing their own due diligence.
    Our general position on these proposals is simple because they make 
the most sense for the people of Guam and the American taxpayers
    The Guam Power Authority should continue to be the sole provider of 
power services on Guam. We should continue federal policy established 
by U.S. Public Law 100-202 that the military should become a full 
customer of GPA and not a co-operator or competitor.
    The Guam Waterworks Authority should provide water and wastewater 
services to the new Marine base and eventually operate the Navy systems 
which are currently outsourced. Most importantly, the protection of the 
northern aquifer which supplies 70% of the water on Guam (including 
military populations) will require a united and well coordinated effort 
between GWA and the federal government to insure its permanent security 
and sustainability.
    We don't take these positions lightly. But we are convinced that 
the wisest, most economic and secure foundation for Guam's growth and 
the planned military expansion results from some of the following 
reasons:
    <bullet>  A single power grid as currently exists, with the 
appropriate upgrades at the correct time will insure the power system 
will grow with Guam in terms of capacity and reliability. For the 
military to build a whole new power system to serve its 20% of total 
island demand does not make economic sense. That same money would be 
better spent on upgrading the entire transmission and distribution 
system, benefiting all. GPA has identified about $150 million in 
projects that will upgrade and rebuild the island-wide transmission and 
distribution system to improve reliability.
    <bullet>  The need for significant additional power generating 
capacity is not needed until after the Marine base is opened and will 
require only incremental additions of capacity instead of the large 
amount of primary and redundant capacity that would be needed for an 
entirely separate DOD system.
    <bullet>  GPA has the demonstrated ability to manage the entire 
system, relying on its own resources as well as using private 
partnerships to provide management and financing. Today, all of GPA's 
generation utilizes some form of public-private partnership. GPA will 
use appropriate management and financing tools to improve service 
reliability cost effectively.
    <bullet>  As Guam grows, more customers paying for a single system 
will help keep rates more stable and affordable for civilian and 
military customers alike. Even today, Guam's power rates at $.18 per 
KWH, are lower than all of Hawaii..
    <bullet>  Like the Guam Waterworks Authority, the DOD is his 
investing hundreds of millions of dollars appropriated by Congress to 
rebuild and upgrade its aging water and wastewater facilities for the 
Navy and Air Force. GWA has successfully turned around its operating 
and financial performance and now offer its customers, quoting from 
U.S. EPA's 2005 report, ``the cleanest and safest water in decades''.
    <bullet>  Furthermore, investor confidence allowed GWA to raise its 
first $100 of an initial $250 million to rebuild its aging systems. GWA 
also utilizes a public private partnership to operate its wastewater 
system, just as the Navy outsources the operations of its water and 
wastewater operations. GWA also produces water at lower costs than the 
Navy, providing an opportunity to lower the cost of water for both DOD 
and Guam residents.
    <bullet>  The Marine base will be located a few miles from GWA's 
largest waste water plant in the north, which already serves the Air 
Force. Obviously, it would make more economic sense to have the 
military expansion provide the incremental cost to increase the 
existing plant's capacity to serve the Marines than to build a whole 
new plant. GWA is currently spending $9 million on a new outfall as 
well, a significant cost that can be avoided by DOD. These savings 
instead can be used to upgrade GWA's systems that will serve the 
increased demand from the population surge supporting the base 
relocation.
    <bullet>  The Northern Aquifer will require special attention since 
it is the shared supply for Guam residents and the Air Force, and 
probably the Marine base. Its long-term sustainability is therefore 
equally critical to the people of Guam and our defense interests. 
Pending U.S. EPA decisions will require a collaborative approach to 
insure Guam's primary water supply is always clean, safe and secure.
    <bullet>  Over the years, GWA and Navy water systems have 
crisscrossed Guam from north to south. There are opportunities to 
better share water resources to lower distribution costs by allowing 
GWA to serve Navy customers in some areas in exchange for Navy serving 
GWA customers in other areas.
    <bullet>  Both power and water utilities are committing ratepayer 
financial resources to funding future growth, albeit at a much slower 
pace than is envisioned by the Marine re-location. Both utilities plan 
to provide some of the financing to upgrade existing systems. The idea 
is to leverage both local and federal monies when shared investments 
serve mutual interests instead of separate ones.
    These are the most prominent of many good reasons to develop a 
single plan for Guam's power, water and wastewater systems to serve the 
military buildup and share benefits and costs.
Timing Requires Action Now
    Each passing day, the planning and funding for Guam's requirements 
from the buildup is becoming more and more critical as to whether we 
ultimately succeed or fail to get this right from the start.
    The military expansion will impact Guam long before a Marine base 
is opened. At least 15,000 workers are projected to be needed to build 
the base beginning in 2010. All these workers will live ``outside the 
gate'' in the civilian community. This means they will impact our 
roads, hospital, public safety and other public services, power, water 
and wastewater resources.
    These impacts are a direct result of the military buildup and 
require the federal government to contribute to pay for the impacts 
instead of forcing the cost of these impacts on the current residents 
of Guam. More importantly, monies can be used to mitigate short-term 
impacts and provide longer term support for Guam's growth.
    For example, it is estimated GWA will need to add up to sixteen 
wells to support this immediate growth with an additional 20 MGD. The 
cost of these wells should be borne by the expansion.
    Furthermore, the wells will remain after the construction surge and 
then can be used to support the permanent residential population that 
comes with the actual relocation. Remember, 20,000 new Guam residents 
are expected to live ``outside the gate''. Investing once in these 
upgrades serves both military and civilian growth needs caused by the 
expansion. These are the kinds of ``win-win'' plans that wisely fund 
and merge the dual goals of improving Guam and improving our national 
security.
    But if we don't build those wells now, we won't have enough water 
to support the surge in worker population needed to build the base.
    As we continue to develop the Guam master plan to handle the 
military expansion, hundreds of examples like this emerge. Many of our 
challenges have a corresponding opportunity that can better serve both 
Guam residents and DOD future interests.
    Guam will need professional and financial assistance NOW to make 
these opportunities realities, during construction and after the actual 
relocation of military expansion.
Investing the Federal Government's ``Fair Share'' in Guam is investing 
        in America's future
    As these projects get fleshed out, we will be able to better 
determine the direct impact of the military expansion. It is this 
direct impact that the people of Guam will look to the federal 
government to pay for its ``fair share'' for the impact that this 
change in national policy creates on Guam.
    When Japan originally agreed to accept the Marine base on Okinawa, 
it invested hundreds of millions in infrastructure in Okinawa to make 
sure its civilian community would also benefit. We should expect no 
less from our own country.
    Our country must invest in Guam for the good of the country.
    Had this magnitude of military buildup occurred in any of the fifty 
states, you know your good offices would be inundated with the same 
types of concerns and requests we echo today.
    Guam should not be treated any different than any other American 
community.
    But we will need leaders like you to provide the voice for the good 
and loyal people of Guam in the halls of the federal government where 
we do not have a direct voice.
    Our country, as represented by a President and Congress for whom we 
cannot vote, yet for which we sacrifice daily defending her freedoms 
and cherished institutions, must step up and represent the interests of 
the people of Guam by insuring Guam receives its fair share of the 
impact of the military buildup.
    We must unite as good Americans to get this right for Guam. You 
will find a no more patriotic, loyal and deserving group of citizens 
than here on Guam. Last month we celebrated our 63rd year of liberation 
from occupied forces in World War II. And who joined us to celebrate 
our freedom? The Marines and their marching band.
    The people of Guam have always welcomed our military neighbors. We 
appreciate all the hard work and sacrifice that occurs in the defense 
of our country because our families also pay the same steep price for 
freedom. When freedom rings on Guam, it rings throughout the island and 
its sound is as sweet or sorrowful inside and outside the gate.
    We have an opportunity of a lifetime to move Guam forward and 
protect our country. But we will need your help now more than ever to 
get it right for Guam.
    Thank you for your time and for your help.

Senseramente'

Simon A. Sanchez II
Chairman
                                 ______
                                 
    Mrs. Christensen. I thank the panel for their testimony.
    I'll recognize myself for questions.
    Governor Camacho, thank you for your testimony. And near 
the end you say that our people must be viewed as relevant and 
important stakeholders and equal partners. Do you feel that 
that's the case today?
    Governor Camacho. I recognize that as a territory, we are 
part of the United States of America, and bilateral discussions 
and agreements, decisions that have yet to be made are ongoing 
between DOD and the Government of Japan.
    But if I can just reflect on what Simon had mentioned, 
decisions that will be made, for example, with our utilities, I 
know that the Government of Japan, under the Special Project 
Entities, or SPEs, will be devoting a large amount of money, as 
mentioned $700 million specifically for water, power, 
wastewater, and other utility requirements.
    Decisions ought to be made with input from the Government 
of Guam, specifically the Commission on Utilities, in an 
integrated process, instead of just building specifically or 
directly within their fence line.
    We have an infrastructure in place right now, and I believe 
that, as Simon had mentioned, a shared investment that can be 
leveraged, and the shared investment between the Utilities of 
Guam or the Government of Guam, the Department of Defense, and 
the Government of Japan would be beneficial to all. It is in 
matters like that, that I believe would be where it explains 
how we are a part and should be relevant in those discussions. 
I believe that at this point, we have not been.
    Mrs. Christensen. So, in your discussions thus far with the 
military, and I suspect that you have not had discussions with 
the Japanese----
    Governor Camacho. No, we have not.
    Mrs. Christensen --with the military. Do you find that 
they're open to even discussing that possibility?
    Governor Camacho. Yes, I think that, right now, as 
mentioned, the master plan will not be finalized until July of 
2008. It is still in the initial planning stages and a lot of 
it will be impacted directly, of course, by the Environmental 
Impact Statements or studies that are going to be had.
    There is room for an inclusion now. And I believe that 
Major General Bice and others will be open, BJ Penn and others, 
will be open for inclusion.
    I tell you, I have every intention, as Governor of the 
Territory of Guam, to go and visit Japan myself. I received an 
invitation from the Governor of Okinawa to come and see for 
ourselves what has happened and learn from that experience. But 
we go there with good intentions, not to undermine the plans or 
initiatives of Department of Defense, but rather to learn from 
what happened in Okinawa as a community, and take those lessons 
back here, and engage DOD, and engage the Government of Japan; 
in fact, even asking them to consider that as they negotiate 
with DOD to include or ask input from the Government of Guam, 
because we are the recipient or host country, if you will, 
although we are part of the United States. And so I think 
inclusion at this stage is vitally important.
    Mrs. Christensen. Thank you.
    Senator, you mentioned a Brown University Study. You didn't 
elaborate on it in your testimony. Could you just tell us a 
little bit about it?
    And do you think that the University of Guam could--we 
talked with Deputy Assistant Secretary Cohen about technical 
assistance dollars. I would believe that your University of 
Guam, just like ours, would be eligible to receive technical 
assistance funds directly. Do you think it would be a 
worthwhile project for the University of Guam to undertake a 
similar study? And, I don't know what it was, but you 
referenced it, so I suspect that it has some relevance to this 
discussion.
    Senator Won Pat. Thank you very much for the question.
    Basically, the studies that are conducted are independent 
groups or universities, individual professors, who would do 
studies based on the military impact elsewhere. And based on 
what the EIS is going to do, we know that that's going to be 
conducted on behalf of the military, so therefore there is 
going to be some biases there.
    What I was emphasizing was that I would like to, yes, have 
the University of Guam or an independent nonpartisan group 
basically do a study on not only the impact after the 
military's been here but, more important, on what the 
government and the people are currently going through. So, we 
need to get an independent group, other than the ones tasked by 
either the Civilian Military Task Force or the joint committee.
    Governor Camacho. On that note, I would ask that, as you 
are well aware, I have established a Civilian Military Task 
Force, and we've done extensive discussions throughout the 
community, and I would ask that that be submitted for the 
record. Thank you.
    Mrs. Christensen. Without objection.
    Governor Camacho. Thank you.
    Mrs. Christensen. I now recognize Ms. Bordallo for her 
questions.
    Ms. Bordallo. Thank you very much, Madam Chairman, and I 
thank the witnesses for their testimonies.
    Governor, my question is for you. In your testimony you 
mentioned that, and I quote, ``I have pushed the Government of 
Guam to begin the process of directing capital improvements 
throughout our island.''
    Can you please elaborate on what projects you are pushing 
through on a local level that are associated with the military 
buildup, and also can you elaborate for us on the process you 
are using to prioritize local projects that can be completed to 
improve infrastructure before the Marines arrive in Guam?
    Governor Camacho. All right. Thank you very much. Thank you 
for that question, Congresswoman Bordallo.
    We, recognizing that the military buildup was coming and 
agreements were made, I pulled together the Commission on 
Utilities, which represents water and power and wastewater, 
Department of Public Works, which represents all our roadways, 
the Port Authority, the Airport Authority, every relevant 
agency that provides not only the infrastructure, but social 
services, such as police, the hospital, education. And we 
grouped together their existing master plans or whether it be a 
10-year or 20-year plan, and totaled up the combined impact in 
the areas that we anticipated the buildup to occur, which is up 
North and other developments in Andersen, and of course down in 
Naval Station.
    All told, we have come up with a tally of roughly about $1 
billion or $1.1 billion, combined. And these are, again, a 
summation of what we believe needs to be done over the next few 
years.
    What has, I guess, brought the sense of urgency now is the 
desired completion date of the military buildup by 2014, that 
will have an impact on the island also. And so it compresses 
the timeline for completion or at least the initiation of these 
projects that must occur.
    Word was made or--the testimony by Major General Bice, for 
example, on the Port Authority of Guam. Although they've had a 
master plan for many years, it has been stalled in initiatives 
even to purchase cranes. And now the urgency in getting them 
upgraded and equipped and trained to receive the input of goods 
that will flow through the port for the buildup has been 
greatly compressed. And so the need to basically deal with this 
is very, very urgent, and so it is in that light that I 
mentioned that.
    Ms. Bordallo. Thank you, Governor.
    I have another question. As you know, the Department of 
Defense has stated that the on-island capacity for construction 
spending is around $400 million a year, and I believe that we 
must fully utilize and develop our own workforce locally before 
relief is sought with foreign labor in the midst of this 
buildup. I'm very conscious of this particular aspect.
    So, can you elaborate on the programs in place and that are 
planned by the Government of Guam to train local citizens for 
the future construction and trade jobs that will inevitably 
arrive with the buildup?
    Governor Camacho. Well, I appreciate that, and I think it 
is a two-part answer.
    First of all, I had a discussion with the local contractors 
and Department of Labor last week, and it was about--actually, 
it was prior to their departure to Washington for this IGIA 
meeting. The local contractors, I believe, anticipate that the 
Government of Japan will form consortiums of their major 
construction firms with large U.S. corporations or construction 
companies.
    I have been witness to many visits to my office where they 
are beginning to form, either formally or informally, 
consortiums of different companies that will bring resources 
into Guam. They do feel though that, the local contractors feel 
that they will have an opportunity and that every single worker 
will probably get subcontracted work out to them.
    The ability for our Department of Labor, working with the 
existing programs right now to properly train the workers in 
the required timeline, I think it is going to be stressed. We 
do need to combine our efforts under Department of Labor, 
working with the Republic of Palau, with FSM, the Republic of 
the Marshalls, to find ways to properly train them.
    Right now, the construction industry has put together a 
training program and apprenticeship program, as you know, but 
the number of participants right now is quite low. So, there is 
going to be a need, we believe and they believe, to allow for 
imported labor. Again, to maximize the opportunities for our 
local people and train them, in addition to any other migrants 
that may come in from Micronesia, will be a big challenge, and 
I believe they can only handle so much. We don't know the exact 
number. So, there is going to be a definite need to bring 
laborers in from perhaps the Philippines.
    And I know that you're well aware of the restrictions we 
have and how can we work with the existing quotas and can there 
be some kind of--I guess, a waiver, as applied to the Territory 
of Guam, with a certain timeline, whether it'd be for a period 
of time until the buildup is completed or perhaps where 
construction would be maybe at a level of 250 million or less. 
At that point, at maybe a cut-off point.
    So you may establish timelines on when these waivers can be 
allowed for workers to come in. And I believe it is going to 
require very serious negotiations between governments, the 
Government of Guam, the United States Department of Labor, and 
whatever country that we negotiate to bring laborers in, be at 
the Philippines, where there are already trained and skilled 
laborers. But, we must not squander this opportunity though to 
train as many of our local people that are interested.
    And it also speaks to the regional approach that I believe 
we must undertake. At the meeting we had with the Pacific 
Island Leaders Conference in Washington, there was a strong 
desire by most of the Island leaders, not only in Micronesia, 
but Polynesia and even as far down as Melanesia, to join 
forces. The East-West Center that's based out in Honolulu has 
agreed that they can undertake a study to see how feasible this 
is, and see what we can do.
    We also have the help of the Office of Economic Adjustment 
right now, and consultants KPMG, that's being paid for by OEA 
money, which under DOD, to help us look at a broad scope of 
things and the big picture, incorporating labor and many other 
issues that are there.
    So, we are looking at every possible avenue. Thank you.
    Ms. Bordallo. Thank you, Governor. How many training 
programs are in effect? I know I've have run into about three 
or four of them.
    Governor Camacho. Yes, as mentioned, the contractors have 
their own--they've established apprenticeship programs, even 
within the Power Authority----
    Ms. Bordallo. GCC.
    Governor Camacho. GCC has also.
    Ms. Bordallo. Ship Repair Facility.
    Governor Camacho. Ship Repair Facility.
    I believe even Waterworks is eventually working on one.
    Mr. Sanchez. Already.
    Governor Camacho. Already.
    Ms. Bordallo. Very good.
    Governor Camacho. And we hope to expand this to the Public 
Works, where we can get skilled laborers. But, it is going to 
have come to another level. There simply is not enough going 
right now and, interestingly, not enough interest from our 
young able-bodied men and women that can go into this field of 
construction. There doesn't seem to be much of a local 
interest, and I think it is simply a matter of marketing and 
promoting----
    Ms. Bordallo. That's correct. That's correct.
    Governor Camacho --the opportunities that are there and 
available.
    Ms. Bordallo. Thank you very much, Governor.
    I do have other questions, but--another round, all right.
    Thank you, Madam Chair.
    Mrs. Christensen. Thank you. Thank you, Chairman Bordallo.
    Mayor Savares, there were recent exercises throughout the 
region, and some of it, of course, took place at Andersen Air 
Force Base. Did that raise any extra concerns that you--was 
anything that occurred during those exercises that may have 
raised some additional concerns?
    Ms. Savares. Not currently. As a matter of fact, in April, 
during the scoping meetings--there is always ongoing exercises 
with the helicopters in the Northwest Field area. And, of 
course, we were at the same time of the exercises, there was a 
function going on in the Agafa Gumas area, which is up past 
Pods (phonetic) junction, and I did ask the officials that were 
there, at the end of the day, ``Were you bothered by the 
noise?'' And they said, ``What noise?'' And I said, ``Well, you 
know, we have the helicopters flying overhead.'' And they did 
not realize it.
    But that was a concern in Okinawa. We went to the Fitama 
(phonetic) Overlook and, of course, the residential area was so 
close to the base that the exercises continued through late 
evenings.
    And I understand that there is an exercise right now with 
the ships in the area and the flights, of course, are--you have 
the jets flying over. It is not a concern right now, but of 
course with the buildup, it might be. That's why the concern 
that we saw in Okinawa, and we heard from their community 
leaders, is that between 10 p.m. and 6 a.m., the flights are 
still coming in, with the helicopters, the jets, and so we 
don't want that to happen here. And so, of course, that's why 
we are bringing it up.
    Mrs. Christensen. Thank you.
    Mr. Sanchez, in your testimony, you mentioned that you 
identified several hundred million dollars in projects for 
upgrading the transmission and the distributions system. Have 
you also identified any projects to help with energy efficiency 
and conservation, like renewable energy projects? And, do you 
think that that ought to be a part of the discussion as well, 
as you prepare? We understand your position very clearly on how 
the military buildup should go with regard to power, but what 
about renewable energy?
    Mr. Sanchez. It is probably our biggest focus for planning 
what the next base load should look like for Guam's growth, 
which includes the military expansion. We've had a lot of good 
informal discussions with DOD, and we are looking at maybe 60 
megawatts. You know, Guam has 550 megawatts now. We only used 
260 megawatts for peak demand. So, we have almost a 100 percent 
surplus capacity. Why? Because we can't run a plug to another 
grid in Hawaii or California. So, you also have to have 
redundancy.
    And that's why we talk about having two systems on a little 
island. It doesn't make sense. We are doing an integrated 
resource plans study now. R.W. Beck, who happens to also be the 
consulting engineering group for the Japan Bank that will be 
loaning the $6 billion, is doing the study for us. And we are 
looking at coal, nuclear, wind, OTEC.
    I think the biggest challenge that we are finding in the 
preliminary analysis is, given the magnitude of need for Guam, 
wind, OTEC, oceans, they're not efficient. They have a long way 
to go in terms of technology development to provide us 50, 60, 
100 megs worth of capacity.
    Coal is emerging as a possible choice. It is great once you 
build it, but it is three to five times the cost to build it 
initially. When we say $800 million, $300 million of it is for 
a large coal plant, if we go in that direction. It is more 
expensive to build, much less expensive to operate. Of course, 
you've got the algorithm side of the equation, about going into 
coal at all versus the need for affordable power here.
    So, we are looking into those things and, as General Bice 
had mentioned last week in D.C. and then again today, DOD and 
Japan are having some discussions about power, and I asked the 
same question last week in D.C. that I'll ask here in Mangilao, 
as the Governor said, when can the Guam Power Authority, who is 
the sole provider, when can we sit down? We have some ideas 
that we think can handle Guam futures growth with shared 
investments so we can keep rates lower.
    I think the other piece of a puzzle that we ask you to 
think about, DOD gets Congressional funding. There is no debt 
service on Congressional funding. They don't pay back on bank 
30 days later. And when we look at infrastructure, we are 
capital intensive businesses, and debt services becomes almost 
the biggest component, other than the oil piece of the puzzle. 
And we are hoping to take some of these monies that doesn't 
have to get paid back to jointly invest and upgrading team 
transmission and distribution to build the next capacity that 
moves us in the directions of diversification, away from oil, 
and put our heads together, because we think, again, for a 
little island, there's some real opportunities to leverage that 
money, but put it in the position where the people in Guam 
aren't stuck paying back debt service 30 days after we get the 
money.
    That's the challenge of using public-private partnerships 
in special purpose entities. They're going want to pay back the 
$700 million that General Bice has identified. Our question is, 
is that all to be paid back through rates, and/or can some of 
that be invested where we are constantly forcing the ratepayers 
of Guam, both current and new, including the military? You 
know, they pick up 20 percent of the tab, so their power bill 
is affected as well, and your future appropriations that you 
have to give to DOD to operate on Guam get affected.
    So, we see some real opportunities if we can get 
collaborating on this $700 million that may be available on 
these alternative energies, where they're going to put it, how 
is it going to be operated?
    We are happy to report one of our private partners is a 
Japanese power company. So, we are very comfortable and very 
familiar with working with SPEs, public-private partnerships, 
use at private financing. We've raised our own money. But those 
require immediate ratepayer repayment. And anything we can do 
to get some of that free Congressional money that DOD gets, 
without having to pay back debt service, helps the people in 
Guam afford this upgrade, and be able to better live their 
lives.
    Mrs. Christensen. Congresswoman Bordallo.
    Ms. Bordallo. Thank you, Madam Chair. I have a few more 
questions of Senator Won Pat.
    I'd like to address this to you, since you are the sole 
representative here from the Legislature. I hope you'll be able 
to answer it.
    How will the locally identified priorities by the executive 
branch with respect to the buildup be addressed by the Guam 
Legislature within the annual budget process, and are there any 
special considerations being given in terms of altering the 
budget process or reviewing such priorities on a separate 
track?
    Senator Won Pat. Thank you for that question.
    Being a former senator, of course, in the Legislature of 
Guam, you know, the Governor of Guam normally submits the 
budget for the executive branch. And they basically set the 
priorities in terms of the executive branch, and what we do 
would be then to reprioritize some of those requests.
    I believe that the Legislature needs to really look and 
change its thinking, of course, in how we prioritize our 
spending. I'll have to say, however, that with the low economic 
status of the island of Guam, we don't have that much money 
basically to earmark for specific projects, such as power or 
the utilities, much less the landfill that we need to close 
down.
    What this would actually mean for the Legislature would be 
to go out and take out bonds, and a majority of the senators 
right now are not in favor of mortgaging the future generations 
of Guam. That is the reason why our approach is to look to the 
Federal Government instead for assistance.
    Ms. Bordallo. So, rather than working with the executive 
branch when they set their priorities, you say they are not 
really cooperating or--is that what you're telling us?
    Senator Won Pat. No, they're--(Laughter).
    Of course--you really are putting me on the spot, aren't 
you?
    (Everybody laughs).
    I'm in the minority. OK?
    Ms. Bordallo. I know.
    Senator Won Pat. So----
    Ms. Bordallo. I don't think you heard me.
    I said, I hope you can answer this question since you're 
the sole representative----
    Senator Won Pat. Yes, I did.
    Ms. Bordallo --of the Legislature here this morning.
    Senator Won Pat. That's true. And even within--I'll be very 
honest, of course, even within the Republican Party, there's a 
rift, and I'm surely not going in there at all. I'll leave that 
up to them.
    Governor Camacho. I don't know of any rift.
    [Laughter.]
    Governor Camacho. We are having fun here.
    Ms. Bordallo. Thank you very much, Senator. You've been 
very brave here. But, thank you, thank you.
    Mayor, I have a question for you. Can you explain the ways 
in which the mayors are working together in preparing for the 
buildup? I know you've been very supportive all along and your 
village, your area of the island will be most affected.
    In what ways do the residents of Dededo today interact with 
their neighbors at NCTS and Andersen Air Force Base, and are 
there goodwill and sister village relationships? I know they've 
been going on for years, but I'd like to get your comments on 
that. How are the communities interacting as one, and in what 
areas do you think community relations can be improved?
    Ms. Savares. Currently, we have a very strong Sister 
Village Program with our military counterparts throughout the 
bases and the villages in the island, around the island.
    We, most recently of course with the preparation of the 
schools, a lot of the Sister squadrons did come out to assist 
with grass cutting and painting of several of the schools 
throughout the island.
    Mayor Lizama, this past Liberation, had one of his 
squadrons, his Sister squadron, participate with him in the 
village float competition, and they had one of their small 
model aircrafts on it, and they won first place on the village 
floats.
    So, of course, the community ties with the squadrons and 
our Sister Village Program continues, and they continue to grow 
within the communities.
    Of course, the culture in the northern area, we are trying 
to build that back up. We are currently working this past 
summer, Yigo and Dededo worked together with Paa Taotaotano to 
get our kids, and our members of our community, to interact 
culturally with learning how to weave, so that when we interact 
with our military Sister Village Programs, we can teach our 
people also, or our counterparts, how to weave, chant.
    We had a presentation at the mall last week and, as part of 
Mayor Lizama's program, he had 13 Andersen Air Force Base 
children participate in his summer program. They were chanting 
and dancing the Chamorro chants and they were also weaving.
    So, the interaction as far as keeping, preserving our 
culture, northern area of Dededo, Yigo are currently trying to 
emphasize on a stronger bond with it, and then also share it 
with our community, Sister Village Programs, and then the 
interaction with them coming off base to actually assist us 
with current projects that we are working on.
    Like I said, the preparation of the schools, that will 
continue.
    Ms. Bordallo. A quick follow up, Mayor.
    Ms. Savares. Yes.
    Ms. Bordallo. Would you then say now, you've commented on 
the northern part, but would you say overall the village, 
mayors----
    Ms. Savares. Yes. Merizo still has a very strong bond with 
their sister squadron, which is the Coast Guard, and the same 
with the other villages. Inarajan constantly every month does 
something. So, the villages, the mayors are very aggressive 
with their sister squadrons.
    Sometimes it depends on the Commander. They have a change 
in commanding officers, and the new commander may not be as 
aggressive as the one in the past. But the members still come 
out. I know, in my Municipal Planning Council, I have honorary 
members who are from, one from NCTS and one from Andersen.
    Ms. Bordallo. Very good, Mayor. I know this program has 
been exceedingly fruitful over the years. I've known it for 
years and it has been very, very successful.
    I have a couple of questions for Mr. Sanchez. Do you--
(pauses).
    All right. So, I yield back then to the Chairman.
    Mrs. Christensen. Thank you.
    Let's see. Governor--this question basically is for both 
Governor Camacho and Mr. Sanchez. Let me see if I can kind of 
put it together.
    And, Governor, you say we cannot be expected to cover 
unfounded mandates or other substantial requirements of this 
military expansion. And I wanted to talk about critical 
infrastructure and whether you've identified critical 
infrastructure. It would seem to me that some of them, and 
we've already talked about the utility, that's a critical 
infrastructure, not only for you, but for DOD, and it seems to 
me that there should be some cost sharing involved there, as 
you've said.
    What are some of those critical infrastructure? What would 
be the top 3 that you would see that you would not be expected 
to cover as unfunded mandates, but that you would require 
substantial military assistance with?
    Governor Camacho. Well, I think definitely if you look down 
at Andersen and Naval Station, their capacity right now for 
their landfills is close to being exhausted. They're going to 
need, along with the military base that will be established for 
the Marines, a place to dispose of their waste.
    The need and first of all the consent decree that we have 
agreed to as a government to shut down our current landfill, 
which has been in existence for close to 60 years or more, is 
very, very critical right now with certain timelines that had 
been established, that have come and gone and penalties that 
are a result.
    I'll have to share with you what is difficult for us right 
now is getting a clear direction. As an executive branch, we 
are being pulled in different directions, demands by Federal 
U.S. EPA to shut down and establish a landfill and then of 
course position of several senators that it shall not be downed 
at the location that we sited down in Dandan, because they 
don't want that to be impacting the community, and concerns 
about some ground water and possible pollution in that area. An 
existing law that requires and demands that we have an 
incinerator in another area of the south toward Agat/Santa Rita 
called Guatali, with terms and conditions that are not 
acceptable to the government.
    And so, we are really caught in the middle, as there is no 
real clear policy decision. On the one hand, we must proceed as 
U.S. EPA demands and continue with the studies; the same time 
there are lawsuits that have been appealed and have been 
overturned in our local courts and our Guam Supreme Court on 
that very incinerator. So, where we end up and how this puzzle 
will be solved that certainly one that must be addressed.
    The other requirement of course I think is public safety. 
Right now our police officers are, I believe, 300 men short of 
what would be required of a community of this size. And when 
you factor in the growth of perhaps 17 to 20,000 additional 
military personnel in a few short years, the requirement for 
public safety, just in police alone, is tremendous.
    And I think third, although we are addressing schools, and 
DODEA has their schools, that is a sub-requirement.
    The third one I think that we must be concerned about would 
be healthcare. We have a community of course that is close to 
170,000 people now. You throw an additional 10 to 15,000 
workers with no clear terms and conditions on the care for 
them. If someone gets sick and ill and injured, who takes care 
of them? Is there an insurance policy that would be provided by 
the employers, or do they simply come into our public health or 
hospital and have an impact upon our ability to pay for them?
    We currently spend between, although it is appropriate at 
$17 million, we are spending close to $28 million on healthcare 
for our poor and indigent who have no insurance whatsoever. So, 
there will be a further burden on our healthcare system.
    Those are the three other areas other than infrastructure 
that I think we must be concerned about.
    Mrs. Christensen. OK, and thank you, Governor.
    And Mr. Sanchez, on May 17th, the Department of Homeland 
Security released its sector specific plan for critical 
infrastructure, which includes the industries represented by 
CCU. Were you given an opportunity to participate in the 
consultation process of the sectors specific plans? Have you 
had any assessment of critical infrastructure that you had an 
ability to input?
    Mr. Sanchez. To be honest with you Congresswoman, I wasn't 
involved. That doesn't mean my management team wasn't. It is 
the first I've heard of----
    Mrs. Christensen. You don't know that an assessment team 
came in to----
    Mr. Sanchez. And that we are----
    Mrs. Christensen --develop a critical----
    Mr. Sanchez --specifically engaged with the power, the 
water authority.
    So, I'd love to see it, and again this is----
    Mrs. Christensen. So, you haven't seen it either?
    Mr. Sanchez --another example of--we can play a role and we 
have to play a role----
    Mrs. Christensen. Sure.
    Mr. Sanchez --and engage in here.
    I just want to add to what Congressman, I mean, Governor 
Camacho had mentioned. You know, you asked about our critical 
priorities. We've mentioned transmission and distribution. If 
we could get some money invested into that, it would allow us 
to grow the system for--(pauses; phone rings)--that's 
telephones.
    I don't do that.
    It would allow us to grow the system, not just for the 
current growth, but for the expected Marine growth.
    We see the construction phase of the Marine base, there's 
16 wells we will need to drill in Dededo, next to Mayor 
Savares' village, because that's where the bulk of the 
construction workers are probably going to live; either there 
or down in Agat and Santa Rita. Again, an opportunity.
    If we then get some of the $700 million or some 
Congressional money, or some of the money supposedly floating 
around to build the wells for the construction phase, when 
those 15,000 construction workers leave and 20,000 citizens 
move in to staff and work on base, those wells remain, and 
there's another good win-win example of investing money now for 
the construction phase and taking advantage of these wells that 
are going to remain existing and let that use to future growth.
    So, from the water side, there's that, and you need to be 
aware, U.S. EPA has already sent some testimony in, there's a 
growing--there's a problem--there's a potential problem with 
the Guam aquifer. Right now, it provides 70 percent of the 
water on Guam. It has the ability to generate 80 million 
gallons a day, and we are only using 30 million gallons a day. 
So, there's room for growth.
    But U.S. EPA is studying whether the U.S.--whether the 
aquifer needs to be treated like surface water. And when you 
treat it like surface water, you have to have a Surface Water 
Treatment plan. GWA has one in Yona and Talofofo called the 
Ugam Treatment Plant, and the Navy uses one at Fena. Well, the 
Air Force drills its own wells and gets its own water out of 
that aquifer. Of course, we don't want the Marines to drill 
their own wells, we want then to get it from us. But at the end 
of the day, we are all drawing from that same big source of 
water, you know, different straws in the water, and the private 
sector also has some private wells.
    We are concerned from a security standpoint, that if we 
don't think about that aquifer as a single resource that has to 
be protected from terrorism, from adverse impacts, depending on 
how this expected EPA decision is going to come down, and we 
expect within the next 18 months, we are not going to be able 
to put--we have a hundred wells, we are not going to be able to 
put a hundred treatment plants up.
    They're going to have 4, 6, 10 to 12 wells. In fact, the 
Navy already has 16 wells now. They can't put a treatment plant 
in all of those.
    So, we are looking at the concept of single wells 
supporting, drawing from the aquifer, supporting all the 
costumer needs and secure it and protect it in a way that they 
can never be at--we can never put that aquifer at risk. That 
aquifer has to get protected and conversations with DOD and our 
community, we need to get engaged on that right away.
    Governor Camacho. And, Madam Chair, may I just interrupt 
for a second?
    I also wanted to add, as you asked, what were the 
priorities. I failed to mention----
    Mrs. Christensen. It is hard to----
    Governor Camacho. Yeah.
    Mrs. Christensen --to end the list.
    Governor Camacho. But the one key, I think, is the Port 
Authority of Guam, our seaport, which I believe is one of the 
single most important facilities right now that must be 
upgraded. That's the choke point. That is a single entry point 
for roughly 90 percent of all goods coming into Guam. Its 
capacity right now to handle the goods flowing is already 
strained because of a lack of cranes that are old and decrepit 
and need to be replaced, and they've been boggle down with a 
very cumbersome procurement system in protest that have 
occurred.
    But beyond that, our capacity to handle the additional 
goods coming in for the buildup in ships is the single most 
important issue, I think, because if that is not functioning, 
and not capable of handling the flow of goods coming in, it 
will certainly slow down the buildup here.
    In addition to that----
    Mrs. Christensen. So, that's critical----
    Governor Camacho. I'm sorry?
    Mrs. Christensen --critical infrastructure for you and for 
the Department of Defense, and therefore should be a shared----
    Governor Camacho. Absolutely.
    Mrs. Christensen --responsibility.
    Governor Camacho. Very, very critical.
    Thank you.
    Mrs. Christensen. Thank you.
    For the last set of questions for this panel, Ms. Bordallo.
    Ms. Bordallo. Thank you. Thank you, Madam Chair.
    Mr. Sanchez, I have a couple of questions for you.
    Mr. Sanchez. Are these the easy ones I gave you before the 
weekend?
    Ms. Bordallo. They're easy. They're easy.
    Mr. Sanchez. OK.
    Ms. Bordallo. In your testimony, you remind us the Navy and 
the Guam Waterworks water systems crisscross at certain points 
on the island and the sharing agreements may be possible. Could 
you elaborate on how the sharing agreements could be structured 
and whether there is a precedent for such agreements, and has 
this issue and proposal been raised directly with the Navy and 
the joint Guam Program Office? And if so, what has the general 
reaction been?
    Mr. Sanchez. OK. You know, right now, the Navy pumps water 
from Fena down south all the way up north to NCTAMS, and we 
pump water from the north down to the south to make sure----
    Ms. Bordallo. I know. Yes.
    Mr. Sanchez --Agat, Santa Rita, and the south have water. 
There's a perfect example of--you have two separate systems, 
engineered differently.
    We used to connect at about 35 places; the Navy is cutting 
it back to about 20, because they're trying to get their act 
together. They have major water and wastewater challenges just 
like GWA.
    As you know, the MILCON budgets are appropriating over a 
$150 million for them to fix Fena and their wastewater. So, 
here we have two systems trying to recover within feet and 
miles of each other, and we are not spending the money 
together.
    We think that, if we can move to integration, and you ask 
for an example. Before, the Guam Airport and the Guam Power 
Authority were jointly operated between the military and the 
civilian community and now, the airport is run by the people of 
Guam, the Guam Power Authority runs the entire system. So if 
you're looking for models that would work for water, it is 
indeed to move the Navy into a costumer position with the Guam 
Waterworks Authority, allow the Guam Waterworks Authority to 
run the entire system, just the way the airport is run by the 
civilian community, just the way the power company is run by 
the civilian community, and then it will be incumbent upon us 
to meet the standards, meet the performance standards. We've 
done it at GPA; we've done it at the airport.
    So, there's existing Federal models. It is Public Law 100-
202, that was passed by the Congress and basically giving back 
the property, the power assets of the Navy and transferring 
them to Guam Power Authority. So, there already exist scenarios 
in Federal law in which essentially the military, as General 
Bice--and I believe he's sincere, they don't really want to be 
in the power, water, port business. They want to be a customer. 
But they're concerned about our ability to deliver high quality 
service. And yet, we believe and we are confident that we can 
achieve that level, if we get a single integrated system.
    We are about to be informed of 100 percent rate increase by 
the Navy for the water we buy from Fena, and it is going to put 
it up to $4.00 per thousand gallons. I politely asked our Navy 
colleagues and said, if you guys, you know--we produce water 
for $2.80 per thousand gallons, and we pay debt service. They 
don't pay debt service on their capital investments. If it 
costs them $4.00 per thousand gallons to run their system and 
we can run it for $2.50, we can save money, then give it to us, 
we will run it for less, we will save them money, and we will 
reintegrate the entire water system.
    When I asked the Navy, ``Why does it cost so much at $4.00 
per thousand gallons,'' they said, Economies of scale. And 
immediately my light went on, I said, Well, you suffer from 
economies of scale, because you're so small and you're running 
this little system. We benefit from economies of scale, that's 
why we are cheaper because we run a much bigger system.
    Isn't it time to begin to marry these infrastructure 
systems? In fact, it is the perfect time to marry these 
infrastructure systems, and return and make the Navy and the 
military a customer of Guam Waterworks Authority. We will take 
over the system. If we have to use public-private partnerships 
or SBEs to do that, we already used that tool as a management 
tool for financing and management. We are not afraid to do the 
right thing to provide service to our people.
    Ms. Bordallo. And I'm----
    Mr. Sanchez. But this is the perfect time to merge them.
    Ms. Bordallo. I'm sure you've made the proposal of this 
joint sharing system----
    Mr. Sanchez. Well, no--no, not yet.
    Ms. Bordallo --but how are they reacting?
    Mr. Sanchez. Well, I think that's part of the problem.
    I mean, General Bice, we've had some informal 
conversations. There's lots of meetings. We have technicians 
coming in. I think there's an effort and a desire to engage. 
But at the end of the day, we really haven't had formal 
meetings.
    I mean, one thing I'd love the committee to look at is, if 
there is $720 million that may be available from Japan's $6 
billion, can we start having those conversations?
    The Port--you know, I told General Bice, you take $700 
million and you divide it by power, water, port, and landfill, 
and you will go a long way toward solving all of those problems 
for everybody. OK?
    And so, we'd love to start having engaged conversations, 
specific ones. Because, the Japanese have visited us and one of 
things they point out is--you know, and take it with a grain of 
salt, I don't want to say they're all representing. But they're 
saying they're being told by the DOD some of the parameters. 
And my concern is, are there alternative parameters that are 
not being presented to Japan that they might say, You know, 
that's a better way to do it and it is more cost-effective.
    We need a place at the table. I think that's what the 
Governor is calling for. We need a place at the table with 
these monies now if they want us to be ready.
    Ms. Bordallo. Thank you.
    Governor?
    Governor Camacho. Yeah, Congresswoman Bordallo, that's what 
I spoke to as I mentioned that we as a government ought to be--
we are relevant and credible stakeholders in this entire 
process.
    And although it is a bilateral agreement on the specific 
discussions, such as infrastructure, that's where it has got to 
be a triparty-type of discussion, where input can be taken from 
our Commission on Utilities.
    And I think it only lends to a better understanding of the 
overall possibilities, as they form their business models on 
how they would fund this out of the $720 million. Input from 
the CCU on specific utility upgrades and options would be very 
beneficial to the final decision on what business model they 
will adopt.
    Thank you.
    Ms. Bordallo. So, in general then just quickly, what I'm 
getting, the reaction I'm getting here is that, they are not 
really that acceptable to this idea or they're what?
    Mr. Sanchez. No, I won't say that.
    Ms. Bordallo. No?
    Mr. Sanchez. I mean, they say they want to collaborate.
    Last week in Washington, D.C., General Bice said, Simon, 
don't worry you will be involved with this business plan. And 
I'm taking that at face value.
    Ms. Bordallo. Good.
    Mr. Sanchez. But every day that goes by, I worry about the 
port and the landfill almost more than I worry about power and 
water at this point. We have a little time, not much. But 
let's--but we----
    Ms. Bordallo. Well, if something else, we will monitor.
    Mr. Sanchez --we can play a role. You can't build the 
business plan for Guam when Guam is not at the table.
    Ms. Bordallo. Very good.
    Thank you very much. Thank you, Madam Chair.
    Mrs. Christensen. Thank you, Governor. Thank you, Senator, 
Mayor, Mr. Sanchez. Thank you for your testimony and for your 
responses to the questions that we asked.
    And, this panel is now dismissed with our gratitude.
    Mrs. Christensen. We'd like to call up our third and last 
panel of witnesses, The Honorable Hope Cristobal, former 
Senator of the Legislature of Guam; Mr. Benny P. San Nicolas, 
Chairman of the Southern District of the Guam Soil and Water 
Conservation; Mr. Stephen Ruder, Chairman of the Guam Chamber 
of Commerce; Ms. Trina Leberer, Marine Conservation Coordinator 
of the Nature Conservancy, Micronesia Program; and Mr. John 
Robertson, Chairman of the Government Military and Labor 
Affairs Committee of the Guam Contractors Association.
    The Chair now recognizes Senator Cristobal to testify for 
five minutes.

          STATEMENT OF THE HONORABLE HOPE CRISTOBAL, 
                FORMER SENATOR, GUAM LEGISLATURE

    Ms. Cristobal. Hafa Adai, Chairwoman Donna Christensen and 
members of the Subcommittee on Insular Affairs, Si Yu'us Ma'ase 
for this opportunity to be heard.
    I am Hope A. Cristobal, an indigenous Chamorro, former 
senator, retired school administrator, and probably the token 
general on public today, totally unbudgeted. I appear before 
you on behalf of the Guahan Coalition for Peace and Justice as 
a member representative of Fuetsan Famalaoan.
    The Coalition for the Protection of Ancient Cemeteries, 
OPR, and the Chamorro Studies Association--it has been some 30 
years since a Congressional hearing was held on Guam. As a 
witness, I feel that the limitations and restrictive list of 
today's hearing are examples of what Congress thinks of its 
subject people.
    You owe us no allegiance nor time, and our people's voice 
really do not count, although I would remind you that 
unilateral decisions about our lives and our homeland 
perpetuate the historical denial of our human rights. This 
hearing is a reminder of the inconsistencies between the 
principles and the practices of democracy in a U.S. 21st 
Century colony.
    Madam Chairwoman, Guam remains a colony of the United 
States today. It is a non-self-governing territory under 
international standards and an unincorporated territory within 
the framework of the U.S. Constitution.
    While suffering the indignities of labels, such as 
possession, property and colony, we bear the brunt of 
restrictive interpretations in the application of Federal 
statutes, rules and regulation, by U.S. representatives with an 
eye toward maintaining the status quo, in the process 
diminishing Congress' authority and responsibility to provide 
for the civil rights and political status of the native 
inhabitants of Guam under the guidance of the U.S. 
Constitution, the Treaty of Peace and the U.N. Charter.
    Just three days ago, a Pentagon spokesman referenced Guam 
as a U.S. asset in the Valiant Shield war games. And yes, Madam 
Chair, just to digress quickly, our community was affected, 
windows were shaking, planes flying low over our homes. I live 
near Tumon, residents there were scared, the tourists were 
scared, local residents of the elderly Guma Tranquilidad, who 
had survived World War II, were scared.
    A 1945 secret memo as well revealed the U.S.'s real 
intention for Guam of military control for its military value. 
There is no question that U.S. Military interests take 
precedence over our people's interest, and that the status quo, 
the status of dispossession, is directly related to the issue 
of the Pentagons planned militarization of our homelands.
    First, Guam is taken as a colony during the Spanish-
American war for its U.S. Military and strategic value.
    Second, Guam's resultant status is that of a colony or as 
determined in the insular cases of 1901 to 1922, a possession 
of, but not a part of, the United States.
    Third, Guam's value was again misunderstood during and 
after World War II, when vast amounts of land were taken and 
decisions about disposition were made unilaterally in the 
Organic Act of 1950.
    Fourth, Guam status under the U.N. Charter is that of non-
self-governing territory or colony.
    Fifth, nothing has been done by Congress or otherwise to 
change Guam's fundamental colonial status.
    The Organic Act of 1950 reaffirms Guam's status as a 
possession, and Guam remains a non-self-governing territory 
under the U.N.
    Sixth, current discussions about how Guam would be used by 
the U.S. Military are discussions within a decision. The 
decision to use Guam is not one made in Guam or by Guam, but by 
those who possess Guam and its people. Neocolonialist policies 
and the deliberate and careful undermining of an unincorporated 
Guam have allowed the use of our lands for military delivery 
systems, storage for nuclear weapons, home porting of nuclear 
warships and space warfare technologies.
    The militarization of the Pacific and our homeland has had 
devastating, often unmitigable, effects on the health and 
welfare of our people. We have high rates of cancer, Madam 
Chair, just as a point of information on cancers alone. On 
nasopharyngeal alone, Guam has a rate of 1,995 times more 
cancer than the standard population of the United States. In a 
study by Hadac and Navao (phonetic) on incidences of cancer, 
the two villages with the highest cancer deaths are Santa Rita 
and Yigo; the two closest to military bases.
    With all due respect, Madam Chair, the people of Guam also 
need to be heard by actual voting representatives who sit on 
the Armed Forces Committee. An investigation of the Pentagon's 
buildup plan having two EISs--one for Andersen for the ISR/
Strike capability, and another for the Navy--is in order.
    Further, we reiterate the need for a holistic EIS with the 
requisite Socio-cultural Impact Assessment, subsequent and 
cumulative impacts, impacts from connected actions, timely 
public disclosure and public alerts about depleted uranium and 
nuclear weapons in the EEZ and coastal waters, and one that 
ensures objective environmental information with a genuine no 
action alternative. Unless, of course, the military buildup is 
a foregone conclusion. We are very, very worried about the 
depleted uranium and live fire training on Guam.
    The impact of thousands of new residents and military 
assets within the context of a colonial relationship is self-
evident in a small island community. The dilutive effects on 
our right to self-determination is a very deep concern. 
Furthermore, the influx of new residents is in contravention to 
relevant U.N. resolutions on decolonization and the U.S.'s 
obligations as Guam's administering power.
    In the UN's plan of action of January 2006 for the second 
decade, for the eradication of colonialism, it is stated that 
administering powers should refrain from using non-self-
governing territories for military bases and installations. We, 
unequivocally, object to our people being excluded in the 
Federal Government's deliberations relating to this buildup, 
and we ask that a separate process be engaged for the colonized 
people of Guam to make an informed and an explicit decision 
about whether or not we want this military buildup.
    It is vital that decisions related to the U.S. Military's 
plan be framed within the context of a dependent people living 
within a non-self-governing territory that is struggling to 
protect our inalienable right of self-determination, and to 
preserve our national identity. This must be the guiding 
principle of decisions by the U.S. Congress relative to Guam; 
my people deserve nothing less.
    In closing, I leave you with an old Chamorro Proverb 
[Chamorro language]. ``Greater is the fault of he who allows 
the injustice upon himself.''
    Thank you, Madam Chair.
    Mrs. Christensen. Thank you, Senator.
    [The prepared statement of Ms. Cristobal follows:]

             Statement of The Honorable Hope A. Cristobal, 
                    Former Senator, Guam Legislature

    Buenas dias Chairwoman Donna Christensen and Members of the 
Subcommittee on Insular Affairs:
    Si Yu'us ma'ase for this opportunity to be heard. I am Hope A. 
Cristobal former Senator, retired school administrator and community 
activist on issues related to the Chamorro people. I have been an 
adjunct professor at UOG teaching History of Guam. I appear before you 
today on behalf of the Guahan Coalition for Peace and Justice as a 
member representative of Fuetsan Famalao'an (2006), the Coalition for 
the Protection of Ancient Cemeteries (2007), OPI-R (the Organization of 
People for Indigenous Rights) (1981), and The Chamorro Studies 
Association (1987). I am a Chamorro wife, mother, and grandmother; I 
have lived most all my life on Guam. As of late, I have been working to 
save pre-colonial and colonial Chamorro burials, cemeteries and sacred 
grounds.
    It has been over 30 years since a congressional hearing has been 
held on Guam. As a witness, I feel that the limitations and restrictive 
list of today's hearing is another example of what Congress thinks of 
its subject people; you owe us no allegiance nor time and our people's 
voice really do not count. Although I would remind you, that unilateral 
decisions about our lives and our homeland perpetuate the historical 
denial of our human rights. This hearing is a reminder of the 
inconsistencies between the principles and the practices of democracy 
in a U.S. 21st Century colony.
    Madam Chairwoman, Guam remains a colony of the United States today. 
It is a non self-governing territory by international standards and an 
unincorporated territory within the framework of the U.S. Constitution.
    While suffering the indignities of labels such as: a 
``possession'', ``property'' or ``colony'', we bear the brunt of 
restrictive interpretations in the application of federal statutes, 
rules and regulations by U.S. representatives with an eye towards 
maintaining the status quo; in the process, diminishing Congress' 
authority and responsibility to provide for the ``civil rights and 
political status of the native inhabitants'' of Guam under the guidance 
of the U.S. Constitution, the Treaty of Peace (1899) and the UN 
Charter.
    Just three days ago, a Pentagon spokesman referenced Guam as ``U.S. 
asset'' with respect to an encounter with Russian bombers in the 
Valiant Shield war games. Recently, Vice President Cheney openly 
commented on the fact of the troops being here in Guam so that they 
won't have to fight a war in the streets of America.
    A 1945 secret memo (dtd 11/21/45 by Vice Adm. G.D. Murray Commander 
of the Marianas Navy Force) reveals the US's real intention for Guam 
which is military control for its military value. The 3-page memo 
recommended the Navy's control of Guam and other western Pacific 
islands.
    There is no question that U.S. military interests take precedence 
over our people's interests and that the status quo, better described 
as a status of dispossession, is directly related to the issue of the 
Pentagon's planned militarization of our homelands.
    1st: Guam is taken as a colony during the Spanish-American War for 
its U.S. military and strategic value.
    2nd: Guam's resultant status is that of a colony, or as determined 
in the Insular Cases (1901-22), ``a possession of but not a part of the 
U.S.''
    3rd: Guam's value is again misunderstood during/after WWII when 
vast amounts of land were taken and decisions about disposition were 
made unilaterally (Organic Act of 1950.)
    4th: Guam's status under the U.N. Charter is that of Non Self-
Governing Territory or colony.
    5th: Nothing has been done by Congress or otherwise, to change 
Guam's fundamental colonial status. The Organic Act of 1950 reaffirmed 
Guam's status as a possession and Guam remains a Non Self-Governing 
Territory under the U.N.
    6th: Current discussions about how Guam would be used by the U.S. 
military are discussions within a decision; the decision to use Guam is 
not one made in Guam or by Guam but by those who possess Guam and its 
people.
    Neocolonialist policies and the deliberate and careful undermining 
of an unincorporated Guam has allowed the use of our lands for military 
delivery systems, storage for nuclear weapons, home porting of nuclear 
war ships and space warfare technologies. The militarization of our 
homeland has had devastating effects on the health and welfare of our 
people.
    With all due respect to you as a Member of Congress, Madam Chair, 
the people of Guam also need to be heard by actual voting 
representatives who sit on the Armed Forces Committee. An investigation 
of the Pentagon's build-up plan having an EIS for the ISR/Strike 
capability at Andersen AFB and another EIS by the Navy is in order. 
Further, we reiterate the need for a holistic EIS with requisite 
social-cultural impact assessment, subsequent and cumulative impacts, 
impacts from connected actions, timely public disclosure/public alerts 
about depleted uranium and nuclear weapons in the EEZ and coastal 
waters and one that ensures objective environmental information with a 
genuine ``No Action Alternative''.
    The impact of thousands of new residents and military assets within 
the context of a colonial relationship is self evident in a small 
island society. Furthermore, this influx is in contravention to 
relevant UN resolutions on decolonization and the US's obligations as 
Guam's administering Power. UN Plan of Action A/RES/60/120 (1/18/2006 
Sec V.18) states that ``administering Powers should refrain from using 
NSGTs for military bases and installations.''
    We unequivocally object to our people being excluded in the federal 
government's deliberations relating to this build-up and we ask that a 
separate process be engaged for the colonized people of Guam to make an 
informed and explicit decision about whether or not they want this 
military build-up.
    It is vital that decisions related to the U.S. military's plan be 
framed from the point of view of a dependent people living within a 
non-self-governing territory that is struggling to protect our 
inalienable right of self-determination and preserve our national 
identity. This must be the guiding principle of major decisions by the 
U.S. Congress relative to Guam. My people deserve nothing less.
    In closing, I leave you with an old Chamorro proverb: Isaona i 
tumungo' ya ha sedi, ki ayo i mismo umisagui hao. Greater is the fault 
of he who allows the injustice upon himself.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Mr. San Nicolas 
for five minutes.

         STATEMENT OF BENNY P. SAN NICOLAS, CHAIRMAN, 
            GUAM SOIL & WATER CONSERVATION DISTRICTS

    Mr. San Nicolas. Thank you.
    Good morning, Honorable Congresswoman Madeleine Bordallo 
and Honorable Congresswoman Donna Christensen. I, too, similar 
to Senator Judi Won Pat, had to revise my written testimony 
several times, so please bear with me.
    On behalf of the Guam Soil and Water Conservation District, 
thank you for the opportunity to provide testimony on the 
significant issue of the U.S. Military buildup on Guam.
    As members of the Guam Soil and Water Conservation 
Districts, our main role is to protect and conserve the natural 
resources of our island. We deal primarily with farming-related 
issues and partner with such agencies as the U.S. Department of 
Agriculture, Natural Resources Conservation Service, Farm 
Service Agency, the University of Guam, and the Guam 
Environmental Protection Agency.
    There are several issues that are of primary concern to the 
districts with regards to the proposed military buildup here on 
Guam. Currently, they are infrastructure-related issues that 
must be addressed in order to provide a consistent and 
assessable supply of water to the island's farming community.
    Preliminary information that has been provided to the 
community indicates that the proposed buildup will be focused 
on northern Guam, which has the largest population of island 
residents. An assessment of the volume of water that is 
available, the proper management of the northern aquifer, and 
the distribution of our precious water resources for farmers 
and residents, is very crucial.
    The current water infrastructure limitations in northern 
Guam have limited the ability of the farmers to expand and 
consistently maintain crop operation. The Districts are 
recommending that the military and the local community 
prioritize the distribution infrastructure, water resource 
management and the accessibility to water.
    In Southern Guam, the issue is similar. The Districts are 
concerned about the military's increased demand for water use 
and its impact in southern residents and farmers. During dry 
seasons, we have experienced a decrease in the amount of water 
that is provided by the Navy to the local community.
    We are aware that the military prioritizes water use for 
its operations before water is distributed to island residents. 
However, this issue needs to be further examined and addressed 
to minimize adverse impacts on our local people, who are 
dependent on these essential water resources.
    To help alleviate this situation, we are recommending that 
the military partner with the Guam Soil and Water Conservation 
Districts to build more reservoirs in the southern villages. In 
the village of Inarajan, in the village of Merizo, and in the 
village of Umatac. The Districts are also recommending that the 
military consider the recycling of wastewater which can be 
converted as a source for irrigation for farmers.
    Another key issue that is of primary interest to the 
Districts is the access of locally grown farm products to the 
military community. The Districts want to be included in direct 
dialogue with the military community regarding our interest in 
providing fresh local produce for military consumption. There 
are mutual benefits that can be gained by both the military and 
the farming community through a cooperative partnership.
    The Districts are also recommending that the military 
buildup address the issue of alternative types or renewable 
energy generations, such as bioenergy, ocean wave energy, wind 
power, and other sources of renewable energy. As new 
infrastructure developments are put in place, the Districts 
would also like to see greater consideration placed on 
environmentally compatible development.
    The Guam Soil and Water Conservation Districts are 
interested in partnering with the military to address their 
conservation plan. This major military buildup that is proposed 
to occur in Guam in such a short time span will have a 
significant impact on the lives of our people. As members of 
the Guam Soil and Water Conservation Districts, we want to 
ensure that the critical concerns of our people are addressed 
and prioritized in the planning and implementation of the U.S. 
Military buildup in Guam.
    Thank you once again for providing the Guam Soil and Water 
Conservation Districts an opportunity to provide testimony on 
this very important issue.
    Thank you.
    Mrs. Christensen. OK. Thank you, Mr. San Nicolas.
    [The prepared statement of Mr. San Nicolas follows:]

     Statement of Benny San Nicolas, Chairman--Southern District, 
                Guam Soil & Water Conservation Districts

    Dear Chairwoman Christensen:
    On behalf of the Guam Soil & Water Conservation Districts, thank 
you for the opportunity to provide testimony on the significant issue 
of the, ``U.S. Military buildup on Guam and Challenges Facing the 
Community.'' We are very appreciate of the time that you and the 
members of your Subcommittee on Insular Affairs have taken to travel to 
Guam and hear first hand the issues and concerns of our people with 
regard to the proposed military buildup on our island.
    As members of the Guam Soil and Water Conservation Districts we are 
identified as an organization that primarily deals with farming related 
issues. However, a significant part of our mandate is focused on 
conservation and resource management related issues. The Northern & 
Southern Soil & Water Conservation Districts on Guam partner with 
Government of Guam Departments such as the Department of Agriculture, 
Guam Environmental Protection Agency, Bureau of Statistics and Plans, 
Department of Land Management, Department of Public Works and the 
University of Guam. As Districts, we also maintain partnerships with 
the U.S. Department of Agriculture, the Natural Resource and 
Conservation Service and the Farm Service Agency.
    There are a number of issues that are of primary concern to the 
Districts with regard to the proposed military buildup here on Guam. 
The most critical issue is directly related to our island's water 
resources. The Districts are well aware that the proposed military 
buildup will significantly increase the islands population and have an 
impact on the water resources that are available on island. Currently 
there are a number of infrastructure related issues that must be 
addressed in order to provide a consistent and accessible supply of 
water to the island's farming community. Of particular concern is the 
accessibility and supply of water that is currently available to 
farmers for irrigation and livestock in northern Guam. The preliminary 
information that has been provided to the community indicates that the 
proposed buildup will be focused in northern Guam. This is the very 
area that has the largest population of island residents and has the 
greatest impact on the use of the northern aquifer. The issue of 
accessibility to water resources must be taken into primary 
consideration as one of the most critical issues to be address. An 
assessment of the volume of water that is available, the proper 
management of the northern aquifer and the distribution of our precious 
water resources is a critical concern to the local farming community 
and island residents. The current water infrastructure limitations in 
the northern part of the island have limited the ability of farmers to 
expand and consistently maintain crop operations. The Districts are 
recommending that in order to insure compatible development between the 
military and the local community, the distribution infrastructure, 
water resource management and the accessibility to water must be a top 
priority.
    This same concern also applies to southern Guam. The Navy provides 
water to a number of residential households and farms in the southern 
part of the island. The Districts are concerned about the impacts 
increased demand for water use for the military will have on the 
availability of water for southern residents and farmers. The Navy 
currently provides water from the Fena Reservoir that is located on 
military property. We have experienced in the past, especially during 
the dry season of the year, a decrease in the amount of water that is 
provided by the Navy to the local community. We are aware that the 
military prioritizes water use for its operations before water is 
distributed to island residents. However, this issue needs to be 
further examined and addressed to minimize adverse impacts to our local 
people who are dependent on this essential water source.
    The Districts are also recommending that the military consider in 
its buildup plans the recycling of wastewater that can be converted as 
a source for irrigation. If new wastewater plants are to be constructed 
to handle the increased military population, the current practice of 
wastewater treatment and discharge into the ocean only further depletes 
reusable water resources. The Districts would like to see a more 
integrated approach for the development and management of water and 
wastewater resources that will take into mutual consideration the 
impacts and benefits to both the military and the local community.
    Another key issue that is of primary interest to the Districts is 
the access of locally grown farm products to the military community. 
The Districts want to be included in direct dialogue with the military 
community concerning our interest in providing fresh local produce for 
military consumption. The Districts are of the position that the local 
economy can be further stimulated and directly benefit from the 
military investment as a customer of locally grown products. There are 
mutual benefits that can be gained by both the military and the farming 
community through a cooperative partnership. The Districts would also 
like to work with the military to further address the issue of food 
security and the ability to provide food commodities that can be 
produced on island. With our distance from major shipping ports, it is 
in our mutual interest to increase local food production to provide for 
both the civilian and military population.
    The Districts are also recommending that the military buildup 
address the issue of alternative types of renewable energy generation 
such as bio energy, ocean wave energy, wind power and other sources of 
renewable energy as part of its buildup operations. We are aware that 
the military is already pursuing alternative energy infrastructure at 
other base operations in the mainland. We would like to see the 
military integrate alternative energy models into their buildup 
operations in Guam.
    As new infrastructure developments are put in place the Districts 
would like to see greater consideration being placed on environmentally 
compatible development. The Guam Soil & Water Conservation Districts 
are interested in partnering with the military to address the 
development of their conservation plan to address the military 
expansion plans for Guam. During the National Association of 
Conservation Districts Meeting just recently held in Washington D.C. in 
July, we shared our concerns with our fellow District members across 
the nation of the potential impacts such a significant military buildup 
will have on our small island. Our National President, Olin Sims 
further shared our concerns on July 24, 2007 in a meeting with 
representatives at the Pentagon to encourage a greater partnership 
between the military and the Conservation Districts. In the area of 
conservation, we would like to move forward with a progressive 
partnership with the military.
    It is very important to remember that the impact of the proposed 
military buildup is not limited to behind the fence base operations. 
This major military buildup that is proposed to occur on Guam in such a 
short time span will have significant impact on the lives of our 
people. As members of the Guam Soil & Water Conservation Districts we 
want to insure that the critical concerns of our people, particularly 
with regards to conservation issues, are addressed and prioritized in 
the planning and implementation of the U.S. military buildup on Guam.
    Thank you again for providing the Guam Soil & Water Conservation 
Districts the opportunity to provide testimony on this very important 
issue.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Mr. Ruder to 
testify.

             STATEMENT OF STEPHEN RUDER, CHAIRMAN, 
                    GUAM CHAMBER OF COMMERCE

    Mr. Ruder. Thank you.
    Honorable Chairwoman Christensen, Congresswoman Bordallo, 
my name is Stephen Ruder, and I'm honored to have been invited 
to address this hearing. I'm a small businessperson and have 
lived and worked on Guam for 20 years. I'm proud to call Guam 
home.
    I'm also privileged to be delivering testimony today on 
behalf of the Guam Chamber of Commerce in the capacity as 
Chairman of the Board of Directors. The Guam Chamber of 
Commerce is comprised of over 325 individual businesses 
representing all sectors of the business community. Our members 
collectively employ roughly 40,000 island residents. Over half 
of our members come from small businesses with annual gross 
revenues less then $1 million. Our combined membership 
generates $2 billion annually in economic activity, or 
approximately 70 percent of Guam's gross island product. We 
also engage the community in worthwhile civic endeavors.
    For the past 83 years, the Guam Chamber of Commerce has 
believed that what's good for the community is good for 
business. The Guam Chamber of Commerce recently commissioned a 
professional research company in late March of this year to 
conduct a statistically valid quantitative survey among island 
residents to ascertain community support for and attitudes 
about the planned military buildup. Survey methodology produced 
statistically accurate results within a plus or minus 4 percent 
margin of error.
    The purpose of the study was to gauge community temperament 
more objectively and accurately than what may have been or 
continues to be portrayed by a vocal minority and the political 
support or media attention that they attract. Results from the 
survey show that, and I'll just summarize some of the brief 
results;
    (1) A majority, or 71 percent, of Guam residents polled 
support in increased military presence, (2) Nearly 80 percent 
of Guam residents polled feel the increasing military presence 
will result in additional jobs and tax revenue, and (3) nearly 
two-thirds of Guam residents polled feel the additional Marines 
on island will have a positive effect and ultimately improve 
the island's overall quality of life.
    Judging from the results of this survey, it is clear that a 
majority of Guam residents support a larger military presence 
on the island. And while 19 percent of those surveyed do not 
know whether the Marine relocation will improve the island's 
quality of life, we believe that most in this category will 
react positively if they know that the revenue improvements 
associated with relocation will be dedicated to the funding of 
various public facilities and enhancing the quality of life for 
everyone.
    The Chamber believes that the U.S. Military buildup will 
impact the island's civilian infrastructure, the magnitude of 
which will require significant external assistance. The nature 
of this outside help centers on institutional expertise, as 
well as the comprehensive funding strategy involving private 
sector participation to support an integrated upgrading of 
Guam's infrastructure.
    As discussed earlier, the Commercial Port is often called 
the long pole in the tent because of the importance to the 
success of the buildup. That said, our port is substantially 
behind in its thru put capacity. To quickly provide facilities 
able to meet the demand will require some type of comprehensive 
commercial venture to develop, fund, construct and perhaps 
operate a contemporary port.
    Increasing Guam's ability to support the planned military 
buildup in the next 7 years will also require a surge in 
construction capacity. Therefore, it will be important for the 
Federal Government to develop a comprehensive construction 
program to provide local business opportunities to facilitate 
the use of major off-island contractors and temporary workers, 
and to partner with local institutions, including the Guam 
Contractors Associations Trades Academy, to expand and 
intensify training programs that will produce the local skill 
labor required to meet the demand today and, more importantly, 
in the future.
    The socio-economic environmental impact from the buildup 
will be reduced, given that various elements of the planned 
buildup occupy customized land-use footprints spread throughout 
Guam and the islands of the CNMI. There are already some of 
these in place, as in the case with the FDM bombing range, and 
the enhanced capabilities at Andersen Air Force Base and Naval 
Base Guam.
    The island's primary revenue source today is tourism, which 
accounts for 20,000 jobs, and we must do everything possible to 
protect this fragile industry. Approximately 80 percent of 
Guam's 1.2 million visitors come from Japan. Recent research 
commissioned by the Guam Visitors Bureau indicates that the 
image of Guam and Japan would not be harmed by the buildup; 
that's the good news. The bad news is that Japan, our largest 
market, is a market in decline on Guam. It is essential that 
the expansion of Guam's tourism industry remain a significant 
priority, even as the planned military buildup moves forward.
    The Guam-Only Visa Waiver Program is a crucial tool to 
growing new markets. Your support to expanding the Guam-Only 
Visa Waiver Program is crucial. As the buildup moves forward, 
the business industry will also be coping with the immediate 
demand for labor, and Congress must be sensitive to wage-driven 
competition and eroding the industry's workforce too deeply. 
This would be to the detriment of an industry already competing 
in a lower East Asian business environment.
    In summary, the same attributes that make for a healthy 
resort environment are identical to those that make Guam 
attractive for the relocation of military personnel. As we 
continue to work together toward expanding our economy and 
enhancing the quality of life for all of our community, there's 
bound to be short-term and temporary inconveniences. But these 
disruptions, whether socio-economic, environmental, should not 
be the reasons to forfeit the long term benefits of our 
national security interest and the economic well-being in Guam. 
To this end, the Guam Chamber of Commerce pledges its full 
support for the planned U.S. Military buildup.
    Thank you for the opportunity.
    Mrs. Christensen. Thank you, Mr. Ruder. I got it right the 
second time.
    [The prepared statement of Mr. Ruder follows:]

         Statement of Stephen C. Ruder, Chairman of the Board, 
                        Guam Chamber of Commerce

INTRODUCTION
    Honorable Chairwoman Christensen, Congresswoman Lee, and 
Congresswoman Bordallo, my name is Stephen C. Ruder, I am the 
Proprietor of Ruder Integrated Marketing Strategies, a local marketing 
and business consultancy. I have lived and worked on Guam for twenty 
years and am proud to call Guam home.
    I am here, however, in my capacity as Chairman of the Guam Chamber 
of Commerce Board of Directors. Our chamber membership is comprised of 
over 300 individual businesses representing all sectors of the business 
community, which collectively employ 40,000 island residents in the 
private sector. About 52% of our members come from small businesses, 
but our combined membership generates $2 billion annually in economic 
activity or approximately 70% of Guam's Gross Island Product.
    Thank you for the invitation to participate at today's oversight 
field hearing on the ``U.S. Military Buildup on Guam and Challenges 
Facing the Community.''
    Public discussion regarding the U.S. military buildup in the 
Marianas is the most significant issue ever to touch our shores in 
recent memory. And the debate that will arise from these oversight 
meetings is sure to give pause to the notion that the Proposed Action 
can be undertaken without difficulty. Good things never come easily.
    The Proposed Action is multifaceted in scope, broad in expectation 
and intensity, and of obvious significant impact to the islands of 
Guam, the Commonwealth of the Northern Marianas and the island states 
of Micronesia. But properly aired, we believe that most (if not all) of 
the issues raised can be addressed in good faith, balanced within the 
context of national security, and sensitized to community sentiments.
COMMUNITY SUPPORT
    The Guam Chamber of Commerce in late March 2007 commissioned QMark 
Research and Polling to conduct a statistically valid quantitative 
survey among island residents to ascertain community support for, and 
attitudes about, the planned military buildup. QMark's survey 
methodology produced statistically accurate results within a 4% margin 
of error. This was done to gauge community temperament more objectively 
and accurately than what may have been (or continue to be) portrayed by 
a vocal minority and the political support or media they attract. 
Results from this survey show that:
    1.  A majority (71%) of Guam residents polled support an increased 
military presence, 14% opposed, and 15% were either neutral (9%) or 
don't know (6%);
    2.  Nearly 80% of Guam residents polled feel the increasing 
military presence will result in additional jobs and tax revenue (79%); 
and,
    3.  Nearly two-thirds (60%) of Guam residents polled feel the 
additional Marines on the island will have a positive effect, and 
ultimately improve the island's quality of life. Of the remainder, 21% 
feel the opposite and 19% don't know.
    Judging from the results of this survey it is clear that a majority 
of Guam residents support a larger military presence on the island. And 
while 19% of those surveyed do not know whether the Marine relocation 
will improve the island's quality of life, we believe that most in this 
category will react positively if they know that revenue improvements 
to the island will be dedicated to the funding of various public 
facilities and enhancing the quality of life for everyone.
PHYSICAL INFRASTRUCTURE AND SKILLED LABOR
    The Guam Chamber of Commerce believes that the U.S. Military 
buildup will impact the island's civilian infrastructure, the magnitude 
of which will require significant external assistance. The nature of 
this outside help centers on institutional expertise, in short supply 
locally, as well as a comprehensive funding strategy to support an 
integrated upgrading of Guam's power grid, water and sewer systems, 
solid waste disposal, roadway network, and the housing and community 
support facilities that come with the anticipated population growth. By 
some accounts, the island's population could grow potentially by 20% to 
about 200,000 residents by 2015.
    For various reasons, the local government is clearly incapable of 
addressing these needs or managing and funding their development in the 
compressed time required. Given this situation, it would be prudent to 
``turn key'' or otherwise ``broker'' private sector participation in 
this islandwide infrastructure upgrade by leveraging the military's 
investments, together with private capital and federal funds, to which 
the island is already entitled, in a manner that can either:
    a.  Support the commercial viability of infrastructure upgrades, 
i.e. housing, commercial port, water, sewer, solid waste disposal; or
    b.  Maximize federal and non-local funding sources for highways, 
bridges, telecommunications, and various social programs affected by 
the build-up in military personnel.
    The Commercial Port is often seen as the ``long pole'' in the tent 
because it is substantially behind in ``thru put'' capacity for the 
billions worth of construction supplies, materials and equipment that 
will be brought into the island. To quickly provide facilities which 
will be able to dock the ships, off-load the cargo, and expand storage 
capacity will require some type of comprehensive commercial venture to 
develop, fund, and construct/operate a contemporary port operation, 
including the expansion of the current facility. The demand for 
aggregate/cement alone on Guam will be overwhelming, such that 
additional production would have to be developed. While our neighboring 
Islands have plant facilities to produce cement at prices comparable to 
Guam, we would have to address shipping and handling charges both here 
and in the CNMI to be sure that such expenses do not become 
prohibitive. Indeed, it would seem that higher volume will cause these 
charges to drop significantly to the benefit of other users as well.
    Building up Guam's capacity to support the planned military buildup 
in the next 7 years will require a ``surge'' in construction capacity, 
the magnitude of which the islands of Guam and the CNMI do not 
currently possess. Therefore, it will be important for the Joint Guam 
Program Office (JGPO) to develop a comprehensive construction program 
to:
    a.  Facilitate the use of major off-island contractors and 
temporary workers;
    b.  Partner with local institutions to expand and intensify 
training programs that will produce the local skilled labor needed to 
maintain the facilities built and other invested capacity; and,
    c.  Provide local business opportunities.
SOCIO ECONOMIC AND ENVIRONMENTAL IMPACT
    The socio economic and environmental impact from the U.S. military 
buildup can be reduced, mitigated, or otherwise muted to the extent 
that various elements of the planned buildup occupy ``customized'' land 
use footprints spread throughout Guam and the islands of the CNMI. 
There are already some of these in place, as in the case of the FDM 
bombing range, and the enhanced capabilities at Andersen and Naval Base 
Guam.
    The buildup of training facilities in the CNMI to store equipment 
used for training, for instance, can complement the Chamber's concept 
of ``Labor Collaboration'' which envisions labor intensive work such as 
the prefabrication of buildings using pre-stressed concrete and wood 
work, which:
    a.  Can greatly reduce the intensity of logistical and congestion 
issues on Guam;
    b.  Employ excess barracks and housing facilities now left vacant 
in the CNMI from the departure of foreign garment factory workers; and,
    c.  Reduce the social impact of thousands of foreign laborers on 
Guam.
    This is an example where significant labor and training impacts are 
mitigated through dispersion, while simultaneously providing economic 
and employment benefits to the CNMI at a time when their economy is in 
desperate need of alternatives and their tourism industry is in a 
decline.
    We do not view the socio economic impact of the Proposed Action to 
be a major issue, given the fact that:
    a.  There were over 20,000 more military personnel on Guam, post 
Vietnam, when the island's population was about half the current number 
of about 165,000;
    b.  Fewer recreational facilities and family amenities existed at 
that time; and,
    c.  Large tracts of land and underutilized facilities on U.S. 
Government property still exist today following ``BRAC'' closures many 
years ago.
TOURISM IMPACT
    The island's primary revenue source today is tourism, which 
accounts for 20,000 jobs and one third of the island's employment. In 
coping with the immediate demand for labor, JGPO must be cognizant of 
the ``wage driven'' competition and eroding the island's tourism work 
force too deeply, to the detriment of an industry competing in a lower 
wage East Asian business environment.
    It will also be important to ensure that the buildup will not cause 
long-term deterioration of the island's marine attractions such as 
popular dolphin watching tours, parasailing, banana boating, scuba 
diving, and cultural or historical attractions.
    Approximately 80% of Guam's 1.2 million visitors come from Japan. 
Because of this, the Guam Visitors Bureau last year commissioned Japan 
Market Intelligence (JMI) to gauge the sentiments of the island's Japan 
market. Results for this study showed that over 60% of respondents were 
aware of the movement of military troops from Japan to Guam and less 
than 10% of those viewed this negatively. With respect to Guam's image 
as a leisure destination, JMI found little effect on Guam's image as a 
vacation destination. In fact, fully 94% of those surveyed either did 
not change their image (62%) of Guam as a vacation destination or felt 
(32%) Guam's image would be better.
    Forty years ago, with the first planeload of tourists, came a 
renaissance of our culture. The emergence of an increased presence of 
the military can create a new paradigm of self discovery. In that 
regard we hope that special attention can be given to significant 
historic and archeological sites, which now exist on military property, 
and should be made accessible to visitors and residents alike whenever 
possible.
    Planned exercises on the ground, air and sea can be maximized 
because of minimum air and ocean encumbrances, but will require close 
collaboration with the tourism industry to ensure adequate safety at 
minimum cost to all.
    The island is a beach resort leisure destination that thrives on a 
clean, pollution free, natural environment. While we recognize that 
today the military are excellent stewards of the environment, it will 
be important to ensure that:
    a.  Training and other exercises keep these destination assets in 
mind;
    b.  The construction and use of defense facilities minimize visual 
blight, noise and air or water pollution; and,
    c.  Collaborative efforts are made to enhance both the attractions 
and the ambience for the use and enjoyment of all.
    The same attributes that make for a healthy resort environment are 
identical to those that also make Guam attractive for the relocation of 
military personnel and their accompanying families and support staff. 
And the island's ability to preserve, showcase, and otherwise promote 
Guam's unique cultural heritage is enhanced to the degree that the 
island's improved economy will provide incremental tax revenues that 
can sustain such an effort profitably.
GUAM CHAMBER OF COMMERCE SUPPORT
    As we continue to work together toward expanding our economy and 
enhancing our quality of life in the community, both local and military 
leaders must recognize the inherent changes in this growth as well as 
the short term and temporary inconveniences that will be produced. But 
these short term disruptions, whether socio economic or environmental, 
should not be the reasons to forfeit the long-term benefits of our 
national security interests and the economic well-being of the island.
    To this end, the Guam Chamber of Commerce pledges its full support 
for the planned U.S. military buildup, subject to the reasonable 
adjustments required to satisfy mutual concerns of the military and 
residents of Guam and the CNMI.
    As an organization of more than 300 businesses, from all sectors of 
the Guam economy employing more than 40,000 people, and generating $2.1 
billion annually to the island economy, we stand ready to assist in 
facilitating the best possible decisions and choices that will affect 
our long term mutual interests and concerns.
    Thank you for providing us the opportunity to express our views.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes Ms. Leberer to--
--
    Ms. Leberer. Uh-huh, that's right.
    Mrs. Christensen --for five minutes.

 STATEMENT OF TRINA LEBERER, MARINE CONSERVATION COORDINATOR, 
       MICRONESIA PROGRAM, THE NATURE CONSERVANCY OF GUAM

    Ms. Leberer. Madam Chairwoman and Congresswoman Bordallo, 
thank you for the opportunity to testify. My name is Trina 
Leberer and I am the Marine Conservation Coordinator for the 
Micronesia Program of the Nature Conservancy. I have lived and 
worked on Guam for the past 13 years, including 7 years with 
the Government of Guam Division of Aquatic and Wildlife 
Resources and now nearly 3 years with TNC.
    The Nature Conservancy has been working in Micronesia for 
17 years. The way we work in Micronesia differs from our work 
in the U.S., in that we do not own or manage sites ourselves, 
but instead support and assist with the work of our local 
partners.
    The testimony I am providing today incorporates some of the 
needs and concerns of many of our local resource partners on 
Guam. It is critical that the community and local resource 
agencies are involved throughout this process.
    The planned U.S. Military buildup on Guam is unprecedented 
in terms of scale and timing. Our island population is 
estimated to increase by 40,000 people, an increase of nearly 
24 percent over the next 8 years, as a direct result of the 
military expansion. This figure does not include the expected 
increase in the general population associated with this large-
scale development.
    For an island of only 212 square miles, this would be a 
huge shock to our system. It will require innovative solutions, 
full participation by all stake-holders, and a commitment from 
the Department of Defense, other Federal agencies and the local 
government, to move beyond merely managing the impact, and 
strive for a clear net benefit to the people, culture, 
sustainable economy, and natural resources of Guam. To be 
successful, full transparency, active communication, and a 
spirit of cooperation and trust among all concerned will be 
required.
    In my written testimony, I provided a brief analysis of the 
current situation and specific recommendations on several key 
issues, which I will summarize today. First, Cumulative Impacts 
and Compensatory Mitigation.
    As Congresswoman Bordallo noted, Congress needs to support 
early an adequate funding to compile comprehensive baseline 
data and a fully integrated analysis by DOD and Federal and 
local regulatory agencies considering the direct and indirect 
cumulative impacts of this buildup required under NEPA.
    DOD, Federal Regulatory Agencies, and Congress must also be 
receptive to alternative forms of compensatory mitigation, such 
as the possibility of using some mitigation funding to build an 
endowment for long-term sustainable financing of Natural 
Resource Management on Guam.
    Information Availability in Dissemination. Local agencies 
and the community need timely information to fully assist the 
expansion and provide comments at a point in the process when 
it is still practical for DOD to modify and improve plans based 
on that input.
    Congress must be willing to give DOD additional flexibility 
in project funding and implementation so they can incorporate 
public input in the very short timelines they are facing.
    Support for Increased Resource Agency Capacity. Congress 
should support releasing a portion of DOD project funding to 
local and Federal resource agencies prior to EIS completion so 
that they can properly assess alternatives and plan for 
mitigation actions.
    Congress and Federal resource agencies must work to 
increase allocations under current Federal grants to support 
the increase in local operational capacity required to address 
impacts to Guam's natural resources, resulting from the 
military buildup, and ancillary private sector development.
    Invasive Species. In response to the elevated risk due to 
the expansion, DOD needs to implement expanded internal 
programs to control, eradicate, and prevent to spread of both 
terrestrial and marine invasive species.
    The U.S. Departments of Agriculture and Homeland Security 
Customs Border Patrol need to support the Governments of Guam 
and the CNMI to achieve a higher level of prevention and 
quarantine capacity.
    Ancillary Impacts. In addition to direct impacts from the 
military buildup, there will be a need for an estimated 12,000 
to 15,000 construction workers, and with approximately 75 
percent coming in from off-island, they will have an impact on 
our utilities, government services, and coastal fishery 
resource as they fish to supplement their diet.
    DOD and the local agencies need to develop joint programs 
to educate all active military, their dependents, and contract 
workers on Guam's environmental laws, and the value of Guam's 
natural resources.
    Green Infrastructure. As Congresswoman Bordallo pointed 
out, DOD should follow guidelines in the lead Green Building 
Rating System for new construction and major innovations in the 
design of all new military construction, including the use of 
green belts, renewable construction materials, water 
catchments, and alternative energy sources.
    Sustainable Drinking Water. As has been brought up before 
as well, Congress should support funding for a comprehensive 
baseline study to determine the recharge rates and water 
quality for the Northern Guam Aquifer, our main drinking water 
source.
    In light of the military buildup and as a substantial land 
owner on Guam, DOD must play a critical role in protecting our 
aquifer and the other main drinking water sources in Southern 
Guam, through such actions as watershed planning and 
restoration.
    Public Shoreline Access. An expansion in military 
installations and associated security measures may result in 
the further restriction of public access to coastal and marine 
resources.
    We encourage DOD to work with local agencies and the 
community to identify opportunities for collaboration and joint 
planning to protect and enhance public shoreline access.
    This military buildup poses some of the biggest challenges 
to Guam's vision to achieve healthy natural resources available 
for the sustainable use of ours and future generations. 
Creative solutions will be required to turn this tremendous 
challenge into an equally tremendous long-term opportunity for 
the people, culture, sustainable economy and natural resources 
of Guam and Micronesia as a whole.
    Again, thank you for the opportunity to testify and I hope 
this testimony will be useful to assist you with addressing 
some of the very real challenges facing the community as we 
prepare for the military buildup on Guam.
    I would be pleased to answer any questions.
    Mrs. Christensen. Thank you, Ms. Leberer.
    [The prepared statement of Ms. Leberer follows:]

     Statement of Trina Leberer, Marine Conservation Coordinator, 
               The Nature Conservancy, Micronesia Program

    Madam Chairwoman and distinguished members of the Committee, thank 
you for the opportunity to testify on the ``U.S. Military Buildup on 
Guam and Challenges Facing the Community.'' I'd also like to take the 
opportunity to express our appreciation to the Congressional leadership 
in creating a Subcommittee on Insular Affairs and to all of the island 
delegates for their strong leadership. My name is Trina Leberer, and I 
am the Marine Conservation Coordinator for the Micronesia Program of 
The Nature Conservancy. I have lived and worked on Guam for the past 13 
years, including 7 years with the Government of Guam Division of 
Aquatic and Wildlife Resources and now nearly 3 years with TNC.
    The mission of The Nature Conservancy is to preserve the plants, 
animals and natural communities that represent the diversity of life on 
Earth by protecting the lands and waters they need to survive. TNC has 
been working in Micronesia for 17 years. The vision of our Micronesia 
Program is: The people of Micronesia conserving and effectively 
managing their natural heritage. The way we work in Micronesia differs 
from our work in the US, in that we do not own or manage sites 
ourselves, but instead support and assist with the work of our local 
partners.
    The testimony I am providing today incorporates some of the needs 
and concerns of many of our local resource partners on Guam. It is 
critical that the community is involved throughout this process, both 
directly and through the representation of the government agencies 
mandated to protect and sustainably manage the natural resources of the 
island on their behalf. We applaud this Committee's willingness to meet 
with various segments of the community this past week and encourage the 
Department of Defense to hold additional public meetings as more 
detailed information on the expansion is available.
    The planned U.S. military build-up on Guam is historic in terms of 
scale and timing. According to the most recent information provided to 
the Government of Guam, our island population is estimated to increase 
by 40,000 people over the next eight years as a direct result of the 
military expansion. Based on our 2005 population estimate of 167,974 
this is a nearly 24% increase. This figure does not include the 
expected increase in the general population associated with this large-
scale development and the expected economic boom. For an island of only 
212 square miles, this will be a huge shock to our system that will 
require innovative and creative solutions, full participation by all 
stakeholders, and a willingness on the part of all concerned, and 
especially the Department of Defense and other federal agencies, to 
move beyond ``business as usual'' and to set as the key objective not 
merely ``managing the impact'' or ``mitigation'', but a true commitment 
to ensuring that at the end of the day the entire project results in a 
clear net benefit to the people, culture, sustainable economy, and 
natural resources of Guam and indeed the entire Micronesia region. 
There must also be full transparency and a conscious purpose of 
developing trust among all concerned.
    In the midst of this incredible growth, we must ensure the 
protection of our island's natural resources, not only because of their 
intrinsic value, but because they form the foundation upon which we 
depend culturally, economically, and for our quality of life. This 
means first and foremost that we must avoid irreversible negative 
impacts to the environment wherever possible. When avoidance is 
impossible, then we must ensure not only adequate and appropriate 
compensatory mitigation, but also positive steps resulting in a clear 
net enhancement of the quality of, and reliable long-term protection 
for, our natural resources.
Cumulative Impacts and Compensatory Mitigation
    The Department of Defense needs to strengthen their assessment of 
cumulative impacts in order to meet the requirements of the National 
Environmental Policy Act (NEPA) and make better informed decisions 
about project alternatives and compensatory mitigation. In previous 
years, there has been a tendency for the Department of Defense to 
manage projects individually or in phases, including the determination 
of appropriate compensatory mitigation for each individual project. 
This approach is simply inadequate for a project of the size and 
complexity of the proposed military build-up, especially given the 
highly inter-related and fragile nature of the natural resources on 
Guam and in the lands and waters of Micronesia as a whole. A fully 
integrated analysis, considering the true cumulative effects, both 
direct and indirect, of this enormous project, and with full 
participation by participating and supporting federal agencies, is 
precisely what NEPA requires. It is also precisely what is needed to 
ensure that the military build-up results in a clear net benefit to the 
people, culture, sustainable economy, and natural resources of Guam and 
Micronesia as a whole.
    There is also a challenge, frankly, for the Congress itself to be 
willing to create the political and funding environment that will allow 
for truly effective public participation and will allow the Department 
of Defense to proceed in a manner that meets not only the letter of, 
but also the spirit and intent of NEPA. Advance funding to allow 
comprehensive baseline data is part of that challenge. Broad oversight 
across multiple committees of jurisdiction in the Congress to ensure 
adequacy of funding not only for the Department of Defense but also for 
other key federal agencies will be both difficult politically and 
essential to a successful project. Enabling legislation to allow 
funding of endowments for long-term stewardship of natural resources 
will be important and politically challenging both within the Executive 
branch and in the Congress.
    Another part of the challenge facing Congress will be the need to 
recognize that the long lead times and project specificity normally 
associated with projects funded through the Military Construction 
(MILCON) process may require modification to provide the Department of 
Defense the kind of flexibility and agility that will be necessary to 
ensure that the project as a whole is one of true partnership between 
the Department of Defense and the government and people of Guam. The 
timeline for this project, driven in part by political commitments 
given to Japan with regard to the timing of relocation of U.S. forces 
now stationed on Okinawa, combined with the need to adjust project 
planning based on public input and additional data as the project 
progresses, simply may not fit within the normal procedures and long 
lead times associated with the MILCON process
    We recognize that this current build-up is comprised of a myriad of 
projects under several branches of the Department of Defense, and as 
such there have been or will be separate Environmental Impact 
Statements prepared for each project, or in some cases a related group 
of projects such as the proposed training activities in Guam and the 
Northern Marianas. Unfortunately, it is unclear how the overall 
planning process will ensure the adequate identification and assessment 
of the cumulative environmental impacts from these individual projects. 
To help ensure the sustainable management of the natural resources of 
Guam for future generations, the Department of Defense needs to truly 
identify and quantify the cumulative impacts, minimize those impacts 
where feasible, and, where avoidance or minimization is not feasible, 
address those impacts with actions that not only mitigate for those 
impacts but result in a clear net benefit.
    In addition, the Department of Defense, Regulatory Agencies, and 
Congress need to be receptive to alternative forms of compensatory 
mitigation in order to achieve meaningful results. There has been a 
preference for onsite mitigation or mitigation within the immediate 
vicinity of the project. For example, if a certain acreage of coral 
will be dredged, then the proposed mitigation might include coral 
transplantation or the placement of artificial reef-like structures in 
the vicinity of the dredged area. Unfortunately, the proposed 
mitigation methods often fail to compensate for the lost ecological 
function of the impacted reef, even under the best of circumstances. 
Furthermore, onsite mitigation in a place like Apra Harbor, where 
future proposed projects require additional dredging, is not prudent as 
any benefits from mitigation may be undone by future development. A 
more recent approach to compensatory mitigation has been to provide a 
set of viable options. Although this is a better approach, the 
applicant still has the ability to choose any of the viable 
alternatives, even if the selection is not the best option for 
achieving replacement value of the resources lost. Finally although 
past mitigation has resulted in an overall loss of terrestrial and 
marine natural resources, new mitigation options now make it possible 
to scale against loss and this should be required when determining the 
level of mitigation required.
    Therefore, we support the local Guam agencies plea for creative 
alternatives to onsite compensatory mitigation options and that they be 
allowed to select the best alternatives, such as off-site watershed 
restoration and the banking of mitigation funds using an appropriate 
mechanism, such as a Guam sub-account in the Micronesia Conservation 
Trust. The MCT is a regional organization committed to long-term, 
sustainable funding to support biodiversity conservation and related 
sustainable development for the people of Micronesia.
Information Availability and Dissemination
    The public and local resource agencies often do not receive enough 
information about Defense projects to provide meaningful input during 
the EIS process. When they do receive detailed information, they either 
are not provided with enough time to review the information and 
adequately address the myriad impacts to the island's natural resources 
or the opportunity occurs too late in the process to facilitate 
implementation of new alternatives. Although we have known that several 
proposed projects associated with the military build-up will negatively 
impact our natural resources such as coral reefs and native forests, 
the information provided was not detailed enough for assessing and 
adequately addressing the cumulative impacts.
    The information available in the latest series of public meetings 
and open houses for the upcoming expansion was extremely vague and thus 
precluded the submission of meaningful comments about specific sites. 
Any requests for more specific information about the area requirements 
or exact numbers were dismissed. Individuals were instructed to wait 
for the draft EIS and make comments then. Unfortunately, once the plans 
for proposed projects reach this stage, the time given for review and 
response is usually insufficient for capacity-strapped local and 
federal regulatory agencies to thoroughly review and assess all 
alternative actions. In addition, especially in the case of Apra 
Harbor, there is no comprehensive set of pre-expansion, baseline data 
for the extensive coral reef and fishery resources, the hydrodynamic 
processes, stakeholder use patterns, or current sediment and water 
quality. This makes it extremely difficult to again assess the 
cumulative impacts of the recent and proposed projects in the Harbor. 
Early and adequate funding from the Department of Defense and other 
relevant federal agencies to enable compilation of a comprehensive set 
of baseline data will be vital if the process is to be successful.
    The core of the NEPA process is full transparency and public 
participation well before agency plans are ``finalized'' so that the 
agency is in fact in a position to truly consider input received and 
adjust initial plans in light of that input. In this complex situation, 
the Department of Defense must work actively to achieve greater 
transparency immediately and throughout the planning process. Local 
agencies and the community need timely information to fully assess the 
expansion and provide comments regarding project-specific and 
cumulative impacts at a point in the process when it is still practical 
for the Department of Defense to modify and improve plans based on that 
input. Congressional willingness to give the Department of Defense 
additional flexibility in project funding and implementation so that 
the Department can incorporate public input on the very short timelines 
it is facing will be critically important.
Support for Increased Resource Agency Capacity
    This expansion is unprecedented in its size and scope and the 
impacts to Guam's natural resources will be numerous and diverse. The 
local and federal resource agencies are tasked with assessing the 
alternatives presented by the Department of Defense and providing 
mitigation options. However, their current lack of capacity, both human 
and monetary, will greatly hinder their ability to complete these 
tasks. This problem will be greatly exacerbated if they are forced to 
operate under short deadlines and insufficient planning information.
    Because of these limitations, it would be beneficial if the 
Congress could release a portion of the Department of Defense funding 
for these projects to the local and federal resource agencies so that 
they can address the need for proper assessment of alternatives and 
planning for mitigation actions. In addition, the federal agencies and 
the Congress should consider the necessary increase in operational 
capacity for local natural resource management agencies and 
organizations, associated with the preparation for and eventual 
increase in population, both in military personnel and in general, and 
the associated development that the island will experience in the next 
several years. To assist the local agencies, allocations for existing 
federal grant programs such as the NOAA coral and coastal zone grants, 
the Forest Service Pacific Island grants, the U.S. Fish and Wildlife 
Service state wildlife, coastal conservation, endangered species and 
invasive species grants, EPA grants, and Capital Improvement Grants 
under the Office of Insular Affairs should be increased to levels based 
on Government of Guam capacity needs assessments currently being 
developed. These additional funds should be made available for direct 
implementation of projects on-the-ground, including the need for 
increased enforcement of conservation laws. Federal agencies should 
also consider devoting technical staff to assist the local resource 
agencies in this unprecedented military development.
    Finally, in the past, the local natural resource agencies have been 
denied access on the military bases to conduct surveys and assessments 
of marine, terrestrial, and endangered species resources. With the 
increase in military buildup, these surveys are vital to ensure the 
conservation and protection of the resources. The Department of Defense 
needs to coordinate with the local natural resource agencies and 
provide access onto the military base to conduct these surveys and 
assessments.
Invasive Species
    Throughout the planning process, special attention should be paid 
to invasive species issues, including the brown tree snake and marine 
invasives. The increase in personnel and training activities, and 
subsequent traffic in and out of the ports of Guam, associated with the 
military build-up will increase the risk of the spread of invasive 
species across the region tremendously. Currently over $10 million per 
year is spent on brown tree snake (BTS) control and eradication alone. 
Guam has suffered severe economic impact, numerous species extinctions 
and a major ecological disaster due to this invasive reptile. The BTS 
is directly responsible for the extinction or local extirpation of 9 of 
12 native forest bird species and 3 of 12 native lizard species in 
Guam. It also preys upon an endangered fruit bat of which fewer than 
300 individuals are left in the wild.
    BTS climb utility poles and cross electrical power lines, causing 
numerous power failures each year. From 1978 to 1997, BTS caused more 
than 1600 power outages. Recently the rate has increased to nearly 200 
outages per year. These power outages cost millions of dollars in 
damaged equipment, lost productivity, repair costs and reduced income 
from tourism each year.
    The high densities of BTS on Guam, combined with Guam's importance 
as a shipping hub, make the spread of BTS from Guam a critical threat 
to other Pacific Islands such as Hawaii, the Commonwealth of Northern 
Marianas Islands (CNMI), Samoa, the Freely Associated States (Palau, 
Federated States of Micronesia, and the Marshall Islands), and 
subtropical regions of the U.S. mainland. In the last ten years, BTS 
have been sighted on Tinian and Saipan (both islands of the CNMI). 
Since 1982 there have been 69 credible BTS sightings and 13 captures in 
the CNMI. A total of eight BTS have been found in Hawaii since the mid 
1980's, but no live snakes have been found on Hawaii since 1994, thanks 
to Congress' support for full implementation of U.S. Department of 
Agriculture's (USDA) Animal and Plant Health Inspection Service (APHIS) 
Wildlife Services (WS) interdiction activities. All snakes found on 
Hawaii were associated with the movement of civilian and military 
vehicles or cargo from Guam. In addition, BTS have been credibly 
sighted, captured, or found dead in the following locations: Corpus 
Christi, Texas; Anchorage, Alaska; Wake Island, Pohnpei, FSM; Darwin, 
Australia; Diego Garcia (British Indian Ocean Territory); Taiwan; 
Okinawa, Japan; and Rota, Spain. The potential cost of a BTS invasion 
is immensely high. A University of Hawaii economic study recently 
estimated that the introduction of BTS to Hawaii could cost the state 
between $29 million and $405 million annually.
    Recently Deputy Assistant Secretary of the Navy for Environment 
Donald Schregardus traveled throughout Micronesia and discussed the 
possibility of conducting future training exercises in the freely-
associated states, increasing the risk further. Prevention is always 
preferable and more cost-effective than attempts at control or 
eradication. The islands in the region have already started to work 
together on this issue, forming the Regional Invasive Species Council. 
Teams from several islands, including Guam are members of the Pacific 
Islands Invasive Learning Network, which was launched with U.S. 
government support. Guam and the region need continued technical and 
financial support from the U.S. government to develop and implement 
appropriate and cost-effective prevention and rapid response efforts.
    In addition, the Department of Defense needs to implement expanded 
internal programs to control, eradicate, and prevent the spread of both 
terrestrial and marine invasive species. For example, currently there 
is no bilge-management plan in place for their port operations. DOD 
should develop and implement a plan and assist the Port Authority of 
Guam to do the same, to prevent the spread of marine invasive species. 
Further, the Governments of Guam and the Northern Mariana Islands need 
the support of the U.S. Departments of Agriculture and Homeland 
Security-Customs Border Patrol to allow a higher level of prevention 
and quarantine capacity to protect themselves from new introductions of 
invasive pests that could threaten the fragile natural systems, 
economies and lifestyles of these islands.
Ancillary impacts
    As Guam has experienced in the past, ancillary development in the 
private sector will accompany the military build-up as investors 
speculate on the expected economic growth. For example, there is 
already 1 new large-scale development planned for an area encompassing 
prime coastal land and native limestone forest, in the northern part of 
the Tumon Bay Marine Preserve. The local resource agencies, already 
struggling with the additional workload associated with the military 
build-up must also assess the impacts from these ancillary developments 
in the private sector.
    In addition to the direct impacts from ancillary developments, 
there will be a need to import a great deal of labor to supplement 
Guam's existing construction industry. An estimated 12,000-15,000 
construction workers will be needed and, with an estimated 85-90% 
coming in from off-island, they will have an impact on our resources as 
well. Not only in terms of an additional burden on our water and sewage 
systems, but also in terms of fishing and gleaning on our reefs in our 
coastal waters to supplement their diet. There will be a need for 
increased enforcement of and education about Guam's marine preserves 
and other fishing regulations as these workers are often unfamiliar 
with local laws.
    The Department of Defense should work with local resource agencies 
to develop a program to educate all military personnel, their 
dependents, and contract workers about the value of Guam's natural 
resources and the laws protecting them. Financial support to improve 
infrastructure and increase the operational capacity of enforcement for 
conservation laws should be part of the annual funding required under 
the Department of Defense's Sikes Act agreement with the Government of 
Guam.
Green Infrastructure
    Guam is an island with limited natural resources, and we therefore 
encourage the use of green infrastructure and sustainable building 
practices in the design of all new military construction. The military 
expansion will require a number of large-scale infrastructural 
developments to house personnel and their dependents and support 
operations. It is important that these developments are designed and 
built for maximum energy and water efficiency, including the use of 
green belts and green space planted with native species, renewable 
construction materials, water catchments, and alternative energy 
sources, such as solar panels. The overall benefits of this strategy 
will far exceed the costs of including these modifications as they will 
decrease operating costs and minimize the military's dependence on off-
island supplies of fuel for power. It will also minimize the military's 
ecological footprint on this small island. Including this now, in the 
design stage, will be more cost-effective than having to retrofit 
structures in the future and will result in cost savings and a 
reduction over time in the dependency on non-renewable resources. We 
encourage the Department of Defense to follow guidelines in the 
Leadership in Energy and Environmental Design (LEED) Green Building 
Rating System for New Construction & Major Renovations (http://
www.usgbc.org/Docs/LEEDdocs/LEED_RS_v2-1.pdf).
Sustainable Drinking Water
    The Northern Guam aquifer, designated a ``principle source 
aquifer'' in 1978 by the U.S. Environmental Protection Agency, is the 
primary drinking water source for the island, servicing 80% of the 
population. The aquifer has been formed from recharge from rainfall in 
northern Guam percolating through surface soils to the underlying 
cavernous limestone where it accumulates in a lens which ``floats'' on 
and displaces the denser sea water. Although efforts have been made to 
determine the recharge rates and water quality of segments of the 
aquifer, funding is needed to conduct a comprehensive baseline study 
for the whole aquifer.
    The Department of Defense owns a substantial amount of land in 
northern Guam and thus plays a critical role in protecting Guam's 
northern aquifer. The Department of Defense should strive to maintain 
existing forested areas on their land and restore denuded areas with 
native forest. This will help to enhance recharge rates and maintain 
water quality.
    Southern Guam is comprised of volcanic soils and contains several 
watersheds. There are currently 2 main drinking water sources in 
southern Guam: Fena Reservoir and the Ugum River. Both sources suffer 
from heavy sediment loads and require significant watershed 
restoration. The Department of Defense is currently conducting some 
watershed restoration efforts in the watersheds feeding Fena Reservoir, 
and the Government of Guam is currently implementing the Ugum Watershed 
Restoration Strategy, but more funding is required to truly restore 
native forests in both areas, ensuring a sustainable drinking water 
supply for our growing island population.
Protection and Enhancement of Public Shoreline Access to the Ocean's 
        Resources
    The people of Guam have a long history of dependence on and 
sustainable use of coastal and marine resources. Thus the protection 
and enhancement of public shoreline access to Guam's ocean resources is 
a major concern for the community. One of the primary goals of the Guam 
Coastal Management Program, developed under the Coastal Zone Management 
Act of 1972, is the protection and enhancement of public access to the 
ocean's resources for recreation purposes. Public access to these 
resources is also vital to tourism, the island's main industry. Dive 
tours, fishing charters, and boat tours provide significant income to 
the island's economy.
    Unfortunately, an expansion in military installations and 
associated security restrictions often result in the restriction of 
access to the ocean's resources for the residents of Guam. For example, 
in 2001, public shoreline access was restricted to the Glass Breakwater 
and Luminao Reef. Prior to these restrictions, the area was frequented 
by the public, including the military population, for activities such 
as fishing, surfing, snorkeling, and diving. The closure of the area 
has increased recreational pressures in other areas, resulting in 
negative impacts to coral reef resources in protected areas such as 
Piti Bomb Holes Marine Preserve.
    We encourage the Department of Defense to work with Guam's local 
agencies and the community to identify opportunities for collaboration 
and joint planning to protect and enhance public shoreline access to 
the ocean's resources under military jurisdiction.
The Micronesia Challenge
    In January 2006, Governor Felix P. Camacho signed the Micronesia 
Challenge (MC), a commitment by the Chief Executives of Guam, the 
Commonwealth of the Northern Mariana Islands, the Federated States of 
Micronesia, the Republic of the Marshall Islands, and the Republic of 
Palau to effectively conserve at least 30% of the near-shore marine 
resources and at least 20% of the terrestrial resources across 
Micronesia by 2020.
    The MC was conceived as a result of the deep commitment of these 
five leaders to ensure a healthy future for their people, protect their 
unique island cultures, and sustain the livelihoods of their island 
communities, by sustaining the island biodiversity of Micronesia. The 
MC also contributes to global and national targets set out in the 
Millennium Development Goals, the Johannesburg Plan of Implementation 
for the World Summit on Sustainable Development, the Mauritius Strategy 
for Small Island Developing States, the U.S. Coral Reef Task Force 
National Plan of Action and the relevant Programmes of Work of the 
Convention on Biological Diversity.
    TNC is a member of a Regional Support Team, along with Conservation 
International (CI), the Secretariat of the Pacific Regional Environment 
Programme (SPREP), U.S. National Oceanic and Atmospheric Administration 
(NOAA), RARE (formerly RARE Center for Tropical Conservation), the 
Micronesia Conservation Trust (MCT), the Locally Managed Marine Area 
Network, the Community Conservation Network, the Pacific Islands Forum, 
and the U.S. Department of the Interior. The team was formed to provide 
strategic assistance and external resources required for effective 
implementation of the MC.
    The MC Steering Committee, made up of government focal points from 
each jurisdiction, is providing regional coordination and is recruiting 
a Regional Coordinator to advance MC activities across the region. Guam 
and each of the other four jurisdictions are designing their own 
strategies to implement the MC involving partnerships between 
Government agencies, NGOs and local communities. For Guam, a multi-
agency team developed a draft strategy that will be presented to other 
stakeholders for input, focused on strengthening and more effectively 
managing existing marine and terrestrial conservation areas rather than 
establishing new sites. As a significant landowner on Guam, the 
Department of Defense will be a key partner in helping to achieve this, 
especially the restoration of native forest in the areas of the Guam 
National Wildlife Refuge Overlay under their jurisdiction.
    TNC is also assisting local partners on Guam to develop a 
sustainable finance plan to be completed in early 2008. The plan will 
identify the funding needed to effectively manage Guam's natural 
resources and meet the goals of the MC. The plan will also identify key 
strategies, from internal and external sources, to secure the necessary 
funding, including the building of an endowment.
    This military build-up poses one of the biggest challenges to 
Guam's vision to achieve healthy natural resources available for the 
sustainable use of ours and future generations. But at the same time, 
it can provide one of the biggest opportunities to attain long-term 
sustainable funding of the work needed to achieve this same vision. As 
stated above, we support the local government's proposal to explore the 
possibility of using a portion of the amount of money required for 
compensatory mitigation to help build Guam's and CNMI's pieces of the 
MC endowment. Other innovative and creative solutions, some of which 
may require specific federal enabling legislation, will be required to 
turn this tremendous challenge into an equally tremendous long-term 
opportunity for the people, culture, sustainable economy, and natural 
resources of Guam and Micronesia as a whole.
Summary of Key Recommendations
    There is a critical need for Congressional support for:
    1.  Early and adequate funding to compile comprehensive baseline 
data and a fully integrated analysis, considering the direct and 
indirect cumulative effects of this enormous build-up, required under 
NEPA.
    2.  Department of Defense funding for planning for mitigation 
actions and additional technical assistance prior to EIS completion and 
project implementation. Due to extremely short deadlines and current 
capacity limitations, the local and federal natural resource regulatory 
agencies need help to properly assess alternatives and plan for 
mitigation actions. Greater flexibility in DOD project funding and 
implementation is needed, so they can incorporate public input on the 
very short timelines required to complete this move by 2012.
    3.  Increased allocations for existing federal grant programs to 
support operational capacity for local natural resource management 
agencies and organizations, based on the capacity needs assessments for 
the Government of Guam currently being developed. These allocations are 
critical to allow natural resource agencies to meet the Department of 
Defense's timelines in preparation for the projected population 
increase, associated development, increased pressure on natural 
resources and invasive species prevention and control to avoid 
devastating economic, social and environmental impacts. This additional 
funding should be used to implement projects on-the-ground in Guam, 
including increased enforcement of conservation laws.
    4.  Joint DOD/Gov Guam programs to educate all active military, 
their dependents, and contract workers on Guam's environmental laws and 
the value of Guam's natural resources.
    5.  Department of Defense to follow guidelines in the Leadership in 
Energy and Environmental Design (LEED) Green Building Rating System for 
New Construction & Major Renovations (http://www.usgbc.org/Docs/
LEEDdocs/LEED_RS_v2-1.pdf).
    6.  Sustainable funding for natural resource management activities 
in Guam and the CNMI. Using the sustainable finance plans for natural 
resource management being developed in Guam and the CNMI, Congress, the 
DOD and local governments need to work together to identify appropriate 
long-term funding mechanism(s) for the expanded environmental programs 
required by this military build-up. We strongly encourage Congress to 
support Governor Camacho's proposal to allocate a percentage of all 
Department of Defense appropriations related to the military build-up, 
above and beyond funding for mitigation, to build a conservation 
endowment. The interest derived from this endowment would be used for 
the long-term, stable funding of. critical natural resource management 
programs.
    Again thank you for the opportunity to testify and I hope this 
testimony will be useful to assist you with addressing some of the very 
real challenges facing the community as we prepare for the military 
build-up on Guam.
    I would be pleased to answer any questions at this time.
                                 ______
                                 
    Mrs. Christensen. The Chair now recognizes our final, last, 
but not least, the Guam Contractors Association, represented by 
Mr. John Robertson.

STATEMENT OF JOHN ROBERTSON, CHAIRMAN, GOVERNMENT, MILITARY AND 
     LABOR AFFAIRS COMMITTEE, GUAM CONTRACTORS ASSOCIATION

    Mr. Robertson. Thank you. Maybe you save the best for last.
    Honorable Chairwoman Donna Christensen, Honorable Madeleine 
Bordallo, honored guests, ladies and gentleman, thank you for 
inviting the Guam Contractors Association to address this 
important forum. Our association represents almost 290 firms, 
about 60 percent of whom are contractors.
    My name is John Robertson. I'm a member of the Board of 
Directors and I'm also the Chairman of the Committee on 
Military, Government, and Labor Affairs.
    Guam Contractors have considerable capability and capacity 
and will form the backbone of whatever construction effort 
occurs on Guam. A matter of concern to us is the high cost of 
construction on Guam. With an area a factor of 2.64, our 
construction cost is judged by the military to be the most 
expensive on the planet, other than Greenland and a few 
isolated spots in Alaska.
    This high cost can be attributed to two factors: First, 
logistics, and second, skill level of workforce. And it is 
something we have been working with NAVAC (phonetic) to rain in 
over the last number of years. This is what I wanted to discuss 
with you today.
    Now, we will forgo discussion of logistics so we can talk 
about the workforce. Guam's workforce is adequate for normal 
needs. It was mentioned earlier, the $400 million per year 
volume; that number actually came from the Guam Contractors 
Association to Captain Boone a couple of years ago. However, 
demographics is catching up with us and young people are needed 
to replace those set for retirement. Specialized skill sets 
among much of our workforce is unfortunately below standard, 
thus there's a lot of re-work.
    As many residents of Guam and neighboring islands as 
possible must be drawn into the expanding job market associated 
with the military buildup. The GCA established the Trades 
Academy last year for developing a local skilled workforce for 
construction and related trades. We have conducted initial 
meetings with the Presidents of the University of Guam, Dr. 
Allan, and Guam Community College, Mrs. Okada, in our working 
on a strategy to serve the needs of the community as a 
coordinated and non-competitive effort. It was agreed between 
us that all of our efforts are required to make this happen. 
Neither one of us can do it alone.
    It was also agreed that we should conduct a joint campaign 
to try to draw people from the local island into our industry, 
which to many of you is menial labor that they don't want to 
get involved in. But actually, it is a career that the people 
can be very proud of. Federal support is needed for action 
during the compressed timeframe in getting these people up to 
speed.
    You will ask why we have formed the Academy, since there is 
a community college on Guam doing the same thing, and I must 
answer that important question. We have learned that ABC-
affiliated contractor associations across the U.S. are doing 
this because community colleges are moving toward a more 
academic track.
    The same has happened on Guam, and that is a good thing in 
many respects, except that we have not seen trainees entering 
the construction field for a number of years. We are taking 
people, some of which are high school dropouts, and by the way, 
we unfortunately have a 50 percent dropout rate in high school 
on this island. We are taking these people, with interest in 
working with their hands, and providing them with a career 
doing what they want to do. Many of these will later complete 
their GED and rise to the top ranks of contract organizations 
or become entrepreneurs.
    Training will not produce sufficient numbers of workers for 
the boom, but will provide and trained and experienced 
workforce for steady state construction and maintenance 
requirements that will follow.
    We have verified that the skilled workforce and CONUS is in 
short supply, and mainland contractors are using workers from 
Mexico and Central America. We must turn once again to Asia for 
the numbers of skilled workers we will need.
    The GCA Trades Academy was organized with expert legal 
assistance as a private sector, non-profit institution of 
learning. It is duly certified for the purpose by local and 
Federal authorities. It is under the very capable direction of 
Mr. Bert Johnston, who has experience in industry, as well as 
education. Training curricula is from the Contren Learning 
Series, as developed by the well-funded National Center for 
Education and Research. This series is used by construction 
trades academies across the U.S. by both union and open-shop 
contractors. Graduates receive a certificate from the NCCER, as 
well as the U.S. Department of Labor.
    The GCA training program has been accredited by the U.S. 
Department of Labor for more than 20 years. It includes an 
apprenticeship component with local contractors. We currently 
have 50 students in the program in five different trades. 
Tuition is being paid by employers or by the trainees 
themselves. This amounts to from $2,500 to $3,000 per year, per 
student. Some have become employed as a result of joining the 
Academy.
    So far, there's been no government support. We are in 
discussions with the Guam Department of labor, however, and 
they expect to secure WIA grant funding to cover tuition for 
students that need such support. We understand that the Office 
for Economic Adjustment has funding for workforce training, and 
we are expecting that some of that funding will be directed 
toward the students in our Trades Academy. That is the only way 
that we can grow from 50 to 200 students over the next 12 
months and to 500 the year after.
    We expect some subjects will be taught at the Community 
College and some at the Trades Academy in a coordinated manner. 
Management, supervisory, pre-engineering, and administrative 
courses will be taught at UOG or GCC as appropriate.
    We need facilities for the Academy. So far, we are using 
our conference room and some rented facilities, but we do need 
to get our own facility, which we have plans for, and that's 
covered in the written testimonies I will not repeat.
    Guam is under the same Visa quota system as the rest of the 
U.S. A Visa waiver or a special class of Visa is needed to 
remove this major obstacle. It should be applied to military as 
well as GovGuam and private sector projects, not just 
government. We suggest that control on this should be under the 
Department of Labor, local Department of Labor. And it should, 
importantly, be open to H1 professionals, as well as H2 skilled 
workers.
    I've run out of my time, so I will stop in the middle of my 
presentation. Thank you very much for allowing us to present.
    [The prepared statement of Mr. Robertson follows:]

Statement of John M Robertson, PE, Chairman, Government, Military, and 
         Labor Affairs Committee, Guam Contractors Association

    During a previous construction boom on Guam in the 1990's when a 
number of Tumon Bay hotels and Leo Palace were built, major Japanese 
contractors managed the work using the local Guam contractor community. 
The work was actually executed with local contractor provided work 
force that were mostly brought to Guam for the purpose from Asia. The 
peak level was 10,000--12,000 workers which would appear to be about 
40-50% of the Marine Corps relocation requirement. One of the major 
differences is that the peak of the construction boom in the early 
1990's lasted 1 to 2 years. The Marine Corps relocation on the other 
hand will cover a span of approximately five years. This will prove 
beneficial as the return on investment can be spread over a longer 
timeframe.
    Contractors on Guam have considerable capability and will form the 
backbone of the construction effort. The local construction community 
will provide the majority of labor, equipment, barracks and quarries 
needed for the program. Improved information flow will allow the local 
contracting community to plan and make capital investments before 2010 
and before contracts are signed. The local construction industry has 
the labor, equipment, supply lines, and maturity to take the lead in 
executing the work.
    There are two issues that require much thought, planning and 
legislation at the local and national level. They are discussed herein 
below.
    1.  Materials Procurement and Logistics, including shipping and 
ground transportation. Ideas follow.
    a.  Buy American Act. Guam is more a part of Asia than CONUS, 
geographically. Importation of quality materials from Asia should be 
permissible as a means of reducing cost to the government. Please note 
that U.S. projects performed abroad normally permit use of materials 
manufactured within the host country or the United States. While Guam 
is part of the United States, the same principal does apply in some 
sense. Note further that most U.S. products now contain many components 
from abroad. Prequalification of acceptable Asian vendors should be 
initiated sooner rather than later.
    b.  U.S. Flag Shipping. Again, because of the location of Guam in 
the western Pacific, provisions of the Jones Act and rules of the 
Maritime Administration should be waived to allow direct shipments from 
Asia to Guam. U.S. Flag shippers could modify routes for some of their 
vessels to participate in that business. Currently, U.S. Flag vessels 
sail from U.S. west coast or Hawaii to Guam then to Asian ports then 
directly back to the U.S. west coast.
    c.  Guam Seaport. The Port Authority of Guam has for more than five 
years been attempting to outsource management of terminal operations 
and secure new container cranes but have not been able to do so because 
of political considerations. Furthermore, Foxtrot Wharf should be 
extended and the channel dredged. The federal government may need to 
take the lead in making these important things happen. Alternatively, 
Navy wharves may have to be made available and equipped for the 
purpose.
    d.  Local Vendors. Local Guam vendors should be encouraged to 
stock, fabricate and supply common materials to contractors. An 
exception would be the most specialized of items. This will facilitate 
savings in cost and time and allow for changes that invariably occur. 
It will also cause a strong vendor base to emerge that now only 
partially exists on Guam. The federal government may need to provide 
leadership in encouraging local businesses and especially small 
businesses to gear up to serve as a major supply chain and thereby 
serve the community as well as the military buildup.
    e.  Road Improvements. Roadways on Guam are currently over-used and 
are in generally poor condition. Necessary improvements should be made 
by mid-2009. Route 1 from Seaport and Piti to Hagatna should be widened 
to 6-lanes and otherwise brought up to standard. Route 8 and Route 16 
should be widened to 6-lanes for their entire lengths and brought up to 
standard, especially the intersection of Route 8 with Route 1. Harmon 
Loop Road should be extended from Route 16 to Route 1 as 6-lane and 
brought up to standard. A better connection from Route 16 to Route 3 
should be established, by-passing the vicinity of Micronesia Mall for 
access to the vicinity of NCTS.
2. Workforce Availability, including training, logistics and 
        management. Ideas follow.
    a.  An adequate workforce is not available on Guam. Since skilled 
tradespersons are in short supply in CONUS, the main workforce for Guam 
will have to be recruited from Asia. Although there may be some 
pressure to utilize skilled workers from Japan and especially Okinawa, 
this may not be the most cost effective solution for the skilled 
workforce.
    b.  As many persons as possible from Guam and neighboring islands 
must be brought into the workforce. The University of Guam and Guam 
Community College are training young people that will occupy important 
positions in construction as well as other segments of the expanding 
economy.
    c.  The Guam Contractors Association has established the GCA Trades 
Academy that is now in operation with about 45 students. This 
initiative is designed specifically for developing a skilled 
construction workforce. It is based on curricula of the Contren 
Learning Series as published by NCCER--National Center for Education 
and Research. It is used extensively in CONUS by open-shop and union 
trades training centers. The Guam Contractors Association training 
program is and has for more than 20 years been accredited by the U.S. 
Department of Labor. It includes an apprenticeship component with local 
contractors. Please see the Attachment that provides additional 
information on this important subject. A few key items relative to the 
GCA Trades Academy
             i.  The Board of Trustees is intent on proceeding in close 
            cooperation with the University of Guam, Guam Community 
            College and the Guam Public School System in carrying out 
            common objectives.
             ii.  A funding stream for students in the program is not 
            yet mature. Contractors and some students have been 
            covering the tuition expense and rapid growth is dependent 
            on adequate financial support. Grant applications through 
            the Guam Department of Labor, and others is in process and 
            federal funding is expected to commence flowing into the 
            program in the months ahead.
            iii.  Funding is needed to fit-out a training facility that 
            will cost about $525,000. Some member firms and local 
            business establishments have already contributed into this 
            fund.
    d.  A Visa waiver or other mechanism needs to be established to 
ensure an adequate supply of H2B workers for Guam. Guam is currently a 
participant in the same quota pool as the rest of the United States. 
The quota is normally used up within days of approval and this denies 
Guam contractors adequate opportunity to meet its needs. Please note 
that Guam is not contiguous with other states of the United States and 
cannot lure skilled workers from across state lines. The GCA and 
Chamber of Commerce have been working this issue together for the past 
2 years. Some push from the federal government is needed. As one 
option, we recommended the establishment of an H2G visa or similar 
program specifically for Guam and for the duration of the military 
buildup. Some further points:
             i.  It should apply to military as well as non-military 
            projects since military construction will be the driving 
            force for private sector projects that are also important 
            to the island and the military.
             ii.  Visa issuance is under the U.S. Department of 
            Immigration. If the waiver can be lifted or special visa 
            program implemented, we suggest control on applications be 
            established as a responsibility of the Guam Department of 
            Labor with assistance and support from the U.S. Department 
            of Labor. Authority has been delegated to the governor who 
            has in turn assigned it to the DOL.
            iii.  In order to facilitate control and without 
            overburdening the DOL, regulations might require the 
            endorsement of prime contractors for applications of their 
            subcontractors, consultants and other vendors.
             iv.  The special class of visa, as recommended, should be 
            open for professional as well as skilled trades. Engineers, 
            architects, administrators and supervisors will be needed 
            by construction contractors. The expanding economy will 
            require use of foreign doctors, nurses, accountants and 
            many others professionals and the existing restrictions 
            should be lifted for them as well..
             v.  A sunset provision may be necessary for approval of a 
            waiver or other special visa category. This is important 
            for the local economy as well in that local workers should 
            always be favored over foreign. The sunset provision might 
            be tied to a certain overall level of construction volume--
            such as less than $250 million per annum of new 
            construction starts over a two year period.
    e.  Potential foreign workers need to be screened with background 
checks in their home country to ensure that undesirables do not slip 
into Guam as part of the workforce. Assistance from the federal 
government will be needed. Contractors will be responsible for skill 
assessments.
    f.  Few contractors on Guam now have worker accommodation 
conforming to current day standards. What is available is not adequate 
to meet anticipated demand. Camp type housing should be set up and 
operated by specialist contractors for the duration of major 
construction to make up for the difference. This approach would be less 
costly in overall sense as opposed to each construction contractor 
providing his own. Worker accommodation should be located separate from 
local residential communities.
    g.  Worker accommodation should include a clinic, recreational and 
other facilities to avoid overtaxing existing similar facilities on 
Guam.
    h.  There have been compliance difficulties in the past on Guam 
using non-immigrant alien labor. Guam's principal contractors want 
there to be a level playing field with all participants playing by the 
rules. Guam DOL will require support from the federal government on 
compliance monitoring and enforcement.
    i.  Management, engineering, administrative and supervisory 
personnel brought to Guam from the U.S. and elsewhere will have 
requirements beyond those of the workers. This is especially true since 
they will in many cases be engaged on family accompanied status. They 
will require higher level accommodation, medical facilities, schools 
and other services not now available in adequate supply. Some of these 
facilities could be made available by the private sector through 
encouragement of some kind. Because of timing, the federal government 
may need to incur some upfront cost with the idea of selling the 
facilities when major military construction is done. Some local private 
schools might be persuaded to expand in the near term to accommodate 
the temporary surge.
    j.  Guam Memorial Hospital is the only hospital that serves the 
civilian community on Guam. It is currently not JHACO certified and is 
in need of some upgrades. This matter needs urgent attention in order 
to not deter senior managers and engineers from living and working on 
Guam. On the other hand, a field hospital could be set up and utilized 
for the duration of the elevated level of construction.
    k.  Unskilled workers are available on Guam and none should be 
brought in from abroad. There is a sizable migrant community on Guam 
from FSM and with some training can be highly productive in unskilled 
positions. Some will over time move into the ranks of the skilled 
workforce. This also is a focus of the GCA Trades Academy. Utilization 
of this segment of the resident population is important to the local 
economy and the tax base.
    l.  Flights to and from Guam are becoming increasingly crowded. 
Another carrier could perhaps be persuaded to extend service from CONUS 
with direct flights to Guam and thus create a competitive environment 
that does not now exist.
    We trust the foregoing is helpful.
    Guam Contractors are following closely all news concerning the 
military buildup on Guam. We are hopeful that some clarity will emerge 
during the coming months on what can be expected. We, the board of 
directors of the Guam Contractors Association, offer our services and 
expertise to the Sub-committee on Insular Affairs in planning for this 
major construction boom that will change forever the way Guam does 
business and the way it is perceived by the world.
    Sincerely,
    Guam Contractors Association


                ,--                                   ,

        Jerold Johnson               President, Board of Directors
        James Martinez               Executive Director
        John Robertson               Chair, Government, Military and
                                      Labor Affairs Committee


    Attachment: GCA Trades Academy--A Brief Overview
                                 ______
                                 

                           GCA TRADES ACADEMY

                            A BRIEF OVERVIEW

                             (August 2007)

    The GCA Trades Academy, in affiliation with the Guam Contractors 
Association, is the principal provider of skilled trades training in 
construction and related fields on Guam. These two organizations are 
supported through further affiliation with a major contractors 
association and an educational institution on the mainland United 
States. The link between these affiliations is described below.
Guam Contractors Association (GCA)
    The Guam Contractors Association was founded in 1959 as a non-
profit association with a membership comprised of approximately 250 
construction industry and associate member organizations. GCA is the 
Guam Chapter of the Associated Builders and Contractors (ABC).
Associated Builders and Contractors (ABC)
    Associated Builders and Contractors (ABC) is a national association 
representing more than 24,000 merit shop construction and construction-
related firms in 78 chapters across the United States. ABC is the 
construction industry's voice with the legislative, executive and 
judicial branches of the federal government and with state and local 
governments, as well as with the news media. ABC was founded in 1950 
and became the fastest-growing association in the United States. Today, 
ABC is recognized as one of the leading organizations representing 
America's business community and the U.S. construction industry. ABC's 
activities include government representation, legal advocacy, 
education, workforce development, communications, technology, 
recognition through national and chapter awards programs, employee 
benefits, information on best practices and business development 
through an online contractor search directory.
GCA Trades Academy (GCATA)
    The Guam Contractors Association board of directors sponsored the 
incorporation of the GCA Trades Academy in September 2006 as a separate 
stand-alone non-profit organization. The GCA Trades Academy was 
established to provide a nationally recognized industry skills training 
center, support U.S. Department of Labor recognized apprenticeship 
training programs, and to support the skilled labor needs of 
construction contractors and related industries doing business on Guam.
    The GCA Trades Academy's programs include:
Craft Skills Training
    The Trades Academy maintains skills training programs using the 
latest Contren Learning Series developed by the National Center for 
Construction Education and Research (NCCER) and other industry-
recognized curricula to prepare interested participants for employment 
in the construction and construction-associated industries. This 
program was launched in October 2006.
Skills Assessment & Certification
    The Trades Academy will establish a skills assessment and 
certification program. The program is designed to assess and certify 
the skill level of workers using assessment criteria developed by the 
National Center for Construction Education and Research (NCCER). The 
Trades Academy already has staff trained and certified to administer 
the program. This program is expected to be launched October 2007.
Pre-Apprenticeship Training
    The Trades Academy maintains a craft-training program that support 
pre-apprenticeship programs using the latest Contren Learning Series 
curriculum to prepare interested participants for employment in the 
construction and construction-associated industries.
Apprenticeship Training
    The Trades Academy maintains a craft-training program that provides 
related classroom instruction for the Guam Contractors Association, 
Hawaiian Rock Products, and Dick Pacific apprenticeship standards. 
These apprenticeship programs are registered by the U.S. Department of 
Labor as authorized under the National Apprenticeship Act of 1937 
(Fitzgerald Act), as amended PL 75-308, 50 Stat. 664, 57 Stat. 518, 29 
U.S.C. 50, 50a, 50b.
Advanced License Training
    The Trades Academy will establish a training program to prepare 
personnel qualified for advanced licenses to successfully pass their 
respective licensure examinations. This program is expected to be 
launched in October 2008.
National Center for Construction and Education Research (NCCER)
    A decade ago, representatives from the nation's leading 
contractors, manufacturers, and construction trade associations came 
together to establish quality standards for industry certification and 
training.
    Organizations competing against one another in business forged 
partnerships to embrace these common goals--to provide quality training 
for craft professionals; to keep the workforce safe; to provide for 
career advancement through management training; and to improve upon the 
image of the construction industry as a career choice for young people. 
These goals resulted in the establishment of the not-for-profit 
educational organization, the National Center for Construction 
Education and Research (NCCER), affiliated with the University of 
Florida's M.E. Rinker School of Building Construction, located in 
Gainesville, Florida.
    With the support of a growing list of industry partners and its 
publisher, Prentice Hall, NCCER has evolved its training offerings from 
fifteen to over fifty different curricula, and has developed skills 
assessment tests for over 45 craft areas.
Accreditation
    As the accrediting body for the industry, NCCER has established the 
benchmark for quality training. Working in partnership with industry 
and academia, NCCER has developed a system for program accreditation 
similar to those found in institutions of higher learning.
    NCCER's accreditation process assures that students receive quality 
training based upon uniform standards and criteria. These standards are 
outlined in NCCER's Accreditation Guidelines and must be adhered to by 
NCCER Accredited Sponsors, such as the Guam Contractors Association. 
The GCA Trades Academy is an NCCER-accredited training unit, one of 
more than 500 training facilities in 50 states and eight countries.
Instructor Certification
    As part of its accreditation process, NCCER has developed the 
Instructor Certification Training Program (ITCP). This program ensures 
the uniform and consistent delivery of training. Through this process, 
NCCER certifies the Master Trainer. In turn, the Master Trainer 
certifies the Craft Instructor. The Guam Contractors Association 
maintains a Master Trainer on staff and there are now more than 60 
NCCER-certified Craft Instructors on Guam.
National Registry
    In an effort to provide students and craft professionals with 
industry-recognized credentials and assure national portability of 
skills, NCCER maintains a national registry with widely recognized 
credentialing and certification process. This National Registry 
provides transcripts, certificates, and wallet cards to students who 
successfully complete the Contren Learning Series through an 
Accredited Sponsor. The valuable industry credentials benefit students 
as they seek employment and build their careers.
Standardized Curricula
    In partnership with Prentice Hall, NCCER develops and publishes the 
Contren Learning Series. Built upon industry standards, this 
standardized, competency-based curriculum is taught nationwide by 
contractors, associations, construction users, and secondary and post-
secondary schools. At least 24 State Departments of Education recognize 
the curricula. Contren curricula are distinguished by unique training 
features:
    <bullet>  Competency-based and contain measurable objectives
    <bullet>  Developed by industry experts and educators
    <bullet>  Modular in format and can be used for task training
    <bullet>  Meets or exceeds Apprenticeship, Training, Employer, and 
Labor Services (ATELS) requirements
    <bullet>  Portable, industry recognized credentials
VALUES--MISSION--VISION
Values
    The GCA Trades Academy values:
    <bullet>  Corporate responsibility
    <bullet>  Equality
    <bullet>  Personal and vocational growth
    <bullet>  Excellence within our students, staff, and curriculum
    <bullet>  Student assistance via career and financial counseling.
Mission
    Our mission is to share with aspiring tradespersons the skills and 
knowledge required to advance in a variety of fields. We will offer 
financial aid and counseling assistance to those interested, and will 
guarantee equal opportunity employment to those who successfully 
complete our program.
Vision
    To be a self-sustaining, profitable, world-class regional training 
center, with a state of art facility handling at least 400-500 students 
per annum by the year 2012.
GOVERNANCE OF THE GCA TRADES ACADEMY
    The GCA Trades Academy is governed by a Board of Trustees currently 
made up of:
    John M. Robertson--Chairperson, Board of Trustees. Mr Robertson is 
a licensed professional engineer in Texas with 45 years management 
experience in construction and maintenance. He is currently president 
and RME of AmOrient Contracting Inc.
    William D. Beery--Vice-Chairperson, Board of Trustees. Mr Beery is 
a professional engineer in Hawaii with 30 years management experience 
in construction and maintenance. He is currently general manager and 
RME for Watts Constructors.
    Rita A. Edwards--Secretary, Board of Trustees. Ms. Edwards is the 
Assistant Director of Professional and International Programs (PAIP) at 
the University of Guam, which oversees the Professional Development & 
Lifelong Learning Center, Enterprise Development, and the English 
Language Institute.
    Monty A. McDowell--Treasurer, Board of Trustees. Mr McDowell holds 
a masters degree in electrical engineering. He served as an officer in 
the U.S. Navy for 22 years and founded Advance Management in 1990 where 
he remains chief executive officer.
    Graeme M. Ridley--Trustee, Board of Trustees. Mr Ridley has 25 
years experience in mechanical trades with advancement through 
education and examination equivalent to a bachelor's degree in 
mechanical engineering. He is currently manager of the mechanical 
division of Smithbridge Guam Inc.
    Herbert J. Johnston, Jr.--Education Director. Mr. Johnston has a 
bachelor's degree in education and a master's degree in public 
administration, both from the University of Guam. He is currently 
completing requirements for a doctoral degree in business 
administration. Mr. Johnston is a faculty practitioner with the 
University of Phoenix, College of Graduate Business & Management. His 
work experience outside of education includes fifteen years with Guam's 
only public water and wastewater system.
GOALS AND STRATEGIC PLAN
Some Goals of the Academy
    <bullet>  To foster a safe, productive and sustainable workforce of 
craft professionals on Guam through effective training and 
apprenticeship
    <bullet>  To build careers of a lifetime for young men and women of 
Micronesia that aspire to excel in a trade
    <bullet>  To support the construction and maintenance industry in 
the region during an approaching period of significant growth
    <bullet>  To be a vital and integral part of the public and private 
educational system on Guam for young people and adults
    <bullet>  To be the premier institution of learning on Guam for 
those wishing to pursue an upward career path in construction and 
related activity
Elements of the Strategic Plan
    <bullet>  Build on the long held accreditation from the U.S. 
Department of Labor for apprenticeship and training to improve the 
quality of skills in the region
    <bullet>  Build on the long term relationship with the Guam 
Department of Labor to improve the quality of life for citizens of the 
region
    <bullet>  Take full advantage of the accreditation and standardized 
curricula from the National Center for Construction Education and 
Research (NCCER) to offer current state of the technology training
    <bullet>  As a private non-profit institution, offer quality craft 
training and apprenticeship at affordable rates while being self 
sustaining for the near term and into the future
    <bullet>  Maintain the highest standard of instruction for up to 
500 beginning students per annum through utilization only of NCCER 
certified craft professionals in the classroom and workshop training 
environment
    <bullet>  Cooperate with contractors on Guam for fulfilling 
apprenticeship requirements on the path to journeyman status and beyond
    <bullet>  Cooperate with the University of Guam and Guam Community 
College in career advancement for persons at all levels of potentiality
    <bullet>  Establish the academy as a permanent institution and 
provide highest quality training for trades beyond the period of heavy 
workforce demand in the region
FUNDING FOR THE GCA TRADES ACADEMY
Startup Funding
    Initial startup funding for the Trades Academy came from the Guam 
Contractors Association and from voluntary loans from supporting 
members. The Guam Contractors Association assumed most costs incurred 
prior to startup, including especially the Education Directors salary 
and legal fees for establishment of GCA Trades Academy as a non-profit 
institution of learning. After startup, the Guam Contractors 
Association continues to assume the personnel costs of the Education 
Director, however, these costs are invoiced to the Trades Academy with 
no specific pay-back terms. Costs associated with the initial order of 
student texts and instructional material were approved and paid from 
GCA funds, which are to be reimbursed by from the proceeds of the sale 
of textbooks.
Tuition Pricing Strategy
    The pricing strategy is based on the sale of individual training 
modules. Text books and workbooks are sold separately at NCCER retail 
rates. Additionally, lab fee are assessed on those modules with 
extensive shop work to cover the cost of material, supplies, and 
equipment use.
    Tuition fees are set at the minimal level to recover all direct and 
indirect expense incurred for instruction. Instructors are paid a flat 
rate for each module and this is a major cost included in tuition fee. 
Other costs include classroom rental, insurance premiums, electricity 
usage, record keeping and a proportionate share of business overhead. 
For the average student, tuition fees will not exceed $2,500 per year.
Target Market
    Employer-sponsored students. These students are workers in the 
existing workforce needing to be upgraded through training and 
certification. The employer assumes some, possibly all, costs for 
tuition and supplies.
    Indentured Apprentices. These students are employed under an 
apprenticeship program and are taking classes to fulfill their related 
course instruction requirements. The employer assumes all of the costs 
of tuition and supplies.
    Self-sponsored students. These students are individuals that can 
afford to pay tuition and supplies. They anticipate being picked up for 
employment by a contractor after getting through the basics and 
possibly thereby becoming employer-sponsored.
    Note that employers can expect to receive a credit against Gross 
Receipts Tax of 50% of authorized apprenticeship training expense 
actually incurred, for those apprentices that complete annual 
requirements through an accredited apprenticeship training provider.
    Government-sponsored students. These students are individuals that 
meet the criteria for government programs that provide educational 
financial assistance, such as through AHRD, Veterans Administration, 
and Department of Defense. In addition, a portion of amounts paid by 
contractors into the Manpower Development Fund (MDF) should be made 
available for apprenticeship training provided by the GCA Trades 
Academy.
    Privately-sponsored students. These students are individuals who 
have applied for and receive private funding assistance or 
scholarships, such as through the Guam Chamber of Commerce or the 
Center for Micronesian Empowerment.
Founders Guild
    The GCA Trades Academy Board of Trustees has agreed to the 
establishment of the ``Founders Guild'' for the purpose of securing 
funds for strengthening the financial base of the academy and in 
particular to finance the build-out of a training facility. The 
Founders Guild recognizes those that have and will provide voluntary 
contributions or soft loans for this purpose.
    The GCA Trades Academy recognizes that there are many in the 
community that have openly expressed support for the mission, vision, 
and achievements to date of the academy. The GCA Trades Academy is 
recognized as tax-exempt by both the local government of Guam and U.S. 
Internal Revenue Service.
    At the onset of establishing the GCA Trades Academy, five members 
of the Guam Contractors Association pledged $10,000 each for startup 
capital: AmOrient Contracting, Perez Bros, and Watts Constructors, 
Hawaiian Rock Product and Maeda Pacific. In June 2007 the First 
Hawaiian Bank Foundation provided a grant of $10,000. Taniguchi Ruth 
Makio Architects prepared the preliminary plan for the academy as an 
in-kind contribution.
Training Facility In Tiyan
    The proposed GCA Trades Academy training facility in Tiyan is to be 
developed by renovating and fitting-out the former military operated 
``Jet Lanes'' bowling facility for the new purpose.
    The facility is now in private hands, having been returned to the 
family of the original land owners. The owner is willing to lease the 
facility on favorable terms to the academy for 20 years with the 
possibility of extending the term as will be determined at a future 
date. The lease agreement is currently being drafted.
    The facility has a net floor area of just over 11,000 square feet. 
The undeveloped area at back side is owned by the same land owner and 
can be used for training of heavy equipment operators. Roads in the 
vicinity are lightly traveled and are therefore suitable for initial 
truck driver training.
    Planning calls for co-locating the Guam Contractors Association 
administrative offices at this site upon completion of renovation. The 
Center for Micronesian Empowerment will also occupy space in the 
facility and they will provide students to be trained in construction 
and related trades. All occupants will share proportionately in the 
costs of leasing and operating the facility.
[GRAPHIC] [TIFF OMITTED] T7527.001

                                 .eps__
                                 
    Mrs. Christensen. Thank you, but your full testimony is in 
the record and I know the staff has read it, and I've read the 
first part, not the appendix, so I have a little bit more to go 
on. But we've read it.
    Thank you for your testimony, and I'll now recognize myself 
to begin the questioning.
    I'll start with you, Senator Cristobal. Your testimony is 
very clear and very moving. Polls, as the one Mr. Ruder quoted, 
and there are others, I believe, have shown 75 percent or more 
of the people really support the military buildup. To what do 
you attribute the support? Do you think that there's any place 
at which the two minds can meet? And, would your possible 
alternate process, the alternate process of that you mention in 
your testimony, would that be an avenue for it?
    Ms. Cristobal. I had mentioned, Madam Chair, that we would 
like to see a process, a separate process, be engaged by 
Congress to basically ask the Chamorro people to make this 
informed decision as to whether we want the military buildup, 
and that's in context with our status as an unincorporated 
territory and as a non-self-governing territory.
    Does that answer your question?
    I'm not sure if this survey was a scientific survey or not, 
Madam Chair.
    Mrs. Christensen. Yeah.
    Well, I think it was within 4 points, plus or minus 4 
points accuracy.
    Well, let's just say that generally it is felt, even 
forgetting the poll, but the majority of people of Guam want 
the military buildup, maybe with conditions, but they want the 
military buildup. Your position is opposing the military 
buildup. Is there any place that you see that those two points 
can come together and meet and find some kind of consensus?
    Ms. Cristobal. Let me just qualify. I think we need to take 
note of the fact that surveys like that would definitely come 
up with a favorable result.
    Basically, because we now comprise less than--we are about 
40 percent of the population, and as you continue to bring in 
U.S. citizens and other people that vote or that have these--
that are part of the survey, you will continue to get favorable 
results. We have been militarized for so long. We lived with a 
very dependent mentality. We realize that. But we need, like I 
said, we need to have an informed decision before we vote on 
this. And that's why I indicated that it must be an informed 
decision.
    We need to be educated about our alternatives. We know that 
international conventions say that we are allowed to determine 
a political status, the three options on U.N. Resolution 1541 
that basically says we have the option of determining whether 
we want to be independent, freely associated, or----
    Mrs. Christensen. Sure.
    Ms. Cristobal --in the words of U.S. citizens, whether we 
want statehood or full integration into mother country.
    So, these--Guam does not have a Chamorro history either. We 
don't have--we are totally a colonized people, and surveys like 
that would produce those kinds of results. It is just not 
surprising at all.
    Mrs. Christensen. OK. We would probably try--thank you for 
your answer. We will probably try to come back for some follow-
up questions.
    Mr. San Nicolas, two-part question in a way. Are you 
supplying fresh produce to the military now? And, how major an 
increase in production, change in methods, new form--what is 
the potential to add manpower in this area? Are there programs 
in the schools that promote agriculture as an industry and as a 
profession, either in high schools or in the community college 
or University of Guam?
    Mr. San Nicolas. Yes. Chairwoman Christensen, with regard 
to the first part on your question on the market with the 
military.
    Right now, the communication between the local farmers and 
the military is very minimal, and I do not know if any 
communication or any dialogue is going on. So, that's why I am 
recommending that the military partner with the Guam Soil & 
Water Conservation District Board, because we represent the 
farmers from the north.
    The Northern Shore and Water Conservation District Board 
represents the farmers of the north; and the Southern Soil & 
Water Conservation District Board from the south represents the 
farmers from the south. And, with that, I think there's a 
potential benefit here with the farmers of Guam and the 
military to provide fresh, local produce, and fish, and shrimp, 
aquacultural products.
    And along with that, the food security issue. I think it is 
more incumbent on the military to ensure that we grow and take 
immediate action regarding a food security. We read it in the 
newspaper, all those imports are coming in from foreign lands 
and are causing a lot of our problems. So, I believe it is in 
the best interest of the military and the farmers of Guam to 
partner in this area, and see how we can help each other 
increase the potential and ability for the farmers of Guam to 
use that military market.
    With the local community, as far as the market, we have 
some legislation in place right now that requires our 
Government of Guam agencies to buy local agricultural products. 
However, there's a snag there, because recently there is 
another law that came in place that the local farmers have to 
meet USDA standards. And a lot of the local farmers never went 
for any kind of workshop or dissemination on that kind of 
legislation.
    And these are the things, I believe, that we need to visit 
with our good senators here in Guam, and see if we can maybe in 
the future, before legislation is passed like that requiring 
the farmers of Guam to meet USDA standards before we can market 
to our school cafeteria, I think they should have checked that 
with the local farmers and come up with some proposal and give 
us some timeframe, where we can be educated on what is the USDA 
standard. Because after all, yes, we do want food security for 
our children and for our teachers, and fresh produce, but we 
need to work together on this.
    With the education part, currently we are, with the Guam 
Soil and Water Conservation District Boards, along with the 
environmental education, we started what was called the Adopt a 
Watershed Project to entice teaching environmental education 
and farming issues through the Inarajan Elementary School as 
pilot projects and in Talofofo and Merizo. So, of course, the 
University of Guam here has education in that area for majors, 
I believe, and minors in the agricultural majors.
    Thank you for the question, Congresswoman Christensen.
    Mrs. Christensen. And if I remember General Bice's response 
to a question about buying local produce, I think from the 
Congresswoman, he was very open, so this seems like there's a 
possibility for that to become a reality.
    I'll recognize Ms. Bordallo for her questions now.
    Ms. Bordallo. Thank you very much, Madam Chair.
    Senator Cristobal, I don't have prepared questions for you, 
but you mentioned the status, and I want you to know that this 
would be a local endeavor, and once the people of Guam have 
made the decisions, that we will take that message back to the 
U.S. Congress.
    Guam spent nearly 10 years in this effort and a good $10 
million. I sat on the Commission as well. So, I'm very 
familiar, and I want you to know that whatever the people of 
Guam decide, I will carry that to Washington, D.C.
    But I want to thank you for your very distinguished career, 
and as a past member of the Commission of Self Determination.
    I do have a question for Mr. San Nicolas. We were just 
talking about this--the USDA standards, is that local law?
    Mr. San Nicolas. I believe it is a local law, a year or so 
ago. Somebody had the bright idea to incorporate that and made 
that a regulation for the farmers of Guam.
    Ms. Bordallo. Well, then I guess your efforts have to be 
with the local Legislature.
    Mr. San Nicolas. Yes. We had good senators that were 
working for the farmers to ensure that we capitalize in the 
market, you know, with the Government of Guam agency, and then 
somebody came up with that bright idea to put that burden on 
the farmers.
    I'm not against quality, meeting all the requirements, but 
I believe communication should be given to the farmers and 
maybe some kind of orientation before those kind of laws are 
put in place. And I also believed that public hearings maybe 
should have been afforded, especially to the farmers.
    Ms. Bordallo. Mr. San Nicolas, I've always been very 
supportive of the farmers and agriculture. My late husband was 
a very strong leader in that area. The Green Revolution, we all 
remember that.
    You mentioned the strong desire of our farmers to gain 
access to expanded military markets on Guam, and I think I got 
from your testimony that it is not at its peak definitely now. 
And I concur with the desire to have locally grown fruits and 
vegetables sold in our commissaries and supplied to the ships 
that pull into port, and that come to our region for training 
exercises.
    Can you give us a sense of what the local production 
capacity is at this time? Do we have the capacity to provide 
the fruits and the vegetables to the commissaries and the 
ships, and so forth?
    Mr. San Nicolas. Congresswoman, Madam Bordallo, I'm glad 
for that question.
    Yes, we definitely have that capacity. What we need is very 
similar to the Chamber of Commerce and other members that have 
come before you. We need to partner with the military, we need 
to partner with our local government, we need to partner with 
the hotel industry, so that we can motivate the farmers of Guam 
to maximize their productions.
    Right now, the major problem, or one of the major problems, 
is marketing our product. So, I believe that starting with the 
military, if we can partner and have some kind of dialogue, 
similar to the support that the local people and the elected 
officials are supporting the Chamber of Commerce or the tourism 
industry in helping any way to enhance the--like for example, 
the production and the imports that we are faced with, and the 
pests that are continually coming, and we call those invasive 
species; and those are the things that our local government and 
the Federal Government can assist us in combating the negative 
effects and the cost for that.
    But, yes, we definitely have the capacity if we are given 
the support and assistance that are needed with our endeavors.
    Ms. Bordallo. Mr. San Nicolas, you mentioned marketing, I 
agree with that. I know that our crops do not include all types 
of fruits and vegetables. We are heavy on the melon and--some 
of the others, but would you say that, right at this time, we 
do have the capacity to provide the produce to these areas?
    I mean, I'm just thinking. I mean, would you----
    Mr. San Nicolas. Yes.
    Ms. Bordallo. You would say yes to that?
    Mr. San Nicolas. Yes.
    Just for example, for the aqua-culture farm that my family 
operates. If the military or the hotel industry would buy from 
us, we can meet their demands, especially in the local 
industry, and the same with the local farmers.
    The main reason the farmers are shy from maximizing their 
production, again, is because the market is very limited. And 
also the imports, the competition from the imports----
    Ms. Bordallo. And the USDA?
    Mr. San Nicolas. Yes, definitely.
    So, those are the challenges that we need collaboration 
with our Federal and local officials to help improve those 
issues that we face.
    But we got good farmers out there that can really maximize 
their production, but right now we try to just meet whatever 
market demand that is there, given the situation that we are 
facing with the challenges of the imports and the pest 
problems, those invasive species.
    Melon can grow beautifully in Guam. Papaya can grow 
beautifully in Guam, and go year round. But we need to have 
support, such as the pilot projects that are happening 
throughout the island. We need those high breed papayas that 
are more resistant to the invasive species. But we do have the 
capacity to do that. We need the support from our, for example, 
our local Department of Agriculture. Now, we are partnering 
with the University of Guam and we are doing very good with the 
University of Guam.
    Ms. Bordallo. Good.
    Mr. San Nicolas. And so we are just looking to also 
capitalize on this opportunity with the military buildup here.
    The investment that they're having here, I would like 
definitely that they look into the farmers of Guam and see how 
we can partner to have this mutual benefit that we can provide 
to them.
    Ms. Bordallo. What about our schools?
    Mr. San Nicolas. Our schools are--that's one thing I think 
that we need to look into the current legislation that I was 
informed of, and I think we need to revisit that legislation 
and see how we can improve on that.
    Ms. Bordallo. Very good.
    Mr. San Nicolas. Yes.
    Ms. Bordallo. Very good. Thank you, Mr. San Nicolas.
    I do have more questions, if you're going to call a second 
round.
    Mrs. Christensen. Yeah. We will do another round. Thank 
you.
    Mr. Ruder, as we've met with different groups, and perhaps 
on the very first day, we began to hear that Japanese, Korean, 
and other companies outside of Guam who are already beginning 
to come in and position themselves to take advantage of this 
buildup, that they seem to know more than the local businesses 
here. Are those concerns some that the Chamber also shares? 
And, if so, how do you see the Chamber working to position 
themselves to ensure that the local businesses will have an 
equitable share, be very competitive, to benefit from the 
buildup?
    Mr. Ruder. Thank you, Madam Chairwoman.
    Sure, there's concern, but having said that, borrowing from 
what Mr. Lujan was saying, there are certainly opportunities 
for Guam businesses and local businesses in particular to work 
through Federal and local organizations that are existing to 
complete the process of preferred designation status, whether 
it'd be ADA certification or small business, women-owned, 
minority-owned businesses. So, we think those opportunities are 
out there.
    The Chamber is very active in that regard through the Small 
Business Committee at the Guam Chamber of Commerce, and working 
actually very closely with Mr. Lujan's office, as well as SPDC 
out at the University.
    Mrs. Christensen. Do you feel that there's information 
that's being shared outside of Guam that you're not receiving?
    Mr. Ruder. My inclination, and I've learned a lot here this 
morning, again, thank you for having me, but my inclination is 
that--and I think as you stated, this is a long process, and I 
trust the folks that are involved both locally, as well as on 
the Federal level. And I trust that, as information becomes 
available, that it will be shared and that the opportunities, 
in particular in our case for local small businesses, will 
present themselves.
    Mrs. Christensen. OK. Thank you.
    Ms. Leberer, much has been made about--in the initial 
panel, by the military that the NEPA process and the EIS will 
afford the public the opportunity to have their concerns about 
the--all of the impacts, but in particular, their concerns 
about the negative impacts of the buildup on their culture and 
way of life addressed. Do you share this view?
    Ms. Leberer. Thank you for the question, Madam Chairwoman.
    And I think it is--there's a couple of answers to that. I 
think that, there's one EIS for the relocation, but there's a 
myriad of projects that are occurring in this entire military 
buildup, and they are not all connected. And so in order to 
really look at cumulative impacts, I think that that's not 
being met.
    Another problem that, they did have open houses, DOD did 
have some open houses, with some very general, very vague 
information for the public, and the public was asked to comment 
sort of on anything they could think of that might be an issue. 
And then that was incorporated, and as General Bice pointed 
out, I believe he said 900 comments were received. But those 
are received on sort of the general idea of relocation of the 
Marines and not on very specific information.
    And when this gets to the point where the EIS is--the draft 
EIS has been released with more specific information and 
alternatives, then the local agencies and the community will 
have a very short timeline to comment on that, and it will have 
already been a little too late for some--if new technologies 
arise or new alternatives come too late, then even DOD's hands 
are a bit tied and they won't necessarily be able to address 
those.
    Mrs. Christensen. How would you recommend we deal with 
that?
    Ms. Leberer. Perhaps some enabling legislation from 
Congress to allow DOD a little more flexibility in the EIS 
process to really incorporate input and alternatives throughout 
the process might help.
    I can provide more substantial information----
    Mrs. Christensen. And do you see any role for the local 
government and the Legislature and----
    Ms. Leberer. Well, the local government is trying very hard 
to review everything that they can. And in my written 
testimony, I talked--and I alluded to the need for increased 
capacity for the local agencies.
    The local resource agencies are really capacity strapped in 
terms of human resources and financial resources, and so some 
of what Congress can do to help too would be to increase 
allocations for existing Federal grants and also to release 
some of the DOD project funding in advance, so that local and 
Federal regulatory agencies can use those funds to help really 
assess the alternatives in the impacts.
    But I think that the local agencies themselves are trying 
very hard to be a part of this process, but they're just really 
capacity strapped.
    Mrs. Christensen. Thank you.
    With your permission, Madam Bordallo, I'm going to just ask 
my last question.
    Ms. Bordallo. OK.
    Mrs. Christensen. And then I'll turn to you and let you 
complete yours.
    Mr. Robertson, this is a problem that we face in the Virgin 
Islands. You mentioned that some of the people who could 
probably benefit from the buildup by receiving the training and 
becoming newly employed with their new skills are not 
interested in working in jobs that require manual labor.
    Is there anything that you see that can be done or is being 
done to increase the interest of that group of individuals in 
coming into this workforce and taking advantage of the 
opportunities?
    Mr. Robertson. Yes. We did commission a study a couple of 
months ago on that very question, and we realize that we have 
to put together an ad campaign, maybe with the radio, 
newspaper, television components to it and to try to change 
attitudes to some degree, because there is a mindset on the 
island that construction is a dirty business and is supposed to 
be done by foreigners from Asia. And it is just not so, because 
I'm from the construction industry myself. I'm also a 
professional engineer, but it is a very good industry to be in.
    Mrs. Christensen. It pays well.
    Mr. Robertson. A person can earn a lot of money, more so 
than in lot of other cases.
    So, we have to change that attitude.
    Mrs. Christensen. Thank you.
    Ms. Bordallo?
    Ms. Bordallo. Thank you. Thank you very much, Madam Chair I 
will just run through the rest of my questions. Is that all 
right with----
    Mrs. Christensen. Yes.
    Ms. Bordallo. All right.
    Mr. Ruder, I have a question for you. The visitor industry 
must be nourished and protected in the years ahead. You suggest 
expanding the Guam-Only Visa Waiver Program. What specific ways 
can we improve this program, and should the visitors' stay be 
expanded from 15 to 30 days? How can we streamline the process 
to add new visitor markets to this program?
    Mr. Ruder. Well, I think certainly recognizing the issues 
is a good place to start the discussion. For example, Guam once 
enjoyed a Guam-Only Visa Waiver for Korea, which was exclusive 
to Guam, that's now been extended to the continental United 
States.
    Ms. Bordallo. That's correct.
    Mr. Ruder. That's certainly going to impact the visitor 
industry.
    So, understanding that, we think that we need to look 
outside of our core markets and try to expand the Guam-Only 
Visa Program to some more of the emerging markets in the Asia-
Pacific region.
    Certainly, the first market that comes to mind is China, 
and I know that's been discussed, and it is a discussion that's 
ongoing.
    Ms. Bordallo. How many days?
    That's 15 to 30? That's the timeframe?
    Mr. Ruder. Certainly the--within reason, the longer that we 
could have our visitors on Guam, the more beneficial it would 
be for the community, within reason, recognizing all the other 
concerns.
    Ms. Bordallo. My next question, Mr. Ruder, is, it is 
definitely noted that the business environment will become very 
competitive during this buildup, and it will be very important 
for Guam's companies, small, medium, and large, to participate 
in the buildup. The Chamber can recognizably fulfill an 
important role in ensuring that Guam's companies are prepared 
to successfully compete for construction and service contracts, 
subcontracts, and other related work.
    Can you explain what the Chamber may be doing to help 
Guam's companies prepare to successfully compete in a faster 
pace, more competitive business environment, and is the Chamber 
helping facilitate partnerships between off-island and Guam-
based firms?
    Mr. Ruder. Thank you very much for the question, 
Congresswoman Bordallo.
    Certainly the Chamber for many, many years has been engaged 
with the local business community, particularly the small 
businesses. Our Small Business Committee is an extremely active 
committee that involves all sectors of the community from the 
University to GCC, to our very members. So, we hold the number 
of ongoing seminars. In fact, there's a seminar this Friday, 
not dealing specifically with the Federal Government 
procurement issues, more in regards to advancing employee 
development within our own small businesses.
    So, that's one example, but as I stated earlier, the work 
that is done ongoing with the SBA and SPDC are two of our very 
good partners in this endeavor.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Ruder.
    Mr. Ruder. OK.
    Ms. Bordallo. Ms. Leberer, to your knowledge, has the 
Nature Conservancy established a working partnership with the 
Department of Defense at any particular instillation and with 
such instillation's host community in support of conservation 
goals? In other words, is there an example out there that we 
can turn to where DOD might have or is currently working in 
strong partnership with TNC? Are there conservation-oriented 
organizations in a local community in the area of environmental 
management? Are there lessons to be learned here or a model to 
follow in some sense with respect to what we are facing here in 
Guam?
    Ms. Leberer. Thank you for the question, Congresswoman.
    And, yes, I am not familiar with the specifics, but the 
Nature Conservancy in the mainland has several state programs 
that work with Department of Defense installations.
    I believe Hawaii is an example. And I think that they have 
also worked with the local governments and communities.
    But I think that I would also like to reemphasize what I 
started my testimony with, that the Micronesia program works a 
little differently than the state programs. And so it 
certainly, I think that we could look to some of those as 
potential models, but they may not work entirely as 
appropriately for Guam, but it is certainly something that we 
would be open to exploring, but only with the expressed 
invitation of our local partners on Guam, the local government, 
and in consent for consultation with the communities.
    Ms. Bordallo. Another question I have, given your work in 
the islands and your professional experience, can you comment 
on how DOD is currently controlling for invasive species on 
Guam and in the region? Are there areas for improvement, and 
can you give us some specific ideas for how invasives can be 
controlled, given the buildup plan?
    Ms. Leberer. I focused on invasive species for the past two 
years, but in my prior life in the Government of Guam, I worked 
with many of the agencies that are trying to control and 
eradicate, in the particularly the brown tree snake in Guam, 
and I was also present when the results of the Brown Tree Snake 
Commission were presented in 2005. And I believe one of the 
biggest challenges in regards specifically to the Department of 
Defense was a bit of challenge with communication and 
coordination. I think that has improved since the results were 
released. I think they definitely have a huge role to play.
    The House, the U.S. Department of Agriculture's Wildlife 
Services, the APHIS Program, and they are really critical in 
helping us to prevent the spread of the invasive species off or 
on Guam. I think prevention is the key. Prevention is much more 
cost effective than control and eradication. It costs Guam over 
$10 million--it cost Guam and Hawaii, and in other places, over 
$10 million a year to try to control and eradicate the brown 
tree snake.
    I think there are certain things that Department of Defense 
can also implement, like in the case of marine invasives. They 
don't have a built management plan in place apparently, and 
that's something that they also could help our Port Authority 
to implement. That's something they could implement. They are 
considering training exercises in the Freely Associated States, 
and that will increase the risk of marine invasives traveling 
through village water.
    So, I think that prevention is the key. Congress can help 
with infusions of support for a rapid response and prevention 
and quarantine programs, and all that.
    Ms. Bordallo. Thank you. Thank you.
    And I have one follow-up to Mrs. Christensen's line of 
questioning. Is the work and the report prepared by the 
Governor's Civilian-Military Task Force Report as broad and as 
in-depth to be an adequate response during the comment period 
on the EIS?
    Ms. Leberer. Again, I think that it was a good response to 
the current level of information that was received, but I think 
that even the Department of Defense themselves, things have 
been changing rapidly and information isn't always as available 
to the local resource agencies. And, in the words of Department 
of Defense, I don't think they always know exactly which 
projects are passed. But I think the earlier that all of the 
information is available, the better the review would be for 
all of us.
    Ms. Bordallo. Thank you.
    And, a couple of last questions for Mr. Robertson. In your 
mind, what would you consider a successful skilled trade 
training program to look like? Congresswoman Christensen 
mentioned this, but what level of financing would it need, how 
many students would it need to enroll in order better meet the 
needs of the buildup?
    And in your testimony, we heard that the response just is 
not good, and I think you said that it is because we are so 
used to foreign workers coming in that----
    Mr. Robertson. Right.
    Ms. Bordallo --we don't feel that. And I agree with you 
wholeheartedly. Construction jobs and blue collar workers are 
making far more money than professionals throughout the United 
States.
    So, can you answer that for me?
    Mr. Robertson. Yes.
    Our cost of operation is actually quite low, because we 
have a low overhead, and so the figure I gave you of $2,500 to 
$3,000 per year, per student, is a good number.
    In addition to that, in some cases, there might need to be 
a stipend given to the trainee, because maybe he needs to 
sustain his family while he's studying.
    But also at the same time, we are looking at the people 
getting jobs either rapidly, so they'd be drawing a salary from 
their employer, which would be a percentage of the total, 
starting out 60 percent of wage, then working up to a 100 
percent when they complete the journeyman status.
    And we, in our Academy, don't want to grow so fast that we 
lose control of what we are doing. So, we would like to get up 
to a hundred fairly soon, but we need a facility to do that, 
and then get to 200 and then 500, and we are certainly willing 
to go beyond that. But even 500 people coming into the program, 
we are looking at 3 or 4 years to actually complete all the 
study and all of the OJT to become an apprentice. So, it 
doesn't contribute mightily to the numbers needed for 
construction among the journeymen.
    Ms. Bordallo. Well, I think it is important that we get the 
word out in the community, and I think that if you run this 
through radio and television, this is all public service ads on 
their part, hopefully. But I think that's what it needs. It 
needs to get the word out throughout the island.
    Now, my last question, can you generally explain for us any 
GCA held positions on prevailing wage rates for workers, and 
also on the issue of foreign labor? Are there any particular 
concerns or overviews of the Associations that Federal 
partners, Congress, and the local government, should keep in 
mind as the planning continues?
    Mr. Robertson. A very good question, thank you for that.
    We have been working with the local Department of Labor, 
and we have recently come together and agreed on some rates. We 
are rationally increasing the level of pay to most of the 
trades. And this would be payable to the H2B workers, as well 
as a minimum for the local workers.
    At this point in time, we don't see a need for your office 
to get too deeply involved in that. We don't want to raise the 
rates too radically because it would affect not only our 
industry, but also affect other businesses and industries on 
Guam, because it would draw people from those industries over 
the construction and disrupt perhaps their activity. We don't 
want to do that.
    Could I possibly respond to a question given to Mr. Ruder 
awhile ago?
    Ms. Bordallo. Surely; surely.
    Mr. Robertson. And that is about dissemination of 
information.
    And I do know from a very reliable source that the Minister 
of Defense in Japan did have an Industry Forum on the 3rd of 
August. I don't know what was discussed, but I was told about 
it a few days before it happened.
    And in addition to that, I know reliably that an 
architectural firm from Japan visited Guam a few weeks ago, and 
they had a contract from the Ministry of Defense to begin doing 
preliminary designs for the Marine Corps. And it is possible 
they're just doing some preparatory work, and I've asked some 
of the people of JGPO. They don't know anything about it. So, 
apparently they're just trying to get a head start on it.
    But I would like to add quickly that there are a lot of 
rumors running around, and people sometimes give out what is 
really truly rumor as fact, like the Koreans going to be doing 
all this work with the Japanese, and I don't think there is any 
substance to it at all.
    Ms. Bordallo. You know, I'm glad you brought that point up, 
Mr. Robertson, because I think that is the core problem to some 
of this dissension here, is people are just listening to anyone 
coming up, talking this and that without any authority. So, I 
think if we just hold together until official word comes out, 
that we will be a lot better off as a community.
    So, again, I want to thank you all for being here as 
witnesses. Thank you for your testimony.
    I yield back.
    Ms. Cristobal. Madam Chair, may I?
    Mrs. Christensen. Senator Cristobal.
    Ms. Cristobal. Yes.
    Thank you, Madam Chair.
    I just wanted to get back to your question earlier, because 
it kind of took me aback, your question with respect to kind of 
having some kind of middle ground between the Chamber of 
Commerce's survey and what I feel the Chamorro people----
    Mrs. Christensen. And if I could I just interrupt you for 
just a minute.
    And it is not just a survey. I referenced that, but it is 
the--I think it is a general consensus that most people support 
the military buildup. So, if we could get away from the survey 
for a minute.
    Ms. Cristobal. OK. Well, that's fine.
    Madam Chair, just, I recall looking at your website and I 
remember seeing that you do have the purview of the full 
political development of our people. And it just occurred to me 
that it is really kind of unfair to ask the Chamorro people to 
resolve this unresolved issue of political status, and I think 
that the influx and rather the planned military buildup 
presents a missed opportunity if Congress does not take it upon 
itself, because Congress is the ultimate authority that will 
determine the civil rights and political status of the native 
inhabitants according to the Treaty of Peace of 1899. And it 
just dawned on me that it is really unfair. I don't think it 
should be continuously a local initiative.
    We, like our Congresswoman has stated, spent enough money 
to try and attain some kind of standing through a political 
status, and we, I was also part of the negotiations that 
occurred in the latest bout, and that was not successful. So, 
we have had some failed Congressional hearings, we have had 
some failed local initiatives to the local leadership here. I 
think it is time for Congress to step up and do this for----
    Mrs. Christensen. Well, if you could be more specific----
    Ms. Cristobal --for us.
    Mrs. Christensen. This is a little off topic, but what is 
it that you would have Congress do, because the people of 
Guam----
    Ms. Cristobal. Here we have----
    Mrs. Christensen --like the people of the Virgin Islands 
are fully authorized to begin a process and to complete that 
process of self-determination.
    We don't--I have this argument with Puerto Rico all the 
time. They don't need to come to Congress to have a referendum 
to decide their status. So, what is it specifically that you 
would want Congress to do?
    Ms. Cristobal. Well, in the U.N. Charter, the United States 
has the obligation to promote the economy of the indigenous 
people and to usher in the status options. So, how do we get to 
that point without the help of the administering power?
    And at the U.N. level, Madam Chair, the U.S. has become 
increasingly transcendent. They refused to participate. And it 
has become very difficult for those of us who go up there, like 
I said, where I'm totally unbudgeted. I think this is a 
government function, Madam Chair.
    Mrs. Christensen. Well----
    Ms. Cristobal. It is not a local indigenous people's 
function. We have been, for 300 years, living under military 
rule. And all the three rulers have always stated that they 
have to maintain us for military purposes and control. We need 
to move away from that.
    Mrs. Christensen. Well, as I said, this is related 
because----
    Ms. Cristobal. It is.
    Mrs. Christensen --this decision is taking place in an 
unincorporated territory, although I do not ascribe to the 
position that the territory is being treated differently from a 
state should this happen, because I think we can find examples 
that would support my position that whether it was state or 
territory, the Department of Defense would be undertaking the 
process in the same way.
    But I think that when we go back, we are dealing with this 
with Puerto Rico. The Virgin Islands is embarking on an 
entirely different process right now of just drafting a 
constitution for us as an unincorporated territory. I think 
status will follow.
    But perhaps we will discuss with our Committee whether we 
ought not to hold some hearings to hear from the territories 
what--where they are and what they would like to see happen. 
So, that would be a separate hearing that we would consider 
doing----
    Ms. Cristobal. I think that would be quite well, Madam 
Chair.
    Mrs. Christensen. I hope that you didn't also want to 
suggest that because you are an incorporated territory, the 
people of Guam were powerless to advocate for change and be 
successful in making change happen.
    Ms. Cristobal. Obviously we haven't, because we have had 
all our local initiatives that have failed at the Congressional 
level, Madam Chair. And we have a people here with a 4,000-year 
rich history, and we want to continue. Our numbers are 
continually diminishing and with the influx of people, our 
votes are being diluted.
    When I attended the meeting with General Lee, I pointedly 
asked him if he would allow U.S. citizens to participate in a 
vote of self-determination for the Chamorro people, and he said 
``yes,'' that he would. So, obviously there is plan to dilute 
our vote. I mean, it is absurd to think that U.S. Armed Forces 
people are going to be allowed to decolonize a colony.
    Mrs. Christensen. OK. Well--I thank you.
    Ms. Cristobal. Thank you, Madam Chair.
    Mrs. Christensen. The Congresswoman would agree with me 
that we will go back and discuss what having--where we go from 
here on that particular issue.
    At this point, I want to thank the witnesses for their 
testimony and for their very comprehensive answers to our 
questions.
    The members again may have some further questions, which we 
will submit in writing, and ask you to respond in writing too.
    And I'd also like to remind everyone that the hearing 
record will be open for ten days for the inclusion of any 
written testimony, and testimony should be e-mailed to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec85829f99808d9ec28b998d8184898d9e85828bac818d8580c2">[email&#160;protected]</a>
house.gov.
    If there's--oh, yes. Let me just make a few close--would 
you like to make any further closing comments?
    Thank you.
    Well, in my opening statement, I said that today's hearing 
would be the start of the Congressional record, and the 
Congresswoman also said that the start of the Congressional 
record on the potential U.S. Military buildup of Guam and the 
challenges facing this community with the representatives from 
the Federal and local governments, as well as representatives 
from the community voicing both support and concerns.
    I believe that we've gotten off to a good start of 
incorporating a myriad of concerns and opinions. Over the past 
few days, I've received a full briefing from the Joint Guam 
Program Office, the U.S. Marines and the U.S. Navy, as well as 
the Air Force, on their plans as they are now being developed 
to relocate Marine forces to the island from Japan, and for 
other movement of forces and assets that will impact your 
community.
    In today's public testimony delivered by General Bice, I 
heard information that was consistent with what we were 
briefed. At this time I'm satisfied that there's not a great 
difference between the two. I'm told that your leaders have 
received similar information from meetings with General Bice 
and other Federal officials. So, I'm hoping that we are all 
starting off today from the same page, and I hope that this 
hearing has helped to bring us all to that point.
    I recognize that the feelings of frustration and 
uncertainty in your community are sourced in not knowing what 
will happen and being felt--and feeling that you can't affect 
change. For some, it is a perceived powerlessness, with respect 
to the will of the Federal Government, but I, for one, never 
believed that the people are powerless, and I have witnessed 
that power and action and have seen it actually make change 
happen.
    That being said, I believe that there is some side benefits 
to the process, because the debate itself will change Guam, 
with or without a military buildup, because of the greater 
awareness of the problems of infrastructure, of education, 
healthcare, environment, and the reliability of essential 
services that exist today, as well as some of the insecurities 
because of the current status that exist in some segments of 
the population.
    At the same time, the Federal Government, and most 
especially our U.S. Military, should not be surprised at what 
the people of Guam are asking for. This is a small island where 
the people and their ancestors have had significant moments 
that have changed their lives--Magellan's arrival, Spanish 
colonization, United States acquisition, and the brutal enemy 
occupation. This military buildup is one of those significant 
moments, and we must remember that the Guam of today is also 
far different from that of the 16th Century or even the 20th 
Century. This is the benefit of political and other experience, 
and there's also a greater political maturity.
    So we are here, we are prepared to be your partners to help 
ensure that you maximize a great opportunity this military 
buildup can present, and to minimize any untoward impacts that 
such a large influx of new people and new military needs could 
bring. Our country is indeed fortunate to have Guam as part of 
our family. We share the Governor's position that Guam's people 
must be viewed as relevant, as important stakeholders, and as 
equal partners, and that they must be full participants in this 
process.
    The island's location is strategic, and the people of Guam 
have always been described as some of our country's most 
patriotic citizens. A military buildup could seem to be a 
natural fit. Some of the finest military leaders are heading up 
the project.
    It is clear that Guam's leaders are equally skilled and 
even more so committed that the buildup considers the negative 
impacts on the island community, as well as the potential 
positive ones, and I look forward to the Committee being a part 
of that process.
    And thank you again for those who were witnesses, thank you 
for all who attended.
    I want to thank the President of the University for, again, 
making this hall available and for staying with us throughout 
the entire hearing.
    And if I don't get a chance to do so publicly again, I want 
to thank the people of Guam on behalf of our entire delegation 
for their warm hospitality.
    Oh, yes, and I want to just remind everyone that the town 
hall meeting will be held this coming Thursday at 6:00 p.m. It 
will be at the Hilton. And the testimony or the questions or 
any comments that are received at the town meeting will also 
become a part of the record of this hearing.
    So, thank you again. If there's no further business before 
the Subcommittee, the Chairman again thanks the members of the 
Subcommittee and our witnesses, and the Subcommittee stands 
adjourned.
    [Whereupon, at 1:01 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
